<html>
<title> - UNDERAGE DRINKING: RESEARCH AND RECOMMENDATIONS</title>
<body><pre>[Senate Hearing 108-374]
[From the U.S. Government Printing Office]



                                                      S. Hrg. 108-374

            UNDERAGE DRINKING: RESEARCH AND RECOMMENDATIONS

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

   EXAMINING UNDERAGE DRINKING, FOCUSING ON REDUCING AND PREVENTING 
  UNDERAGE DRINKING THROUGH A WIDE VARIETY OF GOVERNMENT AND PRIVATE 
       PROGRAMS FOR THE PURPOSE OF DEVELOPING A NATIONAL STRATEGY

                               __________

                           SEPTEMBER 30, 2003

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


89-740              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                  Sharon R. Soderstrom, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

       Subcommittee on Substance Abuse and Mental Health Services

                      MIKE DeWINE, Ohio, Chairman

MICHAEL B. ENZI, Wyoming             EDWARD M. KENNEDY, Massachusetts
JEFF SESSIONS, Alabama               JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island

                    Karla Carpenter, Staff Director

                  David Nexon, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                      TUESDAY, SEPTEMBER 30, 2003

                                                                   Page
DeWine, Hon. Mike, a U.S. Senator from the State of Ohio.........     1
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut....................................................     4
Bonnie, Richard J., Director, University of Virginia Institute of 
  Law, Psychology and Public Policy; Patricia Kempthorne, First 
  Lady of Idaho; Jeff G. Becker, President, Beer Institute; Wendy 
  J. Hamilton, National President, Mothers Against Drunk Driving; 
  and David DeAngelis, student, North Haven High School, North 
  Haven, CT......................................................     7

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Richard J. Bonnie............................................    34
    Patricia J. Kempthorne.......................................    36
    Jeff Becker..................................................    38
    Wendy J. Hamilton............................................    41
    David DeAngelis..............................................    49
    Catherine Bath...............................................    50
    Brandon Busteed..............................................    51
    Peter H. Cressy..............................................    54
    George A. Hacker and Kimberly Miller.........................    55
    Arthur T. Dean...............................................    60
    Juanita D. Duggan............................................    61
    Governors Highway Safety Administration......................    64
    Ralph Hingson................................................    67
    Letter to Senator DeWine, dated Sept. 29, 2003, from Ed 
      Cloonan, President, Independent State Store Union..........    81
    Susan M. Molinari............................................    81
    National Association for Children of Alcoholics..............    94
    James A. O'Hara..............................................    94
    David K. Rehr................................................   100
    Response to Questions of Senator Reed from Richard Bonnie....   168
    Response to Questions of Senator Reed from Jeff Becker.......   169
    Response to Questions of Senator Reed from Wendy Hamilton....   170

                                 (iii)

  

 
            UNDERAGE DRINKING: RESEARCH AND RECOMMENDATIONS

                              ----------                              


                      TUESDAY, SEPTEMBER 30, 2003

                               U.S. Senate,
 Subcommittee on Substance Abuse and Mental Health 
                                          Services,
of the Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:12 a.m., in 
room SD-430, Dirksen Senate Office Building, Senator DeWine 
presiding.
    Present: Senators DeWine and Dodd.

                  Opening Statement of Senator DeWine

    Senator DeWine. Let me welcome all of you to the second 
hearing of the Subcommittee on Substance Abuse and Mental 
Health Services. I want to apologize for getting started a 
little late. As you know, the Senate was voting and we can't 
control the votes around here, at least I can't control the 
votes.
    We are here today to discuss a very serious issue affecting 
the health and well-being of our Nation's young people, an 
issue that really has been ignored I think for too long, an 
issue that kills thousands of American teenagers. We are here 
today to talk about underage drinking and the devastating 
impact it is having on this country's young people.
    We all know that underage drinking is a significant problem 
for youth in this country. We have really known this for as 
long time. We have known that underage drinking often 
contributes to the four leading causes of death among 15 to 20 
year olds, that 69 percent of our young people who died in 
alcohol-related traffic fatalities in the year 2000 involved 
young drinking drivers; that in 1999, nearly 40 percent of 
people under age 21 who were victims of drownings, burns and 
falls tested positive for alcohol.
    We have known that alcohol has been reported to be involved 
in 36 percent of homicides, 12 percent of male suicides, and 
eight percent of female suicides involving people under the age 
of 21. And we know that underage drinking accounts for 6\1/2\ 
times more deaths among young people than illicit drug use. Let 
me repeat that: we know that underage drinking accounts for 
6\1/2\ times more deaths among young people than illicit drug 
use.
    It should be of little surprise that the 2002 National 
Survey on Drug Use and Health, administered by the Substance 
Abuse and Mental Health Administration, found that 10.7 million 
young people, age 12 to 20, reported drinking alcohol within a 
30-day period. Of these, over 7 million were binge drinkers, 
binge drinkers defined as those having five or more drinks on 
the same occasion at least once in the past 30 days. 
Furthermore, about three in ten of our Nation's high school 
seniors are not only drinking alcohol, but also are doing so to 
extreme excess. In fact, nearly one-third of 12th graders 
reported binge drinking.
    How did we get where we are today? How did our Nation reach 
this point, a point where today 12 percent of eighth graders, 
12 and 13 year olds, binge drink? Yes, 12 and 13 year olds.
    Add to that the 22 percent of tenth graders, 14 and 15 year 
olds, who binge drink. These statistics are frightening. Too 
many American kids are drinking regularly, and they are 
drinking in quantities that can be of great harm to them and to 
society.
    Another study reinforces this concern. Monitoring the 
Future, 1975-2002, conducted by the National Institute of Drug 
Abuse, found that experience with alcohol is ``almost 
universal'' among secondary school and college students, in 
spite of the fact that it is illegal for almost all of them to 
buy alcohol.
    This study found that 47 percent of 8th graders, 67 percent 
of 10th graders, 78 percent of 12th graders, and 86 percent of 
college students have tried alcohol. The National Institute of 
Drug Abuse also reported that 95 percent of 12th graders 
perceive alcohol as readily available to them.
    Again we ask, how did we get here? As a Nation, we clearly 
haven't done enough to address this problem. We haven't done 
enough to acknowledge how prevalent and widespread teenage 
drinking is in this country. We haven't done enough to admit 
that it is a problem with very real and very devastating 
consequences. We haven't done enough to help teach America's 
children about the dangers of underage drinking.
    We talk about drugs and the dangers of drug use, as well we 
should. But the reality is that we, as a society,. have become 
complacent about the problem of underage drinking. This simply 
has to change. Our culture has to change. What we tolerate has 
to change. What we accept has to change.
    In reaction to the binge drinking and drug use problem on 
college campuses in particular, I have worked with my friend 
and colleague from Connecticut, Senator Lieberman, to write a 
bill that would provide grants to States to create or enhance 
collaborations with universities, campus communities, local 
businesses and nonprofit organizations to change the culture of 
abuse and underage use of alcohol that pervades so many of our 
Nation's colleges and universities. This would be an important 
step toward reducing underage drinking on our college campuses, 
but as these statistics have clearly shown, we need to do more 
and we need to do it as quickly as possible.
    Kids are beginning to drink earlier and earlier, at younger 
and younger ages, and they are doing so in ways that could 
negatively affect their bodies, their minds, and certainly 
their futures.
    Our hearing today will include an examination of the 
recently released study by the National Academy of Sciences. 
That study is entitled, ``Reducing Underage Drinking: A 
Collective Responsibility.'' We will examine this study and its 
recommendations. The purpose of this study was to develop cost-
effective strategies for reducing and preventing underage 
drinking, as directed by Congress in the fiscal year 2002 
Labor-HHS Appropriations bill.
    In this report, we find 10 main areas of recommendations. 
Arguably, the most controversial of these recommendations is to 
raise the State and Federal excise tax on alcohol. I must say 
that that recommendation is not within the jurisdiction of this 
subcommittee and, therefore, I do not expect that we will spend 
a whole lot of time on this recommendation, at least today.
    Instead, I would like to focus our time today on other 
recommendations contained in the report, such as the creation 
of an adult-oriented media campaign, improved limits on access 
to alcohol for potential underage drinkers, community 
interventions to prevent underage drinking, and the role of 
media and entertainment in fostering underage drinking.
    Before we continue, I want to thank my friend and colleague 
from Connecticut, Senator Chris Dodd, for his dedication to 
combating the problem of underage drinking. He certainly is a 
tireless fighter for America's children and our young people. 
He cares about children. He cares about their well-being.
    I am privileged, I must say, to have worked with Chris on 
many, many issues involving our young people, with the many 
pieces of legislation that we have worked together on to 
protect children and to promote their health and their welfare. 
I know that combating teenage drinking has been and continues 
to be very important to Senator Dodd, and I thank him for his 
interest in this area and for being with us today.
    I would like to thank our guests at this time. First let me 
introduce Dr. Richard Bonnie from the University of Virginia 
School of Law. Dr. Bonnie is the chairman of the Institute of 
Medicine committee that created the NAS report and he has a 
wealth of expertise in the fields of mental health and drug 
law, public health law, and bioethics. He served as a member of 
the National Advisory Council on Drug Abuse from 1975 to 1980, 
and was elected to the Institute of Medicine in 1991.
    Dr. Bonnie has previously chaired IOM committees on injury 
prevention and control, opportunities in dug abuse research, 
and has served as vice-chair of the IOM Committee on Preventing 
Nicotine Dependence in Youths and Children.
    Second, let me introduce Patricia Kempthorne, the First 
Lady of Idaho. Mrs. Kempthorne has been tireless in the fight 
against underage drinking. She joins 33 other governor's 
spouses as a member of the Leadership to Keep Children Alcohol 
Free, a coalition of Federal agencies and public and private 
organizations dedicated to helping prevent alcohol use in 
children from the ages of 9 to 15. This is the only national 
effort to focus on this specific age group.
    Third, let me introduce Mr. Jeffrey Becker, President of 
the Beer Institute. Mr. Becker was appointed President of the 
Beer Institute in 1999. He currently serves on the Board of 
Directors of the National Commission Against Drunk Driving and 
the Techniques of Effective Alcohol Management Coalition. 
Before joining the Beer Institute, he was the National Director 
of the Techniques of Alcohol Management for the National 
Licensed Beverage Association.
    Let me introduce also Wendy Hamilton, National President of 
Mothers Against Drunk Driving. She began her career in activism 
after three separate drunk driving crashes occurred within her 
own family. In 1984, after having suffered through the death of 
her sister and 22 month old nephew at the hands of a drunk 
driver, she joined the local Indiana MADD chapter. In 1995, she 
joined the MADD National Board of Directors, where she served 
as a national vice president of victim issues, and then as 
national vice president of field issues.
    Let me at this point invite Senator Dodd to introduce his 
witness.
    Senator Dodd. Thank you very much, Mr. Chairman. We are 
pleased to have David DeAngelis with us from North Haven, CT, 
who has been a wonderful young advocate against teenage 
drinking. David, we're truly honored to have you here from 
North Haven as a representative of the younger people on the 
panel. I am delighted to have David with us and truly honored 
to have the entire panel.
    I would ask to make opening comments at the appropriate 
time.
    Senator DeWine. Good.
    As you all have seen, we are also honored, in addition to 
Mrs. Kempthorne, to have other distinguished guests in the 
front row. Let me introduce them.
    First is Mrs. Bush, the First Lady of Florida, who is with 
us today. In addition to Mrs. Bush, we have Vicky Cayetano, the 
past First Lady of Hawaii; Theresa Racicot, the past First Lady 
of Montana is here; Sherri Geringer, past First Lady of 
Wyoming; Mary Herman, past First Lady of Maine; Sharon 
Kitzhaber, former First Lady of Oregon; Michele Ridge, past 
First Lady of Pennsylvania; Martha Sundquist, past First Lady 
of Tennessee; and Sue Ann Thompson, past First Lady of 
Wisconsin. We welcome all of you and thank you very much for 
being here.
    Senator Dodd. That's a potent group. [Laughter.]
    Senator DeWine. It is a very potent group. We are delighted 
to have all of you. It is so impressive that each one of you 
would take your very, very valuable time to join us here today. 
If the panel gets stumped, we will turn to you and bring you up 
here for the tough questions, because I know you have all dealt 
with a lot of tough issues in your States. So if Senator Dodd 
or I get stumped, we will just turn to you, right, Chris?
    Senator Dodd. Thank you, Mike. Absolutely.
    Senator DeWine. Let me now turn to my colleague, Senator 
Dodd, for his opening statement.

                   Opening Statement of Senator Dodd

    Senator Dodd. Thank you very much, Mr. Chairman.
    I think you should know, Mr. Chairman, that David is 
missing a cross-country track meet today to be here with us.
    Senator DeWine. He looks like a cross-country track star. 
[Laughter.]
    Senator Dodd. Thank you very much, Mr. Chairman, for 
holding this hearing and for allowing me to come by. I'm not 
the ranking member of this subcommittee--Senator Kennedy is--
but he very graciously allowed me to come in his place.
    As Senator DeWine has already indicated, he and I have 
worked on numerous issues involving children. Having chaired 
the Subcommittee on Children and Families for many years and 
having been the ranking Democrat on the committee, working with 
Mike DeWine has been truly a pleasure on so many issues. I 
won't belabor the point here, but there have been numerous 
bills that have become law that Mike and I worked on together 
and it's truly an honor, a privilege and a pleasure to be with 
him again today on this subject matter, which is so vitally 
important.
    Let me thank as well the First Ladies, former and present, 
for being here from your various States. It is tremendously 
important that you lend your support to this effort because so 
much of it needs to be done at the local and State level. I 
think the Federal Government can play a very important role, a 
cooperative role here, but ultimately, as we have all learned 
over the years, it's what happens on the ground locally that 
makes the difference.
    Mrs. Kempthorne, it's a pleasure to have you here. We miss 
Dirk as a great pal and friend, so it's a pleasure to have you 
on the panel with us this morning.
    Let me share a few opening thoughts, if I can, Mr. 
Chairman, and then we'll get to our panel of witnesses.
    As I pointed out, today the subcommittee is examining the 
significant problems caused by the consumption of alcohol by 
our Nation's young people. The word ``staggering'' doesn't 
really do it justice, but the numbers are staggering in my view 
of what is going on across the country with is problem.
    Alcohol is the most commonly used drug--and I'm preaching 
to the choir here; many of you here know this already--is the 
most commonly used drug among America's youth. More young 
people drink alcohol than smoke tobacco or use marijuana. In 
1996, which is the last year we have any reliable numbers on in 
this area--which also tells you something about the problem, 
where we have to go back almost 7 years to get some decent 
national numbers--in 1996 underage drinking caused around 3,500 
deaths, more than 2 million injuries, 1,200 infants were born 
with fetal alcohol syndrome, and more than 50,000 youths were 
treated for alcohol dependency. That was 7 years ago.
    In 2002, 20 percent of 8th graders had drunk alcohol in the 
previous 30 days. Forty-nine percent of high school seniors are 
drinkers, and 29 percent report having had five or more drinks 
in a row in the past 2 weeks. The numbers, as I said at the 
outset, are staggering.
    Earlier this month, the Institute of Medicine released a 
comprehensive study, ``Reducing Underage Drinking: A Collective 
Responsibility'', that many of our witnesses this morning will 
reference in their comments. The important report laid out the 
national problems presented by the consumption of alcohol by 
young people and established a multitiered national strategy to 
reduce the great toll caused by underage drinking. The IOM 
report estimates that the social costs associated with underage 
drinking are close to $53 billion annually, including $19 
billion from automobile accidents and $29 billion from 
associated violent crime. Some people aren't impressed with the 
numbers of the cost, and those numbers ought to get people's 
attention.
    While no one can argue with the tragic loss of life and the 
significant financial costs associated with underage drinking, 
too few of us think of the equally devastating loss of 
potential that occurs when our children begin to drink. 
Research indicates that children who begin drinking do so at 
only 12 years of age. We also know that children that begin 
drinking at such an early age develop a pre-disposition for 
alcohol dependence later in life.
    Such early experimentation can have devastating 
consequences and derail a child's potential just as he or she 
is starting out on the path to adulthood. The consumption of 
alcohol by our children can literally rob them of their future.
    As the IOM report makes perfectly clear, the problems 
presented by underage drinking are wide-reaching. Mr. Chairman, 
similarly, our responses to underage drinking must be equally 
far-reaching, in my view. I think that all of us here this 
morning would agree that the battle against underage drinking 
begins first and foremost with parents and their children.
    However, as the IOM report makes perfectly clear, parental 
involvement makes up only one part of a needed national 
strategy to combat underage drinking. In fact, the IOM calls 
for ``a deep shared commitment'' among broad institutions and 
constituencies to combat underage drinking; restraint in the 
advertising of alcohol; a national media campaign to encourage 
adult involvement in efforts to prevent underage drinking; 
vigilance in preventing the sale of alcohol to minors; and most 
controversial, high excise taxes on alcohol.
    While I believe that all of these suggestions have 
tremendous merit, I am most convinced that the effort to 
prevent underage drinking requires a greatly strengthened 
Federal commitment, as Government spending to prevent underage 
drinking pales in comparison to that devoted to drug and 
tobacco prevention efforts. I don't underestimate the 
importance of our commitment in those areas, but when you 
compare the numbers and compare the cost of life and the 
devastation that occurs, then I think people may get the point 
here. In fact, the Federal Government spent $1.8 billion in the 
year 2000 to discourage illegal drug use, and only $71 million 
to discourage youth drinking. Clearly, there needs to be a 
greater sense of balance considering the loss of life and the 
problems associated here.
    So it is with great hope, Mr. Chairman, that I attend this 
morning's hearing with your leadership and your commitment to 
this issue. The toll that underage drinking extracts from our 
Nation each and every year is a terrible one, a toll far too 
great to continue or one to be ignored.
    It is my hope that the discussion we have this morning will 
provide us with a starting point from where we, as policy 
makers, can make a difference. Public health advocates and 
representatives from the industry can begin with us to outline 
a national strategy to save our Nation's youth from the dangers 
of underage drinking.
    I want to thank all of our witnesses today, as well as you 
did, Mr. Chairman, for being here to share their testimony with 
us. I look forward to hearing from them.
    Senator DeWine. Senator Dodd, thank you very much.
    Dr. Bonnie, why don't we start with you. What we will do is 
have a five-minute rule, if you could just kind of summarize 
your testimony. We have the written testimony from all of you. 
If you can summarize your testimony in five minutes, that will 
give us plenty of time to have questions.

   STATEMENTS OF RICHARD J. BONNIE, DIRECTOR, UNIVERSITY OF 
   VIRGINIA INSTITUTE OF LAW, PSYCHOLOGY AND PUBLIC POLICY; 
   PATRICIA KEMPTHORNE, FIRST LADY OF IDAHO; JEFF G. BECKER, 
    PRESIDENT, BEER INSTITUTE; WENDY J. HAMILTON, NATIONAL 
PRESIDENT, MOTHERS AGAINST DRUNK DRIVING; AND DAVID DeANGELIS, 
       STUDENT, NORTH HAVEN HIGH SCHOOL, NORTH HAVEN, CT

    Mr. Bonnie. Thank you, Mr. Chairman, and Senator Dodd.
    As you mentioned, my name is Richard Bonnie and I'm the 
John Battle professor of law and Director of the Institute of 
Law, Psychiatry, and Public Policy at the University of 
Virginia. I did serve as chair of the Committee on Developing a 
Strategy to Reduce and Prevent Underage Drinking.
    As the chair mentioned, the study was conducted at the 
request of the Congress, and we did conduct an intensive study 
that involved many components and many efforts to gather 
information.
    The starting point for our report I want to emphasize is 
the current national policy that sets 21 as the minimum 
drinking age.
    Alcohol use by young people is an endemic problem that is 
not likely to improve, in the committee's judgment, in the 
absence of significant new interventions. As Senator Dodd 
mentioned, many more of the Nation's youth drink than smoke 
cigarettes or use other drugs, and young people tend to drink 
more heavily than adults, exacerbating the dangers to 
themselves and to people around them.
    As noted both by Senator DeWine and Senator Dodd, the 
prevalence, frequency and intensity of underage drinking is 
disturbingly high, and I won't go over the numbers that each of 
you has mentioned. The social cost of underage drinking is 
enormous and far exceeds the social cost of illegal drug use 
and other problem behaviors.
    Now, although the public is generally aware of the problems 
associated with underage drinking, the Nation's social response 
has not been commensurate with the magnitude and seriousness of 
this problem. The disparity is evident not only in the fact, as 
Senator Dodd mentioned, that the Federal Government spends 25 
times more on the prevention of illicit drug use by young 
people than on the prevention of underage drinking, but also in 
the lack of sustained and comprehensive grassroots efforts to 
address the problem in most communities.
    Some people think that the key to reducing underage 
drinking lies in finding just the right messages to send to 
young people to instill negative beliefs and attitudes toward 
alcohol use. Others tend to focus on changing the marketing 
practices of the alcohol industry in order to reduce young 
people's exposure to messages designed to promote drinking. 
However, in the committee's view, the problem is much more 
complicated than either of these positions would suggest 
because alcohol use is deeply embedded in the economic and 
cultural fabric of life in the United States. Annual revenues 
of the alcohol industry amount to $116 billion.
    The challenge then is how to reduce underage drinking in a 
context where adult drinking is widespread and commonly 
accepted and where billions of gallons of alcohol are in the 
stream of commerce. We believe that this will require a broad, 
multifaceted effort.
    The primary goal of the recommended strategy is to create 
and sustain a broad and strong societal commitment to reduce 
underage drinking. All of us, acting in concert, including 
parents and other adults, alcohol producers, wholesalers and 
retail outlets, the entertainment media and community groups 
must take the necessary steps to reduce the availability of 
alcohol to underage drinkers, to reduce the attractiveness of 
alcohol to young people, and to reduce opportunities for 
youthful drinking. Underage drinking prevention is everybody's 
business.
    The report emphasizes that adults must be the primary 
targets of this national campaign to reduce underage drinking. 
Most adults express concern about underage drinking and voice 
support for public policies to curb it. Yet, behind this 
concern lies a paradox. Youth often get their alcohol from 
adults, and many parents downplay the extent of the problem, or 
are unaware of their own kids drinking habits. Thirty percent 
of parents whose kids reported drinking heavily within the last 
30 days think their kids do not at all.
    The sad truth is that many adults facilitate and condone 
underage drinking. We need to change the behavior of well-
meaning adults in communities all over the Nation, including 
people who are holding drinking parties for their kids in their 
homes, in violation of the law, thinking that they are doing 
the right thing.
    As the centerpiece of the committee's adult-oriented 
strategy, our report calls on the Federal Government to fund 
and actively support the development of a national media 
campaign designed to create a broad societal commitment to 
reduce underage drinking, to decrease adult conduct that tends 
to facilitate underage drinking, and to encourage parents and 
other adults to take specific steps in their own households, 
neighborhoods and businesses to discourage underage drinking.
    The comprehensive strategy we suggest also includes a 
multipronged plan for boosting compliance with the laws that 
prohibit selling or providing alcohol to young people under the 
legal drinking age of 21. Efforts to increase compliance need 
to focus both on retail outlets and on the social channels 
through which underage drinkers obtain their alcohol.
    The committee also supports specific interventions and 
education programs that are aimed at young people, as long as 
these programs have been evaluated and found to be effective. 
That goes for publicly-supported programs as well as privately-
supported ones.
    Community leaders need to mobilize the energy, resources 
and attention of local organizations and businesses to develop 
and implement programs for preventing and reducing underage 
drinking. These efforts should be tailored to specific 
circumstances of the problem in their communities. The Federal 
Government, as well as public and private organizations, should 
encourage and help pay for relevant community initiatives that 
have been shown to work.
    The alcohol industry also has a vitally important role to 
play in the strategy we have proposed. The committee 
acknowledges to industry's declared commitment to the goal of 
reducing underage drinking and its willingness to be part of 
the solution. We believe there is much common ground, and that 
opportunities for cooperation are now being overlooked.
    Specifically, we urge the alcohol industry to join with 
public and private entities to create and fund an independent, 
nonprofit foundation that focuses solely on designing, 
evaluating, and implementing evidence-based programs for 
preventing and reducing underage drinking. Although the 
industry currently invests in programs that were set up with 
this goal, the results of these programs have rarely been 
scientifically evaluated, and the overall level of industry 
investment is modest in relation to the revenues that are 
generated by the underage market. We think it is reasonable to 
expect the industry to do more than it is now doing, and to 
join with others to form a genuine national partnership to 
reduce underage drinking.
    We also urge greater self-restraint in alcohol advertising. 
We recognize, of course, that advertising is a particularly 
sensitive issue and that the industry has recently taken 
important steps forward.
    The FTC recently announced that the beer and distilled 
spirits trade associations have joined the wine industry to 
increase the threshold to 70 percent for the minimum proportion 
of adults in the viewing audience. This is a step in the right 
direction, but the committee believes that the industry should 
continue to reduce underage exposure and should refrain from 
marketing practices that have particular appeal to young 
people, regardless of whether they are intentionally targeted 
at young audiences.
    Companies and trade associations in the entertainment 
sector also have a responsibility to join in the collective 
effort to reduce underage drinking----
    Senator DeWine. Could you please wrap it up?
    Mr. Bonnie. --and exercise greater restraint in 
disseminating images and lyrics that promote or glorify alcohol 
use in venues with significant underage audiences.
    The Federal Government should periodically monitor these 
practices and take a number of other steps that are mentioned 
in the report, and which I hope we will have a chance to 
discuss later.
    Let me just mention, if I might, Senator, just a couple of 
points, again about the controversial feature of the 
recommendations that we made.
    To help pay for the proposed public programs and to help 
reduce underage consumption, Congress and State legislatures 
should raise excise tax rates on alcohol, especially on beer, 
which is the alcoholic beverage that young people drink most 
often. Alcohol is much cheaper today, after adjusting for 
inflation, than it was 30 or 40 years ago. Higher tax rates 
should be tied to the Consumer Price Index to keep pace with 
inflation. Research indicates that changes in these tax rates 
can decrease the prevalence and harmful effects of drinking 
among youths, who tend to have limited discretionary income and 
are especially sensitive to price.
    In summary, we have proposed a comprehensive strategy that, 
taken as a whole, would foster as deep, unequivocal societal 
commitment to curtail underage drinking. As a national 
community, we need to focus our attention on this serious 
problem and accept a collective responsibility to address it. 
This is an admittedly difficult challenge, but the committee 
believes that our country can do more than it is now doing. The 
Nation needs to develop and implement effective ways to protect 
young people from the dangers of early drinking while 
respecting the interests of responsible adult consumers of 
alcohol. The committee's report attempts to strike the right 
balance.
    Thank you for your interest and the opportunity to testify 
to the subcommittee.
    [The prepared statement of Mr. Bonnie may be found in 
additional material.]
    Senator DeWine. Mrs. Kempthorne. Mrs. Kempthorne. Thank 
you, Mr. Chairman, Senator Dodd. The Governor does send his 
best wishes to you, too.
    As First Lady of Idaho, I thank you for this invitation to 
speak here today on behalf of 34 current governor spouses and 
11 emeritus members of Leadership to Keep Children Alcohol 
Free. I would like to acknowledge again myself the commitment 
shown by our membership by being here today in support of this 
issue.
    We are a nonpartisan group, devoted to increasing public 
awareness, engaging policy makers, and mobilizing action to 
stop childhood drinking. Our specific focus is the 9 to 15 year 
old age group. The Leadership to Keep Children Alcohol Free was 
established to make childhood drinking prevention a national 
health priority. We are here today to emphasize for the 
committee the immediate and far-reaching consequences of 
childhood drinking and also to offer our recommendations for 
action.
    On a personal note, as an individual, as a parent, as a 
community encourager, a proponent for the health and well-being 
of our Nation's children, I would like to thank you and 
acknowledge the need for your leadership in addressing this 
issue.
    During most of my childhood, my father worked for a 
distributor of wine and distilled spirits. It was very clear to 
me at the time that alcohol was not meant for me as a child. 
Growing up, I learned to respect alcohol as an adult beverage, 
but also saw some of the effects of the abuse of alcohol. 
Witnessing the hurt and confusion caused by the abuse of 
alcohol was instructive in helping me make choices about how 
much alcohol I consumed. I do not believe that message is clear 
in our society today.
    So while it is unsettling to think that we have to consider 
elementary students when we think about drinking prevention, we 
do. The environment surrounding our children often contributes 
to their attitudes and expectations about alcohol. Making 
healthy life choices starts earlier than when we were children.
    Frightening but true, 29 percent of students report they 
first drank alcohol--and that's more than a few sips--before 
the age of 13. By the 8th grade, more than 12 percent of 13 to 
14 year olds surveyed reported having had five or more drinks 
in a row, or binge drinking, within the past 2 weeks. They are 
drinking with the goal of getting drunk.
    Children are our top priority. We expend tremendous energy 
ensuring that they are vaccinated, use infant car seats, have 
access to educational opportunities and health care. Yet there 
is a serious disconnect when it comes to childhood drinking.
    Research documents that more than 40 percent of the 
children who begin drinking before the age of 15 will develop 
alcohol abuse or dependence at some time in their lives. The 
adolescent brain is still a work in progress and, therefore, 
vulnerable. Science tells us that children who engage in heavy 
drinking before the age of 15 show noticeable changes in the 
brain, develop fewer learning strategies, and remember less 
than nondrinkers.
    While parents certainly bear responsibility for their own 
children, families do not live in a vacuum. Our homes are not 
bunkers from reality. Parental guidance is constantly 
challenged by external influences. We are not here to place 
blame, but to address a serious public health issue that is 
affecting a significant number of our Nation's children. The 
responsibility for solving this problem rests with all of us, 
including individuals, communities, policy makers and the 
industry.
    The National Academies of Science and the Institute of 
Medicine have identified opportunities for all of us to play a 
role in tackling the problem of childhood drinking. We are all 
stakeholders in the future of our Nation's children. We need to 
be motivated by what is in the best interests of our children. 
Cooperation and coalitions, not confrontations, will move us 
forward in our common interests of making sure the children of 
this Nation are healthy.
    On behalf of the Leadership to Keep Children Alcohol Free, 
and speaking as a parent, I would respectfully offer four 
recommendations for action:
    First, please do not let this be the only hearing on this 
critical public health issue. Let this ignite a series of 
hearings leading to significant deliberations and proposals.
    Second, we request that the subcommittee ask the Surgeon 
General to issue an independent ``Call to Action on Childhood 
Drinking''.
    Third, we request that national surveys begin collect data 
on alcohol use and attitudes, including brands, that include 
children as young as age 9.
    Finally, since alcohol is the number one illegal drug when 
used by our youth, we urge the subcommittee to support 
increased funding for research, prevention and treatment. It is 
time to increase the Nation's investment on this issue and to 
bring it in line with what is spent on illicit drugs and 
tobacco.
    Each of us can make a difference to ensure that our 
children have a strong foundation for life. Please recognize 
this is a serious problem. Our children are drinking alcohol at 
a younger and younger age, and that should be a concern for all 
of us.
    Thank you very much.
    [The prepared statement of Mrs. Kempthorne may be found in 
additional material.]
    Senator DeWine. Mr. Becker.
    Mr. Becker. Good morning, Mr. Chairman, and Senator Dodd. 
My name is Jeff Becker and I'm the President of the Beer 
Institute, the national trade association of America's brewers. 
I am pleased to be here to represent the almost 900,000 men and 
women employed by our industry.
    Our industry has a long and proud tradition of giving back 
to the communities where we live and do business, and we share 
the commitment of the members of this subcommittee in 
addressing illegal underage drinking.
    To that point, I want to specifically acknowledge the 
important role of community-based beer wholesalers. Beer 
wholesalers play a critical role by giving back to their 
communities through charitable contributions, implementing 
responsibility programs, and importantly, as employers. We 
share the same concern that all parents do about the safety of 
our children because we are parents, too. We do not want the 
business of young people below the legal purchase age.
    Let me first address the facts on underage drinking. 
According to a recent study by the Department of Health and 
Human Services, 82 percent of today's adolescents do not drink. 
Other recent Government studies show that teen drinking has 
been on the decline. The Department of Transportation reports a 
one-third reduction in fatalities among drivers 16 to 20 
between 1990 and today.
    While many factors explain this success, a critical reason 
is greater parental involvement. Brewers have long advocated 
and sponsored programs to help parents prevent underage 
drinking among teens and college-bound youth. By acknowledging 
the important decisions involved with underage drinking and 
encouraging their children to respect themselves and the law, 
parents have made an enormous difference.
    To help parents, we have distributed free of charge more 
than five million copies of materials in five different 
languages, with useful information to explain why drinking is 
inappropriate for youth.
    As stated in the Federal Trade Commission report earlier 
this month, retailers also play a vital role in stopping 
underage drinking by following their State laws and checking 
and verifying IDs. Brewers have helped here, too. Our members 
have sponsored seller and server training programs for over two 
decades. We have provided materials in English, Spanish, Korean 
and Vietnamese to teach retailers how to properly check and 
spot fake IDs.
    In addition, brewers have sponsored programs on college 
campuses and have supported research and programs, collectively 
known as ``social norms''. These programs are a positive 
approach that reminds college students that the large majority 
of their peers make healthy and responsible decisions about 
drinking.
    Since our industry's advertising activities have recently 
been the subject of congressional interest, I would like to 
briefly touch on some other developments that underscore 
brewers' commitment to marking and selling our products to 
adults.
    Over the last 6 years, the Federal Trade Commission has 
conducted four comprehensive reviews of our industry's 
advertising practices. The 2003 FTC report unequivocally stated 
that beer industry members do not target youth. The FTC report 
also discussed a number of changes in our industry advertising 
code which was first adopted in 1943. The code has served as 
the foundation for our long history of responsible and vigorous 
self-regulation of advertising and marketing practices. In 
fact, we recently changed our code of advertising to 
incorporate some of the best practices of our member companies 
and to address several FTC recommendations.
    I am pleased to inform you that our members have revised 
the standard for advertising placements in television, radio 
and magazines. The revised code now requires placement where 
the proportion of audience age 21 and older is expected to be 
70 percent or higher, which reflects the percentage of adults 
in the U.S. population.
    We do have some fundamental differences with the National 
Academy's recommendations and the process used to develop them. 
We believe the key to further progress in reducing underage 
drinking lies in family and community-based efforts. We are 
disappointed that the National Academy's panel ignored the 
clear direction of Congress to evaluate existing Federal, 
State, and nongovernmental programs. Unfortunately, the panel 
focused heavily on costly and experimental government 
solutions. The report does not provide the kind of guidance 
Congress sought to determine policy and funding priorities to 
further reduce illegal underage access and consumption.
    The Academy did recommend to increase excise taxes, and 
even though that is not part of the discussion today, it should 
come as no surprise that the beer industry opposes such a 
measure. We oppose higher taxes because they are not an 
effective deterrent to underage drinking. The National 
Institute on Alcohol Abuse and Alcoholism's special report to 
Congress showed that their research indicates that teens are 
not affected by higher taxes. It also exposes methodological 
flaws in the research that the Academies use to support their 
recommendation.
    In closing, I would first like to leave you with this fact. 
Brewers fully recognize that underage drinking is a problem 
that our society must tackle. We want to be a meaningful part 
of the solution to this issue, and by focusing our collective 
resources on proven, targeted and effective approaches, we can 
make a difference.
    As a father of two children, I share the committee's 
concern just like every other parent out there, and I very much 
appreciate the opportunity to be with you today to discuss 
these important issues.
    Thank you.
    [The prepared statement of Mr. Becker may be found in 
additional material.]
    Senator DeWine. Mrs. Hamilton.
    Mrs. Hamilton. Thank you, Senator.
    My name is Wendy Hamilton, National President of Mothers 
Against Drunk Driving. I am delighted to be here today to 
discuss this important issue.
    MADD's mission is to stop drunk driving, support the 
victims of this violent crime, and prevent underage drinking. I 
would like to thank Chairman DeWine and Senator Dodd for 
holding this hearing and for their commitment to protecting 
America's youth. MADD looks forward to working with this 
committee, the Congress, and with prevention partners like the 
Centers for Science in the Public Interest, the Center for 
Alcohol Marketing and Youth, and the American Medical 
Association to save lives.
    There are 10.1 million underage drinkers in this Nation. 
The proportion of high school seniors who drink and binge drink 
has not changed since 1993. There has been no progress in the 
last decade to reduce underage drinking.
    A collective memory that we all share are images from a 
recent touch football game between suburban Chicago high school 
girls that turned into a brutal hazing incident, resulting in 
the hospitalization of five students. Younger girls were beaten 
and splattered with mud, paint and feces while 100 students and 
adult onlookers cheered while waving cups of beer. Sixteen and 
17 year old girls were held upside down over a keg of beer 
while drinking from the tap. School officials cited alcohol as 
a major factor in the violence and police charged two parents 
with providing three kegs of beer to minors.
    That incident could have occurred in almost any town in 
America. Today, teens have easy access to alcohol. Underage 
drinking laws are not well enforced, and parents and 
communities often look the other way, in many cases even 
providing the beer.
    There is no such thing as responsible underage drinking. 
Young drivers make up seven percent of the driving population, 
yet constitute 13 percent of alcohol-involved drivers in fatal 
crashes. In the past year, youth drove 11 million times after 
drinking, and 40 percent of those who drove after drinking had 
passengers. Young drivers are putting themselves and others at 
risk.
    Nearly 40 percent of youth under age 21 who died from 
drowning, burns and fatal falls tested positive for alcohol. 
Youth alcohol use is associated with violence and suicidal 
behavior. In addition to the human costs, this economic cost to 
society is staggering. Conservatively, underage drinking costs 
this Nation $53 billion each year. The NAS report provides a 
monumental opportunity to stem the Nation's number one youth 
drug problem, and my testimony will focus on areas that MADD 
believes will have the greatest impact on reducing youth 
alcohol use.
    In 2000, this Nation spent $1.8 billion on preventing 
illicit drug use, which was 25 times the amount targeted at 
preventing underage alcohol use. The GAO found that seven 
percent of total funds available for alcohol and other drug use 
prevention had a specific focus on alcohol and targeted youth. 
NAS concludes that the multitude of agencies and initiatives 
involved suggest the need for an interagency body to provide 
national leadership and provide a single Federal voice on the 
issue of underage drinking.
    Recommendations 12-1 through 12-6 demonstrate a clear need 
for better Government assistance and coordination, beginning 
with a Federal interagency coordinating committee, chaired by 
the Secretary of HHS. All of these recommendations included in 
my written testimony should be implemented by Congress.
    Despite the fact that alcohol is the number one youth drug 
problem, underage drinking prevention messages are excluded 
from the ONDCP anti-drug media campaign. MADD strongly supports 
NAS Recommendation 6-1. The Federal Government should fund and 
actively support the development of an adult-focused national 
media campaign to reduce underage drinking.
    Many adults do not recognize the prevalence of or the risks 
associated with underage drinking, and many adults even 
facilitate kids drinking by providing access to alcohol by not 
responding to their kids drinking and by not adequately 
monitoring young people's behavior.
    Our youth are bombarded with irresponsible alcohol 
marketing messages, depicting drinking as cool, sexy, and 
glamorous. In 2001, the alcohol industry spent $5 billion on 
measured and unmeasured product advertising and promotion. MADD 
and the NAS believe stricter standards must be placed on all 
alcohol advertising to protect our children from constant 
exposure to alcohol messages.
    MADD supports all of the NAS recommendations on alcohol 
advertising but, in particular, urges action on NAS 
Recommendations 7-4 and 12-6, as outlined in my written 
testimony.
    Limiting youth access to alcohol is a proven way to 
decrease underage drinking. Sixty percent of 8th graders and 90 
percent of 12th graders report that alcohol is fairly easy to 
obtain. MADD strongly supports Recommendation 9-3, that the 
Federal Government should require States to achieve designated 
rates of retailer compliance with youth access prohibitions as 
a condition of receiving grant block funding, similar to the 
Synar amendment's requirements for youth tobacco sales.
    NAS also underscores the need for expanding youth and 
community interventions. MADD strongly supports Recommendation 
11-2, which states that Federal funding should be available 
under a national program dedicated to community-level 
approaches.
    MADD's youth programs are based on the latest scientific 
research and strive to empower children, teens and parents, 
with the knowledge to keep themselves and others safe from 
harm. It is imperative that evidence-based prevention efforts, 
such as MADD's Youth in Action and Protecting You/Protecting Me 
programs, as outlined in my written testimony, receive the 
needed support from the Federal Government.
    Finally, research shows that increased beer prices lead to 
reductions in the levels and frequency of drinking and heavy 
drinking among youth and lower crash fatality rates among young 
drivers. MADD strongly supports Recommendation 12-7, which 
urges Congress and State legislatures to raise excise taxes to 
reduce underage consumption and raise additional revenues for 
prevention programs. Top priority should be given to raising 
beer taxes in particular.
    It is time for this Nation to end our complacency about 
underage drinking and to take action to end this public health 
epidemic. More youth drink than use other illegal drugs, yet 
Federal investments to protect and prevent underage drinking 
pale in comparison with resources targeted at preventing 
illicit drugs.
    MADD stands ready to work with Congress, the public health 
community and others, to pursue introduction of a 
comprehensive, science-based legislative package to reduce and 
prevent underage drinking. I urge this committee to use the NAS 
report as a road map to create a healthier future for our 
children.
    Thank you.
    Senator DeWine. Mrs. Hamilton, thank you very much.
    [The prepared statement of Mrs. Hamilton may be found in 
additional material.]
    Senator DeWine. Mr. DeAngelis.
    Mr. DeAngelis. Good morning. My name is David DeAngelis and 
I'm a senior at North Haven High School in North Haven, CT. I 
would like to thank Senator Dodd, Chairman DeWine, and the 
subcommittee for inviting me to be here this morning. I am 
honored to have the opportunity to speak on this issue.
    Three summers ago, three classmates and I attended the 
Connecticut MADD Power Camp. One speaker left a lasting 
impression on us. A drunk driver killed her teenage daughter 
and she felt compelled to speak to young people about the 
perils of drinking and driving. But the task grew increasingly 
difficult. On the way to our group, she prayed to her daughter 
for a sign to help her continue. A car passed. The license 
plate read ``SAVE 1''.
    The four of us left the camp determined to address the 
problems of underage drinking in our community and started a 
newspaper column titled ``SAVE 1''. We decided to target 
adults, hoping to enlighten parents and encourage them to help 
their children make the right choices. After the other three 
students graduated, I continued to write the articles. I would 
like to submit some of them for the record.
    Although I received positive feedback about the column, I 
sometimes get frustrated. Last spring, I gave a presentation to 
parents at my town's middle school and only 30 people showed 
up. Trying to remain motivated became a challenge.
    Senator DeWine. We have that problem sometimes, too, with 
some of our audiences. [Laughter.] Not Senator Dodd, but I do. 
[Laughter.]
    Mr. DeAngelis. That changed this summer, when I volunteered 
as a staffer at Power Camp, and I worked with students to 
develop a project for that town. I left the camp optimistic 
after watching them rally behind their idea to focus on passing 
a local ordinance against serving alcohol to minors at house 
parties.
    So today I speak before you on the heels of the release of 
the NAS report on underage drinking. When I read the report, 
especially the committee's proposal for a national, adult-
oriented media campaign, the words ``adult-oriented'' jumped 
out at me. Targeting adults is necessary to effectively address 
underage drinking. Parents often take on a ``kids will be 
kids'' attitude and think that drinking is part of growing up. 
Actually, young people try to emulate adults whose social life 
revolves around alcohol. Many parents not only condone the use 
of alcohol, but also provide liquor to their children and their 
children's friends.
    Last May, a classmate of mine had an after-prom party where 
alcohol was included. To make sure the guests would be safe, 
his parents confiscated their car keys. This summer, what 
started as a few kids hanging out in a basement turned into a 
full-fledged party as more and more kids showed up with beer. 
The parents spent the entire evening upstairs, never checking 
on the group.
    Then there are the times when parents are not home. Kids 
party, drink, and do stupid and dangerous things. One girl 
hosting a party jumped into her pool fully clothed after 
getting drunk. Three times. Another classmate celebrated his 
birthday by drinking at a friend's house and then falling down 
the stairs.
    Underage drinking is not a problem confined to the town of 
North Haven. It happens everywhere. This past July, I was here 
in Washington for Boys Nation. Standing in the airport, I met 
some of the other delegates and casually asked what they like 
to do for fun. One promptly replied, ``Drink'' and began 
recounting stories that involved getting drunk with his 
friends.
    A large number of high school students are affected by 
underage drinking, including those who have made the decision 
not to drink. These kids are often ostracized by students in 
the more popular drinking circles and fight daily pressures to 
join.
    This initiative is extremely important. It will take a 
national movement to change the apathetic attitudes of parents. 
Blatant disregard for the drinking age simply cannot be 
tolerated. The youth of America are receiving the message that 
underage drinking is acceptable, not to mention the messages 
they receive from the media.
    The alcohol industry spends over $1 billion each year on 
advertising, portraying drinking as a ticket to good times. 
Most disturbing is the fact that alcohol companies advertise 
during TV programs viewed predominantly by teenagers. On the 
radio, more beer commercials are heard by children than by 
adults. These ads are clever, entertaining, and humorous. I can 
still recite a radio commercial for Beck's Beer that I heard 
almost every day this summer.
    When children are not getting bombarded with commercials, 
they are seeing images promoting drinking in the shows that 
they watch. Who else is watching MTV at 4:00 o'clock in the 
afternoon, or at 1:00 o'clock on a Saturday, when shows like 
Spring Break, Mardi Gras, or Fraternity Life are aired?
    Connecticut has the highest rate of underage drinking. The 
average age that children begin drinking is 11 for boys and 13 
for girls. The Connecticut Coalition to Stop Underage Drinking 
has been at work for the past 7 years addressing these issues, 
focusing much of its energy on the role of adults. It has also 
begun work on each of the local recommendations in the NAS 
report.
    But they only scratch the surface of the problem. We, the 
entire Nation, need the Federal Government's guidance, 
direction and resources. Underage drinking is a national crisis 
which is only getting worse. The NAS recommendations are too 
valuable to ignore.
    Thank you.
    [The prepared statement of Mr. DeAngelis may be found in 
additional material.]
    Senator DeWine. Very good testimony. Thank you very much, 
and thank you all.
    Mrs. Kempthorne, I was interested in your written testimony 
where you talked about the European model. You said that is 
certainly not something we should emulate in the United States. 
It strikes me how many people that I come across, who kind of 
casually say, you know, the Europeans have got it right. You 
know, they sort of introduce their kids to alcohol at 14 or 15 
and they don't seem to have the problems that we do in the 
United States.
    Could you comment on that?
    Mrs. Kempthorne. I can get you copies of the studies that 
really show that, when you look at testing in the United States 
and the European countries, looking at the amount of binge 
drinking that's being done, the United States is actually lower 
than most of them. We think that's because they drink as part 
of the family social life, that they don't binge drink later 
on. I think you will also find there are many countries out 
there that have already started similar types of programs, 
because they're seeing this issue really affecting them.
    I know one thing, that in Idaho we had seven Balkan 
countries come to Idaho to learn about teaching underage 
drinking prevention from our school system because of the 
problems they were having just in the Balkan countries. So it's 
pervasive all over the world. It's definitely a problem. There 
is not proof that shows that the European perception of what 
the European social life is is actually helping to curtail 
underage drinking, or actually the problem of alcoholism, which 
we talked about when they start at that age.
    Senator DeWine. In fact, according to your testimony, it's 
just the opposite.
    Mrs. Kempthorne. Absolutely.
    Senator DeWine. You talk in your written testimony about 
the problem with alcoholism, and if I read it correctly, I 
think you also talked about the long-term damage to those who 
start drinking earlier than 15.
    Mrs. Kempthorne. We know that 40 percent of those who start 
drinking earlier than 14 will most likely have an alcohol 
dependence or develop alcohol abuse in their lifetime, and that 
has been proven, yes.
    Senator DeWine. So I guess it's like other forms of 
addiction, other problems like smoking cigarettes. If you can 
keep a kid from doing it until they reach a certain age, 
they're probably okay. You know, the longer you can stop the 
from starting, the better off we're going to be.
    Mrs. Kempthorne. Yes. The research does show that starting 
to drink at 21 does reduce the possibility of becoming 
dependent on alcohol, and that's just what they've seen from 
the studies. It does prove that.
    Senator DeWine. Thank you.
    Mr. Becker, you heard Dr. Bonnie's comment--and let me read 
it from his written testimony. I want to get your reaction, if 
I could.
    ``Specifically, we urge the alcohol industry to join with 
private and public entities to create and fund an independent, 
nonprofit foundation that focuses solely on designing, 
evaluating, and implementing evidence-based programs for 
preventing and reducing underage drinking. Although the 
industry currently invests in programs that were set up with 
that stated goal, the results of these programs have rarely 
been scientifically evaluated.'' I'm putting emphasis on 
``scientifically'', but I think that's the intent.
    What would be wrong with doing that? Wouldn't that achieve 
your stated goal, and wouldn't that also kind of take you guys 
off the hot seat in the sense of you wouldn't be subject to 
criticism from someone saying gee, these programs aren't 
scientifically based, we don't know if they work. You know, you 
could create a nonprofit that was an independent nonprofit, and 
you could set it up and it would do exactly what Dr. Bonnie 
said, and you could adequately fund it. What would be wrong 
with that?
    Mr. Becker. Well, Senator, I guess I would say several 
things about that. First of all, the industry has been and 
continues to be involved in a variety of independent 
organizations that receive both industry and government 
funding. Two of those you mentioned in your introduction of 
me--the National Commission Against Drunk Driving and the 
Techniques for Effective Alcohol Management Program. Those are 
but two of many other things that the industry is involved 
with, mostly at the community level.
    I think our concern really is about how things are done at 
the community level. Our concern on national programs tends to 
be a lack of diversity of thought, that a ``one size fits all'' 
approach we know doesn't work in general, that community-based 
programs that take into account the unique circumstances of 
either that State or that community tend to be more effective.
    We have had long running partnerships with a variety of 
different organizations. Frankly, there has been an 
unwillingness on the part of some organizations to even work 
with our industry. That has been a challenge, particularly over 
the last 10 years. This industry will work with anyone who is 
truly interested in solving underage drinking. As I mentioned 
in my testimony, I am a parent and I live in a community just 
south of here. I want to see underage drinking resolved as 
well. But I think there needs to be a little more groundwork 
done before this industry can commit to that type of a 
coalition, including, I think, encouraging some organizations 
to work with our industry.
    Senator DeWine. Does anybody want to respond to that? Then 
I will have a comment. Dr. Bonnie, you're the one who sort of 
set this up.
    Mr. Bonnie. Yes. Well, I'm actually very encouraged by what 
Mr. Becker just said. I think all of us can see that this tends 
to be a highly polarized issue and that the industry is 
concerned about those who take positions that don't seem to 
allow room for a genuine partnership.
    As I said, I think there is a tremendous amount in the 
report that is very, very consistent with positions that the 
industry has taken, focusing on enforcing the underage access 
restrictions, focusing on community coalitions, focusing on 
effective youth-oriented programs, and concentrating on good 
parenting and other issues relating to adults. I think most of 
this report is very, very consistent with positions the 
industry has taken. There ought to be room for people who have 
this common agenda to sit around the table and think about how 
the cause can be furthered. So I appreciate Mr. Becker's 
response.
    Senator DeWine. Let's get right down to it. The reality is 
that Mr. Becker's industry is never going to support anything 
that talks about raising taxes on their product. So that's a 
different issue and we can debate that.
    But beyond that, if I listen to him and I listen to you, 
and listen to Mrs. Hamilton, and I listen to Mrs. Kempthorne 
and Mr. DeAngelis, or I listen to myself, Senator Dodd or any 
of us as parents, you know, what in the world do we have to 
disagree about? We don't want our kids drinking underage, and 
we don't want kids getting in a car who have been drinking, and 
we don't want our kids dying. It seems to me that it shouldn't 
be this hard. To see this battle go back and forth between the 
industry--and it is a legal industry, and it's going to stay 
legal. We sort of resolved that issue when we went through 
Prohibition. So it is legal and it's going to stay legal.
    Now, the question is, we ought to get the industry to spend 
as much as we can get them to spend on trying to deal with 
underage drinking, and we ought to move forward here, it seems 
to me.
    Mr. Bonnie. I think so, too. I think it would be a mistake 
for the disagreement about the tax issues to obscure and impede 
the numerous opportunities that I think you just identified for 
collaboration. We can make this an inclusive effort, if we can 
just----
    Senator DeWine. It seems to me you sort of do what you do 
in arbitration, where each side picks a third party and you 
sort of move on. You're not going to appoint somebody and they 
appoint somebody. You probably get two people removed and then 
you end up and get this independent group.
    We are not going to settle this today, but it just seems to 
me that we ought to move beyond this, and these types of 
squabbles are not very productive and they become for the 
public, frankly, a little irritating. For parents, they get a 
little irritating. We ought to move on and start saving some 
kids' lives here.
    Frankly, Mr. Becker, it still is a problem. You may have 
made some progress, but it is still a problem. We still have 
kids dying out there. As Senator Dodd has pointed out, we are 
spending an awful lot of money dealing with drugs, as we 
should, in this country, but we are not spending enough money 
dealing with underage drinking. We ought to start spending more 
money on it, and we ought to start focusing more on it. We are 
just not doing enough. That is the reality. Whether or not in 
the climate we have today, with the budget problems, that we're 
going to convince anybody here to do it, I don't know. But we 
need to start doing it.
    Let me turn it over to Senator Dodd and then I will come 
back for some more questions.
    Senator Dodd. Thank you, Mr. Chairman. Let me thank all of 
you again for your testimony.
    First of all, David, I'm very proud of you as your Senator.
    Mr. DeAngelis. Thank you.
    Senator Dodd. Tell us what might work. I mean, in spending 
time with young people, do you know of young people that have 
stopped drinking, who were drinking and stopped, and if so, 
what motivated them to stop? Or what do you think would work? 
What do you think helps? I mean, you have brought up the focus 
on adult issues, but give us some more specific examples of 
what might work.
    Mr. DeAngelis. Well, I don't really know of any kids who 
have stopped drinking, but many of my friends have made a 
commitment not to drink. I think that just stems from their 
strong families lives, of having involved parents, parents who 
are there for all their activities, parents who know what their 
kids are doing. They have made it clear from an early age that 
drinking is illegal and that should be a good enough reason not 
to drink, besides all of the health factors and other things 
that can happen through underage drinking.
    My parents have been extremely supportive of everything I 
have done. They have been with me every step of the way. I know 
there are other parents out there like that. I believe it is 
just a matter of reaching the other parents out there who just 
don't get it yet.
    Senator Dodd. What sort of messages do you think would 
work? You talked about messages. Give me some idea of what 
those should be.
    Mr. DeAngelis. There is a national campaign about talk to 
your kids about smoking marijuana, ads like that, sort of 
counteracting the messages that they are receiving now. Just 
talk to your kids, spend time with them. Be an involved parent. 
I think the more parents have a role in their kids' lives, the 
more--Kids want that. Kids want their parents to be with them 
and know that they really support them and that they love them.
    Senator Dodd. I understand that an awful lot of people 
don't have the wonderful luxury of having two parents at home 
all the time. A lot of times it is a single mother raising more 
than one or two children. The pressures are tremendous, maybe 
holding down two or three jobs and trying to keep the family 
together economically. The pressures are really tremendous, 
particularly for single parents. There are just horrendous 
pressures on them.
    Mr. DeAngelis. Absolutely. But even so, they are still with 
their kids at least some time during the day. Kids look up to 
their parents, and a lot of them, without realizing it, want to 
be like their parents. And even if there's just a single parent 
out there, they will listen to he or she.
    Senator Dodd. You mentioned the Beck's Beer ad. What is 
that? Do you remember how it goes? [Laughter.]
    Mr. DeAngelis. It started off talking about steaks, and 
when a steak is cooked all the way through, it is considered 
well done. But when a life is well done, it is completely and 
totally rare. Something along those lines. It is somehow 
related back to beer and how life is best enjoyed sharing 
steaks over beer. It was a nice summer ad.
    Senator Dodd. I am concerned as well about this.
    Mr. Becker, I appreciate some of the changes that have been 
made. But in just looking at some of these ads that have been 
on--tell me whether these are still on or not. Here is one that 
says Game Day. This is the one where Heineken's has a Nintendo 
game toy, with two Heineken beer bottles as a part of Game Day. 
That is obviously not aimed at adults, is it?
    Mr. Becker. Well, sir, I happen to own a Play Station, so I 
might not be the best person--[Laughter.]
    Senator Dodd. Mr. Becker, get serious with me.
    Mr. Becker. No, I'm not trying to make light of it.
    Senator Dodd. Well, that is light. That's silly. You're not 
going to try to convince me that's for an adult. Really, are 
you?
    Mr. Becker. Well, sir, I would respectfully suggest that 
there are adults who do enjoy doing that, and I----
    Senator Dodd. Oh, please. Don't insult me now.
    Mr. Becker. I'm not trying to insult you, sir. I am 
simply----
    Senator Dodd. That's is a child's toy, isn't it?
    Mr. Becker. Well, I happen to own one, and so I guess I 
would personally suggest that I enjoy it, too.
    Senator Dodd. Let me read you another ad and you tell me 
whether or not you think this is for an adult. How about the 
Bacardi ad, where the young lady in hip-huggers is sitting here 
watching--you probably can't see it here, but it's the ad that 
shows a young lady pouring Bacardi down here stomach here, and 
the young man licking it off her stomach. Who is that designed 
to appeal to?
    Mr. Becker. Certainly not me, sir. [Laughter.]
    Senator Dodd. Yeah. So you're somewhere between the 
Nintendo and this, right? [Laughter.]
    Look, there have been all sorts of studies done here of the 
advertising campaigns. There's reams of it here. The ad we also 
saw last year of the two women in a wrestling match in a 
fountain. You know, what's going on here? I appreciate the 
modest changes that have occurred in the last year or so, but 
what's going on with the industry that is clearly--When I read 
down the list of programs where the bulk of the beer 
advertising has occurred, it has Buffy the Vampire Slayer, Dark 
Angel, Gilmore Girls, Survivor, X-Files, Mad TV, the Daley 
Show, and Insomniac Music Theater. These are all programs 
designed specifically for a very young audience. The bulk of 
beer advertising is occurring on those programs.
    What is the thinking that's going on?
    Mr. Becker. I would disagree with that, and I would base 
that disagreement on the 2003 Federal Trade Commission report 
that looked at where beer advertisements were placed. Their 
conclusion was according to the 50 percent or simple majority 
standard that was in our code prior to a few weeks ago, and 
there was virtually 99 percent compliance with that code.
    As we said when we released our new code, we wanted to make 
sure it was clear about where our ads were being placed and to 
what audience. We raised that standard to 70 percent.
    Senator Dodd. I went back to some of the earlier stuff that 
went on in the various magazines, with the percentages of the 
people underage. Under that new standard, obviously magazines 
like Vibe and Spin, where the percentages of youth readers was 
higher, there would be a ban in the advertising. Rolling Stone, 
Allure and so forth.
    But you get to things like Sports Illustrated, it's 25 
percent and you still advertise there. The difference is that 
you have over 6 million readers spending $39 million. Sometimes 
by reducing these numbers and having merely a percentage, you 
get sort of an illusion in terms of whether or not you're 
actually appealing to these underage kids in terms of their 
drinking habits.
    Mr. Becker. I think there is really two issues there, 
Senator. One is that clearly the new advertising placement 
threshold will create a circumstance where ads won't appear in 
some places that they have over the last number of years. I 
would say, however, that our members have been advertising, 
just as a practice for the last few years, in the 70 percent 
range.
    But I think the other thing to look at here is what is 
advertising and who does it influence. The Roper organization 
has done a poll now for over 10 years that has consistently 
shown that when young people are asked what their primary 
influences on drinking are--and I think we have acknowledged 
certainly the role that parents have today, the number one 
answer----
    Senator Dodd. Fine. I agree with that, too. Don't 
misunderstand me. But an awful lot of this has to do with 
advertising. Come on. You guys spend millions and millions of 
dollars, not because you're VISTA or the Peace Corps. You do it 
because it makes good economic sense to do it.
    Now, looking at a Coors ad on now, a very prominent 
musician, rock star, in a football stadium buying beers for all 
of his friends there, that's designed specifically for--you 
know, the only people who really know who that is, most of them 
are younger people.
    Why do you do this? What is the point of advertising to 
appeal to that age group when, in fact, you know legally you 
can't sell to them? Why do you do it?
    Mr. Becker. Well, the ads are only created to appeal to 
those people of legal purchase age and older. The fact that 
they are interesting----
    Senator Dodd. Come on, be honest with me. You're appealing 
to try to develop loyalties to certain brands. That's what 
people do, don't they?
    Mr. Becker. Certainly if it's for people who can legally 
purchase and consume the products. But we do not--and I think 
the FTC report underscored that quite clearly--we do not target 
our ads to young people and do not attempt to make them 
appealing to them. I think it's----
    Senator Dodd. That ``cat fight'' ad was designed to appeal 
to an adult audience?
    Mr. Becker. Yes, sir, it was. And I think that the 
controversy surrounding that ad, and others, has caused a 
circumstance where those companies have pulled those ads 
because of the controversy surrounding them. So I do think that 
our industry has been very responsive when consumers and others 
have raised those issues with us. That is one of the reasons 
why we think changing our code to ensure there is no 
misperception about where and who we're trying to advertise to 
is clearer for people.
    Senator Dodd. Mrs. Hamilton, what is your reaction to all 
of this?
    Mrs. Hamilton. Interesting. Twenty percent of the profits, 
up to 20 percent of the profits that the alcohol industry makes 
is on the sale of their beverages to underage drinkers. It is 
very important for us to remember that the bottom line of this 
is profits for their industry.
    While I understand that parents need to play a role in 
this, parents don't have the information that they need. There 
is no evidence that shows that the prevention programs the 
industry has put forward are based on science, that it's 
effective in reducing underage drinking, when we see, in fact, 
that the numbers are status quo.
    There is much more that needs to be done. They need to be 
more responsible in all parts of advertising, from the Internet 
to radio to newspaper. Young people have access to this. They 
are seeing it, they're acknowledging it, and they are drinking.
    Senator Dodd. Talk to me a bit about the single parent 
issue. David talked about obviously a wonderful family and a 
lot of involvement. There are a lot of pressures obviously on 
other families, given their makeup and so forth, to be able to 
have that kind of time.
    I wonder if any work has been done on that. Mrs. 
Kempthorne, you might respond to this as well. Sometimes we 
imagine sort of the traditional family, which is very different 
than what many of us grew up with today. How do we work with 
that family? Are there some unique and effective programs that 
have been more successful with today's family, the single 
parent family, with two parents working three or four jobs in 
some cases?
    Mrs. Hamilton. Families are very different from 20 years 
ago, when I was raising mine, and there are more challenges 
that are facing them, being in the workforce. It is important 
for us to get the messages out, the real messages, the truth 
about how alcohol affects children.
    I would also like to submit for the record Alcohol and the 
Brain, how drinking in youth affects thinking skills. I don't 
think parents have this kind of information.
    Senator DeWine. That will be made a part of the record, as 
well as what Mr. DeAngelis had for the record. We will make 
that part of the record, too.
    [The information may be found in additional material.]
    Mrs. Hamilton. In addition, the elementary school program 
that MADD has been focused on in the last several years, 
Protecting You/Protecting Me, goes into elementary schools to 
teach children about alcohol's effects on the developing brain, 
where to sit in a car, when they're driving with someone, to 
make good decisions, and the skills that they need to make good 
decisions. That has been named a model program by the Federal 
Government.
    There is much more work that needs to be done. We're 
working with the First Ladies Initiative on some programs. 
Education is key to parents. They need to understand the 
consequences because, quite frankly, they don't. They still 
think this is a ``right of passage'' in this country.
    Senator Dodd. Ms. Kempthorne, do you want to comment?
    Mrs. Kempthorne. I agree with Mrs. Hamilton, and I also did 
want to say that the parents do need help. Parents are trying 
to get that message out. Being a parent of 20-somethings, I 
have just been through that and still finishing going through 
that, you give the message. You tell the kids that it's 
illegal, you tell the kids that they will want to do it because 
they have a genetic predisposition to it.
    But that doesn't have half as much meaning as the new 
friend they met the other day who is going to have a six-pack 
of beer at their house, so why don't you come over. It's okay 
because their parents are there, but the kids are downstairs in 
the basement and they're upstairs.
    I also agree with Mr. DeAngelis, that it is really each 
child making that decision. That's why we start as young as we 
do. We have got to teach them how to make these decisions 
before that friend hands them the beer when they're 12 years 
old and says, ``Hey, it's no big deal. Nobody will ever know.''
    Other things are happening. In the schools now, they don't 
even want you to bring water or sodas because the kids are 
mixing alcohol with it. Many schools won't let them come in. We 
don't believe that as a parent. That can't be true. But it 
really is true. Our children find that there's a message out 
there that it's okay because parents really don't get it, you 
know. They really don't get it. I have heard these messages.
    And it isn't just the advertising. It is media of all 
sorts. Our children have grown up getting messages from many 
more sources than us as parents. Sometimes it feels like we're 
the counterculture pushing against everything else that's 
telling them what is okay, and we say we want you to have a 
healthy, productive life, and yes, have fun, and what they see 
is how to have fun is to consume alcohol. It will at least make 
it happen a little quicker.
    The other thing about single parents, we know now that most 
parents are in the workplace. I think it's over 80 percent of 
parents with children 18 or under are in the workplace. So yes, 
it's a challenge. Who's taking care of the children and who's 
giving them the message?
    Senator Dodd. Just on a final note, as a father of a 2 year 
old, I'm just envisioning the problems coming down the road. A 
sister of mine has 15 grandchildren, and she was saying the 
other day something very smart. She said, you know, parents 
have a choice. Not all do, but they have a choice. They 
normally will say they'll stay out of the workforce, or one or 
the other will, when they're very, very young, and when they 
reach school age, 10 or 12, then I'll go back to work.
    It's really just backwards.
    Mrs. Kempthorne. Absolutely.
    Senator Dodd. In many ways, children, as long as they're 
being loved and cared for and fed, and have done all the normal 
things when they're very young, they will make it okay. It's 
when they get around 10 or 12 that they really need you. Too 
often parents decide they're on their own and are really okay, 
but in fact the opposite is true.
    We have this notion somehow that they really need you more 
when they're infants and less so when they reach the preteen 
years. I see you're nodding in agreement with that notion as 
well.
    Mrs. Kempthorne. Absolutely. Experience.
    Senator Dodd. Thank you.
    Mr. DeAngelis. I would like to briefly add to that, if I 
may.
    As far as the water bottles, I know of a classmate of mine 
where this is absolutely true. He showed up at the North Haven 
affair a couple of weeks ago with a water bottle filled with 
vodka, so it does happen. It is not something that is just a 
myth.
    Senator Dodd. Thank you.
    Senator DeWine. I just have a couple more questions.
    Mr. Becker, you were talking with Senator Dodd about the 
code. I'm a little confused about the code. How is that 
enforced? That is your own code, is that right?
    Mr. Becker. Yes, sir, it is.
    Senator DeWine. How is that enforced?
    Mr. Becker. The code is enforced when----
    Senator DeWine. Do you all enforce that yourselves?
    Mr. Becker. No, sir. It's a voluntary code. When we receive 
a complaint from an individual or an organization, we refer 
that complaint to that specific brewer. That brewer then 
responds to the complainant directly. That process has served 
us very well, and I think if you looked at that process and at 
not only the quick response that our members have but the 
response of the complainant, we believe that's been a very 
effective tool thus far.
    Senator DeWine. So it is a code that each brewery says 
they're going to live up to, right?
    Mr. Becker. At a minimum. The industry code, each company 
also does----
    Senator DeWine. Hopefully they will live up to it.
    Mr. Becker. Correct.
    Senator DeWine. So that's why the general counsel of the 
Beer Institute said that ``It's not our job to enforce it.''
    Mr. Becker. It's not our job to enforce the code, but it is 
our job to oversee the code, to convey the complaints directly 
to the brewer----
    Senator DeWine. Because he said ``the code is not going to 
work if we become the judge.'' That was a quote in the paper.
    Mr. Becker. Well, I agree with him. As an association, we 
cannot be the subjective judge of the complaints. The company 
itself has to look at what it's doing and has to look at that 
complaint and decide----
    Senator DeWine. Each company decides how it interprets that 
and goes back and forth with the complainant then; is that how 
it works?
    Mr. Becker. That's correct, Senator.
    Senator DeWine. Let me get back to this. I don't want to 
belabor the point, but Mrs. Hamilton made a comment again 
talking about the scientific basis of some of the things that 
we're doing. I just want to make one more comment and then I 
will get off it.
    It seems to me that you have been subject to criticism, 
that some of the things you have done have not had a scientific 
basis to them. I'm not judging today whether that is true or 
not true, but it seems to me you can certainly get rid of that 
criticism by setting up this independent group that Dr. Bonnie 
is talking about. It seems to me that is something you all 
should explore. I really think you ought to look at that.
    Mr. Becker. Well, Senator, I guess I would take issue with 
the fact that our programs are not evaluated.
    Senator DeWine. That's the point. I understand you would 
take issue with it, and I appreciate that. Again, I don't think 
we are going to get anywhere debating that today. You know, you 
take issue with it and some people criticize it. That is sort 
of my point.
    My point is you get rid of that criticism by setting up an 
independent group, you fund it, you take credit for funding it, 
but it is independent. You get rid of the criticism and you let 
somebody else take the flak and the criticism. You say, ``Look, 
we funded it, we made a good faith effort to do this. We have 
the same interest that MADD does; we have the same interest 
that every other parent does in this country. We want to stop 
underage drinking and we have put in a good faith effort and 
we're putting x-million dollars into this every single year. 
Get off our back.'' That's what I would do if I were you. I 
would get it out of my ballpark.
    This is just a suggestion, just as a citizen. It's a little 
suggestion, that's all.
    Mr. Becker. I appreciate that Senator.
    Senator DeWine. And you won't be up here listening to us 
yell at you.
    Mr. Becker. I certainly do appreciate that, Senator. But 
since you mentioned----
    Senator DeWine. How hard is that?
    Mr. Becker. Since you mentioned ``ballparks'', I would like 
to briefly say that one example----
    Senator DeWine. You're not going to bring up how my Reds 
are doing this year, are you? [Laughter.]
    Mr. Becker. No. Sadly, I really couldn't tell you how your 
Reds are doing. I know the Red Sox are better than they used to 
be.
    I would say that the team coalition that we participated 
in, and a significant effort with major league baseball to 
train people in stadiums, has been evaluated and has been 
demonstrated to have made the fan experience more enjoyable. 
That is to say, they have had fewer problems. That is just one 
of the programs that has been evaluated, that the industry has 
been participating in. So to say we have not evaluated our 
programs is not correct.
    Senator DeWine. OK. OK.
    One of the suggestions that has been made, and one of the 
things I would like your comments on, is the idea that the 
Federal Government should fund and start putting some 
significant money into advertising that would deal with 
underage drinking. Dr. Bonnie, I believe that was one of your 
recommendations.
    Mr. Bonnie. Yes.
    Senator DeWine. Let me go quickly through the panel because 
we are about out of time. Why don't you kick that off, and then 
I will go to Mrs. Kempthorne and go right down the panel. Just 
real quickly make your comments on that.
    Mr. Bonnie. If I could put that into a larger context, 
maybe picking up on some points that were made here----
    Senator DeWine. That would be good. You've got a minute, 
though, 1 minute.
    Mr. Bonnie. I think Senator Dodd observed at some earlier 
point that this is really about the culture. I kind of 
sympathize in a certain respect with Mr. Becker here. He's been 
on the hot seat about this and the industry is obviously an 
important part of the culture.
    But this is bigger than the industry. I think we need to 
keep that in mind. The report emphasizes this is a collective 
responsibility. We all have a role to play here. We do need to 
give parents the help that they have been seeking in trying to 
deal with this. We need to built coalitions at the grassroots 
level. I mean, this is much bigger than the industry. I think 
the media campaign that we recommended is the cornerstone of 
that effort, really, to galvanize the public engagement in this 
effort by recognizing the seriousness of the problem.
    I should take note, by the way, that Judy Cushing, who was 
a member of our panel, is here. She is the head of the Oregon 
Partnership and that's what she does with her work. I think we 
just need to try to strengthen her hand and the hands of people 
like that.
    In that context, I just want to make one comment on this 
advertising issue. Obviously, advertizing is a difficult policy 
problem. I think it's important for all of us that are trying 
to find how we're going to affect the messages that kids and 
parents and everyone receives, to acknowledge that there is a 
commercial difficulty that the industry has in terms of trying 
to get at the young adult audience, the audience that is in 
their early 20s. That's a legitimate interest that they have to 
advertise to that audience, and obviously, there is going to be 
the spill-over problem in terms of the messages getting to the 
younger kids. They have acknowledged that this is an issue that 
they have to try to deal with, and I think they are taking one 
step at a time and they need to continue. We need to keep the 
pressure on them to take one step at a time.
    The Government role in this is to make sure that we monitor 
what is going on in terms of the brand usage of kids and the 
exposure of kids to these messages, so that the industry can be 
held accountable to the public by having that information made 
available. That was a core part of the recommendations as well. 
So I think that that needs to be emphasized. That's really the 
approach in dealing with the advertising issue.
    Senator DeWine. When you came up with your recommendation 
about the anti-drinking advertising--if I may call it that--did 
you look at what States are doing? Do we have any experience 
level in what the States are doing, are any of the 50 States 
putting significant money into this? Is anybody doing this?
    Mr. Bonnie. If you want to compare, for example, with the 
tobacco area, where I think we do have----
    Senator DeWine. No, I don't. I want to look at it and see 
if anybody is doing it in regard to underage drinking with 
alcohol. Is anybody doing it, any State doing it significantly? 
Is anybody putting money----
    Mr. Bonnie. Not at a substantial level, as far as I know.
    Senator DeWine. Nobody is doing it with any significant 
amount of money?
    Mr. Bonnie. Not a significant amount of money. But we need 
to pay attention to making sure that we've got evidence-based, 
for whatever is done--Again, the committee also emphasized that 
we have the evidence available for this, that we need a lot 
more research to be done on the messages that are going to work 
with kids, if we're talking about kid-oriented advertising.
    Senator DeWine. Right. We have seen how difficult that is 
to do with drugs.
    Mr. Bonnie. Exactly. And we have to be careful----
    Senator DeWine. We have a trial-and-error with drugs and we 
have seen that we've spent a lot of money and sometimes it 
doesn't work, but sometimes it does. It's tough.
    Mr. Bonnie. Let's do the research before we implement 
hundreds of millions of dollars in a campaign.
    Senator DeWine. Mrs. Kempthorne, in regard to that type of 
advertising, do you have a reaction to that?
    Mrs. Kempthorne. Yes. The part that confuses me is how on 
one side they spend so much money on advertising, and then you 
will see a quote that says advertising really doesn't change 
behavior. I don't understand why on the one side they do, but 
then they go against it and say they want to do advertising 
that promotes not drinking. I'm still confused on where that 
comes from.
    From a State level, no, we have not put money into stopping 
underage drinking. But I do know in adolescent pregnancy 
prevention that the advertising we have done has made a 
significant difference, but we have targeted it specifically, 
sometimes to parents, sometimes to boys, sometimes to girls. It 
is a ten-year long plan to figure out how we do that, and we 
have seen a significant statistical drop.
    The other thing that would be important as we look at their 
codes, what they consider fulfilling their code and what, as a 
parent, I may consider fulfilling their code, when I see those 
I don't think that's what I want my children to see. But I'm 
not even sure, as a 51 year old adult, that's what I want to 
see, either. So I would like to be more of a participant and a 
player. I don't know how they do their focus groups on what the 
advertising is, but we need to bring all the parties together 
to decide what is effective advertising.
    Senator DeWine. Mr. Becker.
    Mr. Becker. Well, Senator, to the specific issue, 
advertising can influence an adult consumer's decision to buy a 
brand. What it has not been demonstrated to do is to sell more 
beer than it ordinarily would. I think the evidence on that is 
very clear, and I would be happy to provide that for the 
committee.
    To your specific question, however, on the adult media 
campaign, I will go back to what Dr. Bonnie said. I think the 
evidence suggests that campaigns that have been done can be 
counterproductive, or campaigns can send a message that may not 
change someone's behavior.
    Our industry believes that today it is premature for us to 
express support for a media campaign because we don't have 
details, such as message, etc. Having said that, however, we 
are open to further discussion. I think as you have very well 
outlined, Mr. Chairman, we are all in this together. This 
industry has and will continue to support effective solutions 
to underage drinking.
    Senator DeWine. Mrs. Hamilton.
    Mrs. Hamilton. Senator, you asked at the beginning in your 
opening remarks how did we get here. I think more importantly 
is where we go from here, now that we have this incredible 
document that has been prepared by the NAS.
    What we absolutely have to do is have an adult media 
campaign that is going to focus on adults, to tell them the 
consequences of what happens when young people are drinking and 
what happens when they provide alcohol. We need to have a 
central Federal agency that is coordinating these efforts.
    Five years ago, when we started focusing on underage 
drinking, when we added the prevention of underage drinking to 
our mission, we couldn't find that research. We couldn't find 
those documents. We had to wade through everything. Communities 
need that information available through a web, through a 
central agency with their States, so they can get access to 
community programs that work, that are evidence-based. And we 
absolutely need enforcement on the 21 drinking age laws.
    Senator DeWine. Mr. DeAngelis.
    Mr. DeAngelis. Adults are essential to reducing the 
problem. That is why 2 years ago we started the column to 
target adults. Because at our 4 days at Power Camp, we tried to 
get at the root of the problem and we kept coming back to the 
roles of adults. We felt the best way we could reach them was 
through a column.
    Advertising on a national level would reach so many more. 
TV is such a huge part of our culture, it will at least start 
to make an impression on our minds. Whether it affects their 
behavior from day one, probably not. But over a period of time, 
it can really make a difference.
    Senator DeWine. The last question--and I will go right down 
the line.
    Other than advertising, if there was one thing we could do 
nationwide, one thing, what would that be?
    Mr. Bonnie. Other than the media campaign you mean?
    Senator DeWine. Yes, other than advertising and media 
campaigns that we just discussed. What else, one thing?
    Mr. Bonnie. I think I would say that the second priority in 
this--and I guess you have put aside the tax issue at the 
beginning. So among the other recommendations, I think we----
    Senator DeWine. I'm not saying we shouldn't do that. That's 
not in the jurisdiction of this committee, but we can address 
that some other day.
    Mr. Bonnie. There is a whole series of recommendations here 
about strengthening compliance with the underage drinking 
prohibition, and I think that is the next set of issues. That 
involves steps that are taken at the national level and 
involves steps that are taken at the State level, in terms of 
State level enforcement, and it involves empowering community 
coalitions to be able to put social pressures on the retailers.
    This is not only about law enforcement. It's about 
education to promote compliance. So I would say that's the 
second main recommendation.
    Senator DeWine. Good. Mrs. Kempthorne.
    Mrs. Kempthorne. All politics is local, building community 
coalitions and really making it happen at the grassroots level.
    Senator DeWine. Mr. Becker.
    Mr. Becker. I would like to echo that sentiment, that 
community-based coalitions do work. I would also like to 
commend the students for coming up with this well thought out 
idea, that we really do need to help parents and adults with 
better information, to empower them to do a better job of 
parenting.
    Senator DeWine. Ms. Hamilton.
    Mrs. Hamilton. Enforcement of the 21 minimum drinking age 
law, just as Dr. Bonnie said, and Mrs. Kempthorne. It's 
critical.
    Senator DeWine. Mr. DeAngelis.
    Mr. DeAngelis. The same thing, compliance checks. When we 
go out and do compliance checks, we're not trying to trick the 
package store owners. We go in there and try to buy liquor, and 
see if they ask for and check IDs. It's very straightforward, 
and oftentimes they don't. You just need to keep plugging away 
with that, because they have to learn at some point.
    Senator DeWine. Senator Dodd, your last comments.
    Senator Dodd. Thanks, Mr. Chairman. I thank all of you 
again.
    I just come back to the point that I think someone made 
earlier. The IOM, not an insignificant organization, the 
Institute of Medicine, estimates that the social cost of just 
underage drinking--we haven't talked about the medical cost of 
just drinking, but just underage drinking--is $53 billion a 
year, and $19 billion a year alone just in automobile accidents 
and health related costs, and $29 billion associated with 
violent crime. We need to keep those numbers in mind here. This 
is a staggering problem here. It's not small. In fact, the 
numbers go up and down a bit.
    You can make a difference. I have always used the example 
of Mothers Against Drunk Driving. I think it began with one 
woman in the basement of her home, as I recall the history. I 
hope I'm right about that because I have used that story over 
and over again, about how one person who decided to make a 
difference has made a difference in many ways.
    Certainly what we have done with smoking in this country 
today. When you think back just a few years ago, these 
committee rooms, we smoked as members of committees up here. If 
you got on an airplane, every place you went to there was 
smoking. And yet, because there was a determined effort 
recognizing the health costs to it, the advertising campaigns, 
all of the efforts made, we have made real headway on that 
issue. And there were tremendous voices against it, about 
choices and parental involvement and so forth. But by reducing 
the association with smoking as being something that was 
culturally acceptable, it made you more attractive, all of that 
was part of it. It was in the movie industry, on television, 
everywhere you went, it was all part of an effort to say this 
was okay, in a sense.
    Now, I know that drinking is certainly very much a part of 
our culture. No one is recommending a constitutional amendment 
here to change this. But the idea somehow that we just sort of 
accept this because it's part of the embedded fabric of the 
country is something we've got to challenge, particularly when 
kids are involved.
    So, Mr. Becker, my point with you is, I'm not picking on 
you particularly here, except that I know when you write these 
ads--you know, you spend a lot of money doing this. You mall 
test these things. You do focus groups. You don't just do an ad 
and put it out on television. People have tested it, who is it 
going to appeal to. You spend a lot of money putting those ads 
on television.
    The question is, when you're sitting and making that 
decision about putting these ads on--you have one here that 
shows, obviously--I don't know how old this girl is. She 
doesn't look 21 to me. They're in the car, rear view mirror, 
the radio is on, necking, a nice finish. It's a Michelob ad. 
You know, maybe 21-5 and so forth. I'm not arguing someone 
isn't that.
    But the appearance of that child in that situation, someone 
made a decision. They didn't pick someone looking a little 
older. They picked someone looking younger. Again, you're here, 
and obviously there are multifaceted aspects of this. I 
acknowledge that completely. But the fact of the matter is, 
millions of dollars are being spent to appeal to these kids. 
That's a fact, in my view.
    So I'm trying to get the industry to be far more 
responsible about this, and I encourage you to consider what 
the chairman has offered here as a way of getting involved in 
this.
    The reason these numbers got changed and you went up to 35 
was because there was a tremendous reaction to those ads on 
television. That's why it happened. By your own admission, 
that's what occurred. People were outraged by what they saw on 
television. So the industry responded to consumer reaction. It 
wasn't a law passed here, and it wasn't a regulation adopted. 
It was the industry responding to what they saw as a very 
dangerous situation if they didn't change those ads.
    So I'm encouraging you to do what the chairman has 
suggested. Get together with these people. Sit down and try and 
work this out. You don't want industry members promoting this 
stuff on television with these kinds of ads. I think it's going 
to hurt you terribly. I may be one voice up here right now. I 
guarantee you there will be a sense of collective outrage about 
this if you keep doing it. Then steps will be taken that go far 
beyond suggesting getting together to support a foundation. You 
mark my words, it will happen.
    The smoking industry and tobacco industry never believed it 
would happen, and it did. I'm telling you, it will happen with 
this industry if you don't smarten up and stop this stuff.
    Thank you, Mr. Chairman.
    Senator DeWine. Let me thank all of you very much.
    You know, politics is about choices. As parents, we worry 
about things. My wife, Fran, and I have eight children. The 
youngest is 11 and the oldest is 35. As parents, you worry 
about your kids. I think that with the mass culture we have 
today, and with the 24 hour news, sometimes we get off and 
worry about the wrong things. You sort of calculate what you 
should be worrying about.
    I believe one of the things we have learned, if you just 
look at the statistics, what you learn is that many times we 
worry about the wrong things. One of the things that has come 
from this hearing is that, if you want to worry about something 
that really matters in society today, as parents, at least if 
you believe the statistics, you ought to worry about underage 
drinking. If that message can come from this hearing, it's the 
right message.
    Getting back to the priority issue, politics and 
government, we do not put enough priority at the Federal level 
on underage drinking. We don't worry enough about it. We don't 
care enough about it, because the reality is that it's a major 
killer of our young people. We need to take from this hearing a 
new dedication to do something about it.
    We do spend a lot of money today worrying about illicit 
drug use. I don't know anybody in this Congress who has spent 
more time on that than I have. I started worrying about that 
when I was a county prosecutor many, many years ago. And 
Senator Dodd is worried about it and has spent a lot of time on 
this. He and I worry about illegal drugs coming into this 
country, and I think both of us are going to continue to worry 
about that, as we should.
    But if you look at how much money we have spent on that 
versus underage drinking, it pales in comparison. That doesn't 
mean we shouldn't worry about the drug problem, but it does 
mean we should start worrying a little bit more, a lot more, 
about underage drinking.
    Senator Dodd recited the number of kids who are killed. 
Mrs. Hamilton recited the number of kids who are killed in cars 
because of drinking, the number of suicides that are possibly 
facilitated because somebody has been drinking, the accidental 
deaths that are caused because someone is drinking, the college 
campus deaths that occur because someone has been drinking, the 
binge deaths that occur. You can just go on and on and on. 
These are not accidents. They are preventable. So we need to 
take this information today and see what we can do about it.
    Senator Dodd and I are going to be talking on this 
committee about what we can do from this testimony. So we 
appreciate it. We appreciate all of you coming in, the First 
Ladies and former First Ladies, we thank you for taking the 
time to be here today from all across the country. We 
appreciate it, and all the rest of our panelists.
    Thank you very much.
    [Additional material follows:]

                          ADDITIONAL MATERIAL

                Prepared Statement of Richard J. Bonnie

    Good morning, Mr. Chairman and Members of the Subcommittee. My name 
is Richard Bonnie. I am the John S. Battle Professor of Law and 
Director of the Institute of Law, Psychiatry and Public Policy at the 
University of Virginia. I served as chair of the Committee on 
Developing a Strategy to Reduce and Prevent Underage Drinking of the 
National Research Council and the Institute of Medicine. The National 
Research Council is the operating arm of the National Academy of 
Sciences, National Academy of Engineering and the Institute of 
Medicine, chartered by Congress in 1863 to advise the government on 
matters of science and technology.
    The report of this committee was produced in response to a 
Congressional request to develop a strategy to reduce and prevent 
underage drinking. The committee reviewed a wide variety of government 
and private programs for the purpose of developing a comprehensive 
national strategy. We relied on the available scientific literature, 
commissioned papers, testimony and submissions from the public, and the 
expertise of committee members in public policy, public health, youth 
interventions, and substance abuse. Our starting point was the current 
national policy setting 21 as the minimum legal-drinking age.
    Alcohol use by young people is an endemic problem that is not 
likely to improve in the absence of significant new interventions. Many 
more of the nation's youth drink than smoke cigarettes or use other 
drugs. And, young people tend to drink more heavily than adults, 
exacerbating the dangers to themselves and people around them. In the 
2002 Monitoring the Future survey, a Federally sponsored study, nearly 
one-in-five 8th graders and almost half of 12th graders reported 
drinking in the last month. More than a quarter of high school seniors 
reported that they had five or more drinks in a row in the last 2 
weeks. One-in-eight 8th graders reported the same thing. These 
underlying rates have remained basically unchanged for a decade. The 
social cost of underage drinking has been estimated at $53 billion each 
year, including $19 billion from traffic crashes alone. While traffic 
crashes are perhaps the most visible consequences of this problem, 
underage drinking is also linked with violence, suicide, academic 
failure, and other harmful behaviors. Heavy drinking also threatens 
youth's long-term development.
    Although the public is generally aware of the problems associated 
with underage drinking, the nation's social response has not been 
commensurate with the magnitude and seriousness of the problem. This 
disparity is evident not only in the fact that the Federal Government 
spends 25 times more on prevention of illicit drug use by young people 
than on prevention of underage drinking, but also in the lack of 
sustained and comprehensive grassroots efforts to address the problem 
in most communities.
    Some people think that the key to reducing underage drinking lies 
in finding the right messages to send to young people to instill 
negative beliefs and attitudes toward alcohol use. Others tend to focus 
on changing the marketing practices of the alcohol industry in order to 
reduce young people's exposure to messages designed to promote 
drinking. However, the problem is much more complicated than either of 
these positions would suggest because alcohol use is deeply embedded in 
the economic and cultural fabric of life in the United States. Annual 
revenues in the alcohol industry amount to $116 billion. The challenge, 
then, is how to reduce underage drinking in a context where adult 
drinking is widespread and commonly accepted and where billions of 
gallons of alcohol are in the stream of commerce. We believe that will 
require a broad, multifaceted effort.
    The primary goal of the committee's recommended strategy is to 
create and sustain a strong societal commitment to reduce underage 
drinking. All of us, acting in concert--including parents and other 
adults, alcohol producers, wholesalers and retail outlets, 
entertainment media, and community groups--must take the necessary 
steps to reduce the availability of alcohol to underage drinkers, to 
reduce the attractiveness of alcohol to young people, and to reduce 
opportunities for youthful drinking. Underage drinking prevention is 
everybody's business.
    The report emphasizes that adults must be the primary targets of 
this national campaign to reduce underage drinking. Most adults express 
concern about underage drinking and voice support for public policies 
to curb it. Yet behind the concern lies a paradox: Youth often get 
their alcohol from adults. And many parents downplay the extent of the 
problem or are unaware of their own kids' drinking habits. Thirty 
percent of parents whose kids reported drinking heavily within the last 
30 days, think their kids do not drink at all. The sad truth is that 
many adults facilitate and condone underage drinking. We need to change 
the behavior of well-meaning adults in communities all over the 
nation--including people who are holding drinking parties for kids in 
their homes in violation of the law.
    As the centerpiece of the committee's adult-oriented strategy, our 
report calls on the Federal Government to fund and actively support the 
development of a national media campaign designed to create a broad 
societal commitment to reduce underage drinking, to decrease adult 
conduct that tends to facilitate underage drinking, and to encourage 
parents and other adults to take specific steps in their own 
households, neighborhoods and businesses to discourage underage 
drinking.
    The comprehensive strategy we suggest also includes a multi-pronged 
plan for boosting compliance with laws that prohibit selling or 
providing alcohol to young people under the legal drinking age of 21. 
Efforts to increase compliance need to focus on both retail outlets and 
social channels through which underage drinkers obtain their alcohol. 
For example, we urge State authorities to require all sellers and 
servers of alcohol to complete State-approved training as a condition 
of employment, and to increase the frequency of staged underage 
purchases by which they monitor retailer compliance with minimum 
drinking-age laws. The Federal Government should require States to 
achieve specified rates of retailer compliance with youth-access laws 
as a condition of receiving Federal funds. And States should beef up 
efforts to prevent and detect the use of fake IDs by minors who want to 
buy alcohol.
    The committee also supports specific intervention and education 
programs aimed at young people as long as those programs have been 
evaluated and found to be effective. A good start in identifying 
evidence-based school programs has already been made by the Department 
of Education and the Substance Abuse Mental Health Services 
Administration in the Department of Health and Human Services. A recent 
report sponsored by the National Institute on Alcohol Abuse and 
Alcoholism has done the same for programs aimed at college students.
    Community leaders need to mobilize the energy, resources and 
attention of local organizations and businesses to develop and 
implement programs for preventing and reducing underage drinking. These 
efforts should be tailored to specific circumstances of the problem in 
their communities. The Federal Government as well as public and private 
organizations should encourage and help pay for relevant community 
initiatives that have been shown to work.
    The alcohol industry also has a vitally important role to play in 
the strategy we have proposed. The committee acknowledges the 
industry's declared commitment to the goal of reducing underage 
drinking and its willingness to be part of the solution. We believe 
that there is much common ground, and that opportunities for 
cooperation are now being overlooked. Specifically, we urge the alcohol 
industry to join with private and public entities to create and fund an 
independent, non-profit foundation that focuses solely on designing, 
evaluating, and implementing evidence-based programs for preventing and 
reducing underage drinking. Although the industry currently invests in 
programs that were set up with that stated goal, the results of these 
programs have rarely been scientifically evaluated, and the overall 
level of industry investment is modest in relation to the revenues 
generated by the underage market. We think it is reasonable to expect 
the industry to do more than it is now doing, and to join with others 
to form a genuine national partnership to reduce underage drinking.
    We also urge greater self-restraint in alcohol advertising. We 
recognize, of course, that advertising is a particularly sensitive 
issue. However, a substantial portion of alcohol advertising reaches an 
underage audience or is presented in a style that tends to attract 
youth. For example, alcohol ads on TV often appear during programs 
where the percentage of underage viewers is greater than their 
percentage in the overall U.S. population. Building on an important 
1999 report by the Federal Trade Commission, the committee's report 
urges industry trade associations to strengthen their advertising codes 
to prohibit placement of commercial messages in venues where a large 
portion of the audience is underage. For many years, the industry trade 
association codes permitted ad placements in media where adults were at 
least 50 percent of the audience. The FTC recently announced that the 
beer and distilled spirits trade associations have joined the wine 
industry to increase the threshold to 70 percent for the minimum 
proportion of adults in the viewing audience. This is a step in the 
right direction, but the committee believes that the industry should 
continue to move toward a higher threshold of adult viewers. In 
addition, trade associations and alcohol companies should create 
independent, external review boards to investigate complaints about ads 
and enforce codes. Furthermore, alcohol companies, advertising firms, 
and commercial media should refrain from marketing practices that have 
particular appeal to young people, regardless of whether they are 
intentionally targeted at youth audiences.
    Companies and trade associations in the entertainment sector also 
have a responsibility to join in the collective effort to reduce 
underage drinking, and to exercise greater restraint in disseminating 
images and lyrics that promote or glorify alcohol use in venues with 
significant underage audiences. Officials in the music, TV, and film 
industries should use rating systems and codes similar to those used by 
some industries for drug abuse to reduce the likelihood that large 
numbers of young listeners and viewers will be exposed to unsuitable 
messages about alcohol consumption--even when adults are expected to 
make up the majority of the audience.
    The Federal Government should periodically monitor advertising 
practices in the alcohol industry and review representative samples of 
movies, television programs, music recordings, and videos that are 
offered at times or venues likely to have significant underage 
audiences. This work should be conducted by the U.S. Department of 
Health and Human Services, and reported to Congress and the general 
public on a regular basis. The department also should issue a 
comprehensive report to Congress each year summarizing trends in 
underage drinking, and reporting on progress in implementing the 
proposed strategy and in reducing the problem. A Federal interagency 
coordinating committee, chaired by the Secretary of HHS, should be 
formed to provide national leadership and to better organize the 
multiple Federal activities in this area. HHS also should create a 
National Training and Research Center on Underage Drinking and collect 
more detailed data, including data on brands preferred by youth. State 
policy-makers should designate an agency to spearhead and coordinate 
their activities.
    To help pay for the proposed public programs and to help reduce 
underage consumption, Congress and State legislatures should raise 
excise tax rates on alcohol--especially on beer, which is the alcoholic 
beverage that young people drink most often. Alcohol is much cheaper 
today, after adjusting for inflation, than it was 30 to 40 years ago. 
Higher tax rates should be tied to the Consumer Price Index to keep 
pace with inflation. Research indicates that changes in these tax rates 
can decrease the prevalence and harmful effects of drinking among 
youths, who tend to have limited discretionary income and are 
especially sensitive to changes in price.
    In summary, we've proposed a comprehensive strategy that, taken as 
a whole, would foster a deep, unequivocal societal commitment to 
curtail underage drinking. As a national community, we need to focus 
our attention on this serious problem and accept a collective 
responsibility to address it. This is an admittedly difficult 
challenge, but the committee believes that our country can do much more 
than it is now doing. The nation needs to develop and implement 
effective ways to protect young people from the dangers of early 
drinking while respecting the interests of responsible adult consumers 
of alcohol. The committee's report attempts to strike the right 
balance.
    Thank you for your interest and the opportunity to testify to the 
subcommittee. I'd be happy to answer any questions you may have about 
the committee's report.
   Prepared Statement of Patricia J. Kempthorne, First Lady of Idaho
    As the First Lady of Idaho, thank you for your invitation to speak 
to you today on behalf of the 34 current Governors' spouses and 11 
Emeritus members of the Leadership to Keep Children Alcohol Free 
national initiative.
    I would like to acknowledge the support shown by many of our 
members who are here today in commitment to this issue.
    We are a non-partisan group devoted to increasing public awareness, 
engaging policy makers, and mobilizing action to stop childhood 
drinking. Our specific focus is the 9-15 year-old age group. The 
Leadership to Keep Children Alcohol Free was established to make 
childhood drinking prevention a national health priority. In addition 
to their role as Governors' Spouses, Leadership members are 
prosecutors, judges, educators, business leaders, substance abuse 
prevention specialists, and parents. Many of us have witnessed through 
our respective professions or personally the devastation early alcohol 
abuse can inflict on individuals, families, and society. We are here 
today to emphasize for the Committee the immediate and far reaching 
consequences of childhood drinking and also to offer our 
recommendations for action.
    We are pleased that the Subcommittee on Substance Abuse and Mental 
Health Services understands the need to address underage drinking in 
all its complexity, including early onset of alcohol use by the most 
vulnerable members of our society--children.
    On a personal note as a parent, as a community encourager, and as a 
proponent for the health and well-being of children I would like to 
express my thanks to the committee and acknowledge the need for your 
leadership in addressing this issue. During most of my childhood my 
father worked as a distributor of wine and distilled spirits. It was 
very clear to me at the time that alcohol was not meant for me as a 
child. Growing up I learned a respect for alcohol as an adult beverage 
but also saw some of the effects of the abuse of alcohol on members of 
my community. Seeing the hurt and confusion caused by the abuse of 
alcohol was instructive in helping me make choices in my life. I do not 
believe today the message in our society is as clear.
    While it is unsettling to think that we have to consider elementary 
students when we think about drinking prevention, we do. The 
environment surrounding our children often contributes to their 
attitudes and expectancies about alcohol. In addition, drinking 
initiation most often begins at the age of 13. We know from research 
that behaviors adopted during adolescence set a lifelong trajectory.
    Before you say ``but I've never seen a drunk 12 year old'', let me 
share some statistics. More than 29 percent of students report that 
they first drank alcohol (more than a few sips) before age 13. By the 
eighth grade (that's 13-14 year olds), more than 12 percent report 
having had five or more drinks in a row, that's binge drinking within 
two weeks prior of being surveyed. They are drinking with the goal of 
getting drunk.
    Children are our top priority. We expend tremendous energy ensuring 
that they are vaccinated, use infant car seats, and have access to 
educational opportunities. Yet there is a serious disconnect when it 
comes to childhood drinking.
    Some propose that the solution is to adopt the so-called European 
model in which drinking age laws and attitudes are more liberal. The 
argument is that these policies and attitudes in turn foster more 
responsible styles of drinking by young people. That is a myth.
    In a study conducted in 1995, 15-16 year-olds in 22 European 
countries were asked about consuming five or more drinks in a row. 
Compared with the U.S., only a single country, Portugal, had a lower 
percentage of kids report this behavior. In addition, the World Health 
Organization report released in 2002 states that one in four deaths 
among European men aged 15-29 years is alcohol related. This is not the 
model we should emulate. Moreover, governments around the world, 
including in Europe, are beginning to take action to address underage 
drinking.
    The phone call in the middle of the night is the fear of every 
parent. What may not be immediately obvious, but just as devastating, 
are the long-term irreversible consequences of heavy drinking during 
adolescence.
    Research documents that forty percent of kids who begin drinking 
before the age of 15 will develop alcohol abuse or dependence at some 
point in their lives. The adolescent brain is still a work in progress 
and therefore vulnerable. More recent research demonstrated that 
children who engaged in heavy drinking by age 15, showed noticeable 
changes in the brain and that these children developed fewer learning 
strategies and remembered less than non-drinkers. In addition, those 
who begin drinking before age 14 are 12 times more likely to be injured 
after drinking, 7 times more likely to be in motor vehicle crash, and 
11 times more likely to be in a physical fight. Alcohol use also leads 
to other risky behaviors with life changing consequences such as 
unplanned pregnancies or infectious sexually transmitted diseases. And 
finally, 28 percent of suicides and attempted suicides by children can 
be attributed to alcohol.
    Starting to drink at an early age poses risk not only for those who 
drink, but there is a second-hand negative effect on the non-drinking 
adolescent.
    While parents certainly bear responsibility for their own children, 
families do not live in a vacuum; our homes are not bunkers from 
reality. Parental guidance is constantly challenged by external 
influences. We are not here to place blame but to address a serious 
public health issue that is affecting a significant number of our 
nation's young people. The responsibility for solving this problem 
rests with all of us--individuals, families, schools, communities, 
policy-makers, opinion-leaders, retailers, and the industry. The 
National Academies of Science and the Institute of Medicine have 
identified opportunities for all of us to play a role in tackling the 
problem of underage drinking as we are all stakeholders in the future 
of our nation's youth. We need to be motivated by what is in the best 
interests of our youth.
    On behalf of the Leadership to Keep Children Alcohol Free and 
speaking as a parent, I would respectfully offer four recommendations 
for action:
    1) Please do not let this be the only hearing on this critical 
public health issue, but rather the impetus for a series of hearings 
leading to significant policy deliberations and proposals.
    2) We request that the Subcommittee ask the Surgeon General to 
issue an independent evaluation and ``Call to Action on Childhood 
Drinking'' and that the resulting report be released in a timely way.
    3) We request that national surveys begin to collect data on 
alcohol use and attitudes that include children as young as age 9.
    4) When used by our youth alcohol is the number one illegal drug. 
Therefore, we urge the Subcommittee to support increased funding for 
research, prevention, and treatment. It is time to increase the 
nation's investment on this issue and to bring it in line with what is 
spent on illicit drugs and tobacco.
    Each one of us can make a difference to ensure that our nation's 
children have a strong foundation for life. Delaying the start of 
alcohol use is a critical step in doing so. Please do not be swayed by 
those who argue this is not a serious problem. Our children are 
drinking at younger and younger ages and that should be a concern for 
all of us.
    Thank you.

                   Prepared Statement of Jeff Becker

    Good morning Mr. Chairman and distinguished Senators. My name is 
Jeff Becker and I'm the president of the Beer Institute, a national 
trade association of America's brewers. I am pleased to represent 
almost 900,000 men and women employed by our industry, including those 
who work in two of our nation's largest breweries in the Buckeye State. 
Our industry has a long and proud tradition of giving back to the 
communities where we live and do business, and we share the commitment 
of the members of this Subcommittee to combat illegal underage 
drinking.
    Our commitment stems from two areas. First, it is no surprise to 
learn that many in our ranks are parents themselves--they share the 
concerns of all parents in this regard. But equally important, we do 
not like to see illegal underage consumption of the products that our 
members take such great care to make for adults of legal purchase age. 
We are joined in our commitment to be part of the solution to underage 
drinking by a large percentage of small and large businesses in the 
United States that would not be successful without a license to sell 
alcohol beverages. I can assure you that we have enlisted the 
commitment and the talents of personnel from our member companies, beer 
wholesalers, and retailers across the nation in the ongoing challenges 
posed by illegal underage drinking. We do not want the business of 
young people below the legal purchase age.
    That phrase ``ongoing challenges'' is not a glib cliche, because 
each year, a new group of young people enter high school and college. 
Each year, our children are allowed more freedom in our highly mobile 
and open society. Some are allowed to take the bus or train to explore 
their cities. Some get a driver's license that allows them to travel to 
the next town for a school dance or a movie. Let us not forget that 
some of them, as young as 18, are off in Iraq and Afghanistan serving 
our country at war. The fact that our youth don't stop growing is only 
one of the fundamental challenges that confront parents, educators, law 
enforcement officials, and yes members of the beer industry. The stakes 
are high, and a second challenge is to get these disparate groups 
working together to find long and short-term ways to reduce illegal 
underage drinking.
    Have our efforts, along with those of many others, made a 
difference? Let's look at the facts. While underage drinking has not 
disappeared, teen drinking and teen drunk-driving fatalities have 
declined significantly over the last two decades. According to the U.S. 
Department of Health and Human Services, 82 percent of today's 
adolescents do not drink.\1\ Similarly, according to the University of 
Michigan survey called ``Monitoring the Future,'' sponsored by the 
National Institute on Drug Abuse, the percentage of high school seniors 
who report having a drink in the last 30 days was 30 percent lower in 
2002 than it was in 1982.\2\ And beer drinking by college freshmen fell 
37 percent in the same time frame according to the American Council on 
Education and researchers at the University of California at Los 
Angeles.\3\
---------------------------------------------------------------------------
    \1\ National Household Survey of Drug Abuse, available at http://
www.samhsa.gov/oas/p0000016.htm.
    \2\ Available at http://monitoringthefuture.org.
    \3\ The American Freshman Survey (2002), sponsored by UCLA and the 
American Council on Education, available at http://www.gseis.ucla.edu/
beri/freshman.htm.
---------------------------------------------------------------------------
    In addition, the United States Department of Transportation reports 
that fatalities in crashes involving drunk drivers aged 16 to 20 have 
fallen 60 percent between 1982 and 2000. That progress has been 
achieved even though the number of 16 to 20 year olds licensed to drive 
has increased over 10 percent over the last decade to more than 12.6 
million.\4\
---------------------------------------------------------------------------
    \4\ National Highway Traffic Safety Administration, U.S. Dept. of 
Transportation (2002).
---------------------------------------------------------------------------
    While many factors explain this success, and there is still 
significant room for improvement, we believe that one of reasons for 
the progress of the last 20 years is that industry, government, and 
communities have cooperated to create programs that work. Brewers have 
committed hundreds of millions of dollars and substantial human, media, 
political and other resources to create effective anti-underage 
drinking programs.
    A critical area in which I believe we have broad societal agreement 
is the importance of active parental involvement to prevent underage 
drinking. Brewers have long advocated and sponsored programs to 
facilitate parental discussions about drinking with their young 
children as well as their college-bound teens. By acknowledging the 
temptation associated with underage drinking and encouraging their 
children to respect themselves and the law, parents can make an 
enormous difference. Brewer materials for parents are available in five 
languages with useful information to explain why drinking is 
inappropriate for youth. These efforts are effective because they draw 
on the strong influence parents have over their children's decisions 
about drinking.
    For over a decade, according to a national poll conducted by the 
Roper Research organization, youth have identified their parents as the 
most powerful influence in their decision to drink or to refrain from 
drinking. I should point out that advertising has always been one of 
the choices offered in the survey. Every year, it has ranked dead last 
as an influential factor by the most important group in this 
discussion: youths themselves.
    Because young people have so plainly told us that parents are the 
most effective way to reach them on the issue of underage drinking, we 
strongly believe in providing information and encouragement to help 
parents exercise this influence. And we do. Over the last several 
years, our members have distributed over 5 million pieces of material--
guidebooks, videos, and others--to parents across the U.S. Brewers have 
also maintained on-going national advertising campaigns and 
comprehensive websites dedicated to this issue.
    In addition to programs aimed at parents, our members sponsor or 
fund specific programs for those who sell our products in supermarkets, 
convenience stores, stadiums, concert venues, restaurants, and other 
retail outlets. As stated in the FTC Report to Congress released 
earlier this month, retailers play a vital role in stopping underage 
drinking by following their State laws and by checking and verifying 
IDs. Our members sponsor programs and provide materials in English, 
Spanish, Korean, and Vietnamese for servers of alcohol to teach them 
how to properly check IDs and to spot fake IDs. The Beer Institute and 
our members also disseminate ``NAT ID'' and other point-of-sale 
materials that remind customers that the establishment will ask for 
proper identification. In cooperation with retailers, police 
departments, county sheriffs, and other State and local agencies, 
brewers also have worked aggressively to help retailers and servers 
prevent the illegal underage purchase of alcohol.
    Over the last decade, brewers have joined the National Highway 
Traffic Safety Administration, Major League Baseball, and other 
professional sports leagues in the TEAM Coalition to address underage 
drinking and abusive consumption at games and other major outdoor 
events.
    And, at the college level, we have supported campus programs that 
focus student attention on education and awareness, emphasizing 
personal responsibility and respect for the law--which means not 
drinking if you are under 21, and drinking responsibly if you are above 
the legal drinking age and choose to drink. These programs include, 
among others, support for National Collegiate Alcohol Awareness Week 
programming, a nation-wide awareness effort that is taking place this 
month on hundreds of campuses across the country. Our industry has also 
supported research and programs collectively known as social norms, a 
positive approach that reminds college students that the large majority 
of their peers make healthy and responsible decisions about drinking.
    Last year, the National Institute on Alcohol Abuse and Alcoholism 
(NIAAA) issued a comprehensive report on alcohol abuse on campus, a 
section of which categorized social norms and other approaches 
supported by the industry as effective or promising.\5\
---------------------------------------------------------------------------
    \5\ Task Force of the National Advisory Council on Alcohol Abuse 
and Alcoholism, A Call to Action: Changing the Culture of Drinking at 
U.S. Colleges, NIAAA, 2002, p. 24.
---------------------------------------------------------------------------
    And finally, in addition to the other programs I have discussed, 
brewers have created diverse national advertising campaigns including 
``Live Responsibly,'' ``Let's Stop Underage Drinking Before It 
Starts,'' and ``21 Means 21.''
    The recent Federal Trade Commission Report on alcohol beverage 
industry self regulation reviewed industry-sponsored programs favorably 
and pointed out that they are developed by professionals in the fields 
of education, medicine, or alcohol abuse and that they follow 
approaches recommended by alcohol research.\6\
---------------------------------------------------------------------------
    \6\ Federal Trade Commission, Alcohol Marketing and Advertising--A 
Report to Congress, September, 2003, p. 21.
---------------------------------------------------------------------------
    Since our industry's advertising activities have recently been the 
subject of Congressional interest, I would like to briefly touch on 
some other developments that underscore our commitment to market and 
sell our products to adults of legal purchase age. The FTC's 2003 
Report unequivocally stated that beer industry members do not target 
underage consumers. Critics seek to use advertising as a lightning rod 
to divert attention from the real issues. Perhaps it is because they 
question the larger issue of beer's respected place in American 
society. But let's face it: drinking beer is not the only adult 
activity that youth should not engage in. In fact, this is just one of 
the many rules that society imposes on young people as they pass 
through maturity on their way to adulthood. And the most effective way 
to keep youth from engaging in adult behavior is not to pretend that 
adult products don't exist or that advertising causes people under 21 
to drink. The way to address this issue is to help youth navigate 
through an adult world where there are many things--driving a car, 
voting in an election--not just drinking, that are not appropriate for 
them until they reach an age of maturity.
    At the same time, our advertising is intended for adults, and our 
members voluntarily undertake extensive steps to avoid advertising and 
marketing that could be perceived as directed at youth. Self-regulation 
in this area is very important from a public policy perspective.
    The 2003 FTC report further reinforces a statement from a 1999 
agency report on alcohol beverage advertising: ``Self-regulation is a 
realistic, responsive and responsible approach to many of the issues 
raised by underage drinking. It can deal quickly and flexibly with a 
wide range of advertising issues and brings the accumulated experience 
and judgment of an industry to bear without the rigidity of government 
regulations.'' \7\ The FTC has conducted four comprehensive reviews of 
industry advertising practices over the last 5 years.\8\ The FTC 
recently indicated that, ``Self-regulation practices in the alcohol 
industry have shown improvement since issuance of the 1999 Report . . 
.'' \9\ Its September 2003 report cited improvements in the area of ad 
placement, noting that industry members had shown 99 percent compliance 
with industry standards governing placement of broadcast 
advertising.\10\ The FTC report discusses a number of important changes 
in our industry advertising code, which I will touch on in a moment. In 
the interest of full disclosure, the FTC also included some cautionary 
comments about advertising content and other issues, and we take the 
Commission's advice seriously.
---------------------------------------------------------------------------
    \7\ Self-Regulation in the Alcohol Industry: A Review of Industry 
Efforts To Avoid Promoting Alcohol To Underage Consumers, A Report to 
Congress from the Federal Trade Commission (Sept. 1999), at p. 4. 
Furthermore, our review of the internal company documents did not find 
evidence that the products and their advertising are targeted to 
consumers under 21.'' \7\ The Bureau of Alcohol, Tobacco and Firearms 
agreed these beverages ``were placed appropriately with other alcohol 
beverages in retail outlets, and that available point of sale 
advertising was not targeting consumers under age 21.'' \7\
    \8\ The FTC has initiated the following: Orders to file special 
reports to several major industry members in 1998; the 1999 report 
cited above in footnote 7; 2001 investigation of advertising and 
marketing of flavored malt beverages; and Alcohol Marketing and 
Advertising--A Report to Congress, September, 2003
    \9\ Federal Trade Commission, Alcohol Marketing and Advertising--A 
Report to Congress, September, 2003, p. 22.
    \10\ Id.
---------------------------------------------------------------------------
    In addition to the latest FTC report, the National Academies 
September report to Congress recognized the importance of self-
regulation. The report does highlight the age-old scholarly debate over 
advertising and underage drinking, which clearly indicates that 
advertising is not a significant factor in underage drinking or the 
decision to drink at any age. Beyond that discussion, however, the 
National Academies panel states, ``The industry has the 
prerogativeindeed, the social obligation--to regulate its own practices 
in promotional activities that have a particular appeal to youngsters, 
irrespective of whether such practices can be proven to ``cause'' 
underage drinking.'' [emphasis in original] \11\
---------------------------------------------------------------------------
    \11\ National Research Council and Institute of Medicine of the 
National Academies, Reducing Underage Drinking--A Collective 
Responsibility, p. 137.
---------------------------------------------------------------------------
    We do have some fundamental differences with the National Academies 
recommendations and the process used to develop them. We believe the 
key to further progress in reducing underage drinking lies in family 
and community-based efforts. We are disappointed that the National 
Academies panel ignored the clear direction of Congress to evaluate 
existing Federal, State, and non-governmental programs. The panel 
focused heavily on costly and experimental government solutions with a 
cursory review of existing programs, including many State efforts that 
combine education and enforcement to address unique challenges in 
different areas of our nation. The report does not provide the guidance 
Congress sought to determine policy and funding priorities to further 
reduce illegal underage access and consumption. This is unfortunate.
    For over 50 years, Beer Institute's members have maintained 
socially responsible business practices including a policy of vigorous 
self-regulation of advertising and marketing. First adopted in 1943, 
the beer industry's advertising code has evolved over time to respond 
to societal and technological developments. We want our intentions to 
be clear to our consumers as well as to those who do not drink. Our 
primary goal as an industry is to reach out to those who can legally 
purchase our products with tasteful, contemporary advertising that 
increases awareness of our members' brands. Our ads are enjoyed by 
millions of Americans and rated highly in numerous surveys of adult 
consumers. Consistent with our longstanding policies, the Beer 
Institute Code was recently revised to incorporate some of the best 
practices of our member companies and to address several FTC 
recommendations.
    I am pleased to inform you that our members have revised the 
standard for advertising placements in television, radio, and magazines 
to require placements only where the proportion of the audience above 
age 21 is reasonably expected to be 70 percent or higher. This standard 
reflects the demographics of the US population, in which approximately 
70 percent of the public is age 21 or older. We have also expanded our 
code provisions covering marketing at or near college campuses and 
product placement in television programs and movies. The 2003 FTC 
report discusses these revisions in detail, and a copy of our full code 
is included with this testimony.
    Although the recent National Academies recommendation to increase 
excise taxes is not part of our discussion here today, it is well known 
that the beer industry opposes such a measure; and I would like to take 
a brief moment to explain why. We oppose higher excise taxes because 
they are not an effective deterrent to abusive consumption or illegal 
underage drinking. A tax increase would force responsible adults on a 
budget--a large number of consumers who enjoy our products--to pass up 
the purchase of a six pack because it becomes less affordable. The 
science on this issue was examined by the NIAAA in its 10th Special 
Report to Congress. Their conclusion is that no consensus exists in 
this debate. Research conducted by Thomas Dee, and funded by the NIAAA, 
indicates that teens are not affected by higher taxes. In fact, Dee's 
research exposes methodological flaws in the research that the National 
Academies cited in support of raising excise taxes. If the research 
used to support higher beer taxes is flawed, we are surprised that the 
underage drinking committee ignored this important fact. Further, we 
note that Henry Weschler's research on the effects on college students 
is also cited in the NIAAA report, which concludes, ``The results 
suggested that alcohol prices were a less salient determinant of the 
drinking behavior of college students than they were in other 
populations.'' Finally, a study coauthored by one of the National 
Academies' panelists indicates that the effects of tax increases may be 
``considerably smaller than suggested in previous literature.'' \12\ 
The bottom line is that we do not support this recommendation because 
there is no scientific consensus to show that it will reduce teen 
drinking. It is also regressive and unfair to responsible adult 
consumers.
---------------------------------------------------------------------------
    \12\ Cook, P.J. and Moore, M.J., ``Environment and Persistence in 
Youthful Drinking Patterns,'' in Risky Behavior Among Youths, An 
Economic Analysis, edited by Jonathan Gruber, University of Chicago 
Press, National Bureau of Economic Research, 2001, pp. 375-437.
---------------------------------------------------------------------------
    In closing, I'd like to leave you with this last fact. Brewers 
fully recognize that underage drinking is a problem that our society 
must embrace and tackle. We hope that we will be given the 
consideration to be a meaningful part of that fight, through our 
demonstrated commitment to this issue. As the father of two children, 
and I share this committee's concern--just like every other parent out 
there. Thank you for the opportunity to discuss these important issues.

 Prepared Statement of Wendy J. Hamilton, National President, Mothers 
                         Against Drunk Driving

                              INTRODUCTION

    Good morning, my name is Wendy Hamilton and I am the National 
President of Mothers Against Drunk Driving. MADD's mission is to stop 
drunk driving, support the victims of this violent crime and prevent 
underage drinking. I am honored to be here today to testify on the 
critical public health issue of illegal youth alcohol use.
    I would like to take this opportunity to thank Chairman DeWine and 
Senator Dodd for holding this hearing today and for their continued 
commitment to protecting America's youth. Senators, your leadership has 
been and will be so important in bringing underage drinking prevention 
to the forefront of our nation's policy agenda.
    I would also like to recognize and thank Senators Arlen Specter, 
Robert Byrd, Tom Harkin, John Warner, Harry Reid, and Representatives 
Lucille Roybal-Allard, Frank Wolf and Zach Wamp for requesting the 
National Academy of Sciences (NAS) report and for their efforts to 
reduce underage drinking. MADD looks forward to working with this 
committee and with Congress to develop prevention policies that provide 
adequate attention and funding--and employ effective strategies--to 
save young lives.
    Today's hearing is truly historic--never before has the Federal 
Government considered action to develop a comprehensive strategy to 
prevent underage drinking, even though underage alcohol consumption is 
the nation's number one youth illegal drug problem. The NAS has 
assembled the nation's top public health researchers to examine a 
problem that has been overlooked for far too long. NAS has done an 
outstanding job cataloguing research and making science-based 
recommendations that if implemented will save lives.
    The public health and safety community has been pursuing action at 
the Federal level for many years on this issue, but only now has the 
necessary national dialogue begun. With this committee's leadership, 
the national spotlight will finally shine on this sorely neglected 
issue.

                              THE PROBLEM

    Without question, alcohol is the most widely used drug among 
America's youth. It is illegal for people under the age of 21 to drink 
alcohol, and yet currently there are 10.1 million underage drinkers in 
this nation (2002 National Household Survey On Drug Use and Health). 
Alcohol kills 6.5 times more kids than all other illicit drugs combined 
and is a major factor in the three leading causes of death of America's 
teens: motor vehicle crashes, homicides and suicides. Underage drinking 
does not just harm the drinker: half of the people who die in traffic 
crashes involving underage drinking drivers are people other than the 
drinking drivers. Underage drinking is not harmless fun. There is no 
such thing as ``responsible'' underage drinking.
    Progress was made in the 1980's, most notably with the raising of 
the minimum drinking age to 21--a law that has saved over 20,000 young 
lives. But we still have a national mentality that accepts underage 
drinking as a mere ``rite of passage,'' and underage drinking rates 
remain inexcusably high and have not improved for the past decade.
    According to 2002 Monitoring the Future data, nearly half (48.6 
percent) of all high school seniors report drinking in the last 30 
days, a much larger proportion of youth than those who report either 
using marijuana (21.5 percent) or smoking (26.7 percent). The 
proportion of high school seniors who report drinking in the last 30 
days was the same in 2002 as it was in 1993. Additionally, 29 percent 
of seniors report having five or more drinks on at least one occasion 
in the past two weeks, a percentage virtually unchanged since 1993.
    To bring these statistics to life, I would like to raise a recent 
incident involving youth alcohol use that made national news. A Sunday 
morning touch football game between suburban Chicago high school girls 
turned into a brutal hazing incident resulting in the hospitalization 
of five students, one with a broken ankle and another who needed 10 
stitches in her head. Video tape of the event revealed that younger 
girls were beaten, splattered with paint and had mud and feces thrown 
in their faces. About 100 students were involved, including onlookers 
who cheered while waving cups of beer before the camera.
    In one segment of the home video, sixteen and seventeen year old 
girls are seen being held upside down over a keg of beer by several 
boys while they drink straight from the tap. In another segment, 
several girls can be seen pounding on one girl with their fists while 
they push her down into the mud.
    School officials cited alcohol as a major factor in the violence, 
and in the weeks that followed, police charged two parents with 
providing three kegs of beer to minors.
    As the nation watched these broadcasts in horror, many teens likely 
did not bat an eye. The Chicago incident could have been filmed in 
almost any town. Today, teens have easy access to alcohol. They are 
saturated with irresponsible alcohol ads. Underage drinking laws are 
not well enforced. And, parents and communities often look the other 
way when kids drink, in many cases even providing the beer. We've all 
heard the line: ``Well, at least they're not using drugs.'' The fact 
is, alcohol IS the illegal drug of choice for kids.

 DRUNK DRIVING AND OTHER ALCOHOL-RELATED CONSEQUENCES ASSOCIATED WITH 
                           YOUTH ALCOHOL USE

    The consequences of youth alcohol use are staggering. Research 
demonstrates that the younger someone starts drinking, the more likely 
they are to suffer from alcohol-related problems later in life, 
including alcohol dependence and drunk driving. Children who drink 
before age 15 are four times more likely to become alcohol dependent 
than those who delay drinking until they are 21.
    More than 17,000 people are killed each year in alcohol-related 
crashes and approximately one-half million are injured. In 2000, 69 
percent of youth killed in alcohol-related traffic crashes involved 
underage drinking drivers. Although young drivers make up a mere 7 
percent of the driving population, they constitute 13 percent of the 
alcohol-involved drivers in fatal crashes.
    The 1999 National Survey of Drinking and Driving Among Drivers Age 
16-20 revealed that youth drove 11 million times after drinking in the 
past year. Their average blood alcohol level was .10 percent, three 
times the level of all drivers who drove after drinking. Forty percent 
of youth who drove after drinking had a least one passenger in the 
vehicle. Clearly young drivers are putting themselves at risk, but they 
are also putting others at risk. Society has an obligation to protect 
motorists from the risky behavior of underage drinkers. Society also 
has an obligation to protect kids from themselves.
    Alcohol is also implicated in a large portion of deaths and 
injuries caused by dangers other than drinking and driving. According 
to the NAS, nearly 40 percent of youth under age 21 who died from 
drowning, burns and falls tested positive for alcohol. Youth alcohol 
use is also associated with violence and suicidal behavior. Individuals 
under 21 commit 45 percent of rapes, 44 percent of robberies, and 37 
percent of other assaults, and it is estimated that 50 percent of 
violent crime is alcohol-related.
    Sexual violence, as well as unplanned and unprotected sexual 
activity, is another consequence of youth alcohol use. A 2002 National 
Institute on Alcohol Abuse and Alcoholism (NIAAA) study titled ``A Call 
to Action: Changing the Culture of Drinking at U.S. Colleges'' found 
that each year more than 70,000 students aged 18-24 are victims of 
alcohol-related sexual assault or date rape. Additionally, the report 
found that 600,000 students were assaulted by another drinking college 
student annually.
    Long-term consequences of youth alcohol use have become more and 
more clear as research on the adolescent brain continues to emerge. The 
human brain continues to develop into the early 20's. Studies show that 
heavy alcohol use by youth has disproportionately negative effects on 
the physical development of the brain, and that alcohol use during 
adolescence has a direct affect on brain functioning.
    In addition to the human costs associated with underage drinking, 
the economic cost to society is staggering. It is conservatively 
estimated that underage drinking costs this nation $53 billion dollars 
each year, including $19 billion from traffic crashes and $29 billion 
from violent crime. The NAS points out that this estimate is ``somewhat 
incomplete'' and ``does not include medical costs other than those 
associated with traffic crashes'' and other potential factors 
contributing to the social costs of underage drinking. The NAS 
concludes that ``the $53 billion appears to be an underestimate of the 
social costs of underage drinking.'' (p. 70)

      NATIONAL ACADEMY OF SCIENCES PROVIDES ROADMAP FOR THE NATION

    The NAS report provides a significant and groundbreaking 
opportunity to help put the nation's number one youth drug problem on 
the national policy agenda and gives our nations' leaders the impetus 
for concrete action. All of the NAS recommendations should be seriously 
considered by Congress, the Administration, and State and local 
leaders. The NAS strategy includes components that will involve leaders 
at all levels of government, community activists, parents, educators, 
businesses, law enforcement, youth and society at large.
    The NAS roadmap includes ten main components:
    1. National Adult-Oriented Media Campaign
    2. Partnership to Prevent Underage Drinking
    3. Alcohol Advertising
    4. Entertainment Media
    5. Limiting Access
    6. Youth-Oriented Interventions
    7. Community Interventions
    8. Government Assistance and Coordination
    9. Alcohol-Excise Taxes
    10. Research and Evaluation
    While MADD supports the NAS report in its entirety, my testimony 
will focus on areas MADD believes will have the greatest impact on 
reducing youth alcohol use.
    national efforts to combat underage drinking woefully inadequate
    While illicit drugs and tobacco youth prevention have received 
considerable attention and funding from the Federal Government, 
underage drinking has consistently been ignored. NAS confirms this:
    In fiscal 2000, the nation spent approximately $1.8 billion on 
preventing illicit drug use (Office of National Drug Control Policy, 
2003), which was 25 times the amount, $71.1 million, targeted at 
preventing underage alcohol use.'' (p. 14)
    Not only is there minimal funding available to States and local 
communities specifically targeted to reduce youth alcohol use, there is 
also no coordinated national effort to reduce and prevent underage 
drinking.
    In May 2001 the General Accounting Office (GAO) released a report 
outlining Federal funds aimed at preventing underage drinking. The 
report provided concrete evidence that: (1) the Federal Government's 
approach to youth alcohol use prevention is disjointed and (2) funding 
for youth alcohol prevention is woefully inadequate.
    GAO found that multiple Federal agencies play some role in underage 
drinking prevention, and that only a very small portion--7 percent--of 
total funds available for alcohol and other drug use both had a 
specific focus on alcohol and identified youth or youth and the broader 
community as the specific target population. Specifically, among the 
Departments of Health and Human Services, Justice and Transportation, a 
mere $71.1 million focused on youth or alcohol and youth and the 
broader community.
    Citing the GAO and additional research, the NAS report concludes 
the following:
    . . . there is no coordinated, central mechanism for disseminating 
research findings or providing technical assistance to grantees or 
others interested in developing strategies that target underage 
drinking . . . the committee is not aware of any ongoing effort to 
coordinate all of the various Federal efforts either within or across 
departments. The multitude of agencies and initiatives involved 
suggests the need for an interagency body to provide national 
leadership and provide a single Federal voice on the issue of underage 
drinking. (p. 236-237)
    The NAS report also adds that ``community efforts are most likely 
to succeed if they have strong and informed leadership'' and that 
``resources are needed for training and leadership development for 
coalition and task force members as well as key decision makers.'' (p. 
237-238)
    NAS Recommendations 12-1 through 12-6 demonstrate a clear need for 
better ``Government Assistance and Coordination'' at the national level 
in order to reduce underage drinking. MADD strongly supports 
implementation of NAS Recommendations 12-1 through 12-6:
    12-1: A Federal interagency coordinating committee on prevention of 
underage drinking should be established, chaired by the secretary of 
the U.S. Department of Health and Human Services.
    12-2: A National Training and Research Center on Underage Drinking 
should be established in the U.S. Department of Health and Human 
Services. This body would provide technical assistance, training, and 
evaluation support and would monitor progress in implementing national 
goals.
    12-3: The secretary of the U.S. Department of Health and Human 
Services should issue an annual report on underage drinking to Congress 
summarizing all Federal agency activities, progress in reducing 
underage drinking, and key surveillance data.
    12-4: Each State should designate a lead agency to coordinate and 
spearhead its activities and programs to reduce and prevent underage 
drinking.
    12-5: The annual report of the secretary of the U.S. Department of 
Health and Human Services on underage drinking should include key 
indicators of underage drinking.
    12-6: The Monitoring the Future Survey and the National Survey on 
Drug Use and Health should be revised to elicit more precise 
information on the quantity if alcohol consumed and to ascertain brand 
preferences of underage drinkers.

                 NATIONAL ADULT-ORIENTED MEDIA CAMPAIGN

    Six years ago, Congress allocated $1 billion dollars to the White 
House Office of National Drug Control Policy (ONDCP) for an anti-drug 
media campaign designed to prevent youth drug use. Despite the fact 
that alcohol is the number one youth drug problem--both then and now--
underage drinking prevention messages were excluded from the campaign.
    MADD and other members of the public health and safety community 
pressed to have underage drinking prevention messages included in the 
ONDCP campaign. In May 1999, an amendment sponsored by Representatives 
Lucille Roybal-Allard (D-CA) and Frank Wolf (R-VA) was introduced that 
would change the authorizing legislation to allow ONDCP to begin 
including such messages. The proposed amendment came under attack and 
was eventually defeated due to intense pressure from the alcohol lobby.
    Since 1998, Congress has considered creating a separate media 
campaign to prevent underage drinking, but those attempts also failed 
due to behind the scenes opposition from the alcohol industry. The 
alcohol industry instead pressured Congress to request a study as a 
means to delay action on a media campaign. The Congressional directive 
to NAS to develop a comprehensive strategy to prevent underage drinking 
dates back several years to repeated attempts by the public health and 
safety community to establish a media campaign that addresses youth 
alcohol use.
    When the alcohol industry learned that the NAS might recommend 
prevention measures it opposes, alcohol interests tried to 
inappropriately influence the content of the report, fault the NAS 
expert panel, and criticize and discredit the findings while they were 
being formulated. Before the NAS report was even released, the beer 
industry took out full-page ads in Roll Call, the Hill, Congress Daily 
and other Capitol Hill publications in an attempt to discredit the 
report findings. The beer industry complained that they did not have 
enough influence on the NAS report.
    MADD believes that the alcohol industry, and in particular the beer 
lobby, has not earned credibility on the issue of underage drinking 
prevention. As the nation attempts to get serious about employing 
effective, science-based strategies to curb the nation's number one 
youth drug problem, MADD urges the alcohol industry to stop its 
baseless opposition to proven public health measures and to stop 
relying on underage drinking as a source of revenue.
    It is unacceptable that the alcohol industry has been the sole 
source of messaging to parents and teens on underage drinking. Congress 
decided that it wasn't a good idea to let tobacco companies be the sole 
voice in educating the public on smoking prevention. We believe the 
same should hold true for the alcohol companies on underage drinking.
    MADD commends the NAS for calling for a national advertising 
campaign to prevent underage drinking and strongly supports NAS 
Recommendation 6-1:
    6-1: The Federal Government should fund and actively support the 
development of a national media effort, as a major component of an 
adult-oriented campaign to reduce underage drinking.
    The goals of the national media campaign, as explained by NAS, 
would be to instill a broad societal commitment to reduce underage 
drinking, to increase specific actions by adults that are meant to 
discourage underage drinking, and to decrease adult conduct that 
facilitates underage drinking.
    The need for a comprehensive public education campaign aimed at 
underage drinking prevention is undeniable as most parents and teens 
are unaware of the dangers associated with youth alcohol use. Many 
parents do not recognize the prevalence of or the risks associated with 
drinking for their own children, and many parents even facilitate their 
underage children's drinking by giving kids access to alcohol, by not 
responding to children's drinking, and by not adequately monitoring 
their children's behavior.
    NAS also concludes that an adult-oriented national media campaign 
is also important because it would support local efforts to reduce 
underage drinking. It is important not only because of what it will 
accomplish on its own, but also because its effects bolster local 
efforts.

             REDUCING YOUTH EXPOSURE TO ALCOHOL ADVERTISING

    Underage youth are bombarded with irresponsible alcohol marketing 
messages depicting alcohol consumption as cool, sexy and glamorous. The 
establishment of a national media campaign to prevent underage drinking 
is particularly important given the fact that in 2001 the alcohol 
industry spent 1.6 billion dollars on product advertising in the 
``measured media'' (including magazines, newspapers, outdoor 
advertising, and radio and television). According to the Federal Trade 
Commission (FTC), at least twice that amount was spent on unmeasured 
promotion, including sponsorships and product placement in 
entertainment media and other venues.
    A recent study by the Center on Alcohol Marketing and Youth (CAMY 
2003) reported that in 2001 the alcohol industry spent $23.2 million 
dollars to air 2,379 ``responsibility'' messages, while in contrast the 
industry spent $812.2 million on 208,909 product advertisements. There 
were 179 product ads for every ad that referred to the legal drinking 
age. Quite significantly, a typical ``responsibility'' ad is branded 
with the alcohol company name, which leads many public health experts 
to conclude that ``responsibility'' ads are simply another means to 
promote brand recognition and loyalty.
    MADD is not against alcohol advertising, but it is imperative that 
stricter standards be put in place to protect our children from 
constant exposure to alcohol messages. Although beer is the favorite 
alcoholic beverage among young people, the beer industry has advertised 
for years with little or no restrictions or standards from the 
networks. Strong alcohol advertising restrictions must be mandatory for 
all segments of the alcohol industry--including ads for beer, wine, 
liquor and malt-based beverages.
    According to the Office of Juvenile Justice and Delinquency 
Prevention, underage drinkers consume about 10 percent of all the 
alcohol purchased in the United States, or 3.6 billion drinks annually. 
NAS reports that underage drinkers consume anywhere from 10 to 20 
percent of all alcohol purchased in the U.S. Beer is the most common 
drink consumed in most cases of heavy drinking, binge drinking, drunk 
driving and underage drinking.
    Now ``malternatives'' or ``alcopops'' have climbed onto the 
advertising bandwagon to capture more of the youth market (such as 
Smirnoff Ice, Bacardi Silver, and Skyy Blue). MADD is deeply concerned 
with the growing number of ads for liquor-branded, malt-based beverages 
that have a flavor and marketing plan that appeals to our kids. Just 
like beer, the distilled spirits industry is being given a ``free 
pass'' to establish brand recognition and loyalty among youth. NAS 
states that:
    A particularly troubling illustration of the youth-specific 
attractions of an alcohol marketing campaign concerns so-called 
``alcopops,'' sweet, flavored alcoholic malt beverages. Recent survey 
data suggest that these products are more popular with teenagers than 
with adults, both in terms of awareness and use. (p. 135)
    Greater restrictions are also needed for print advertising. Despite 
the alcohol industry's claims, CAMY reports that young people under 21 
are reached at a higher proportion to their numbers in the population 
by alcohol ads. Our youth see far more beer, distilled spirits and 
malternative advertising in magazines than adults. In 2001 alone, 
nearly one-third of all measured magazine alcohol ads were placed in 10 
publications with a youth audience of 25 percent or more.
    NAS points out that the dispute over whether alcohol advertising 
``causes'' underage drinking is simply an ``unnecessary distraction'' 
from the most important task at hand: the alcohol industry must do a 
better job of refraining from marketing products or engaging in 
promotional activities that appeal to youth. NAS concludes that if the 
industry fails to respond in a meaningful way to this challenge, the 
case for government action becomes compelling.
    MADD supports all of the NAS recommendations on alcohol 
advertising, but in particular MADD urges action on NAS Recommendations 
7-4 and 12-6:
    7-4: Congress should appropriate the necessary funding for the U.S. 
Department of Health and Human Services to monitor underage exposure to 
alcohol advertising on a continuing basis and to report periodically to 
Congress and the public. The report should include information on the 
underage percentage of the exposed audience and estimated number of 
underage viewers for print and broadcasting alcohol advertising in 
national markets and, for television and radio broadcasting, in a 
selection of large local or regional markets.
    12-6: The Monitoring the Future (MTF) Survey and the National 
Household Survey on Drug Use and Health (NSDUH) should be revised to 
elicit more precise information on the quantity of alcohol consumed and 
to ascertain brand preferences of underage drinkers.
    Both of these recommendations call for basic public health 
surveillance that is essential to identify and prevent the over-
exposure of our youth to alcohol advertising. The availability of such 
data is needed to understand the actual youth impact of new products 
and the advertising campaigns that promote them.

                    LIMITING ALCOHOL ACCESS TO YOUTH

    Limiting youth access to alcohol is a proven way to decrease 
underage drinking. Most notably, increasing the minimum drinking age to 
21 has been one of the most effective public health policies in 
history, resulting in a significant decrease in fatal traffic crashes, 
DWI arrests, and self-reported drinking by young people. However, the 
law alone does not preclude youth from gaining access to alcohol. 
General deterrence through sanctions, improved enforcement, and public 
awareness of enforcement is needed in order to effectively implement 
restrictions on youth alcohol use.
    The NAS report points out that ``[i]t is apparently not difficult 
for youth who want to drink to readily obtain alcohol. A majority of 
high school students, even eighth graders, report that alcohol is 
`fairly easy' or `very easy' to get, with the proportion increasing 
from eighth to tenth to twelfth grade.'' For eighth graders, 60 percent 
report that alcohol is fairly easy or very easy to obtain, while for 
twelfth graders the percentage is more than 90 percent. The NAS also 
reports that the ``alcohol most favored by underage drinkers is beer.''
    A critical component of a comprehensive strategy to reduce underage 
drinking is to enact and strengthen laws designed to limit youth 
alcohol consumption. Although every State defines the legal minimum 
drinking age at 21, State laws vary in scope in terms of restrictions 
relating to underage purchase, possession, or consumption of alcohol 
and for the use of false identification. These weaknesses, as NAS 
points out, compromise the effectiveness of minimum drinking age laws.
    The NAS recommendations to limit youth alcohol use focus on 
enacting and strengthening laws to: (1) reduce access through 
commercial sources; (2) reduce access through non-commercial sources; 
(3) reduce drinking and driving by underage drinkers; and (4) prescribe 
and enforce penalties on adult providers and underage drinkers.
    In addition to closing loopholes in age 21 laws as mentioned above, 
NAS suggests, and MADD agrees, implementing key approaches to meeting 
these goals, including:
    <bullet> Imposing more stringent penalties on retail licensees for 
violation of laws against sales to minors;
    <bullet> Strengthening compliance check programs in retail outlets;
    <bullet> Strengthening or enacting dram shop laws;
    <bullet> Regulating internet sales and home delivery of alcohol;
    <bullet>  Holding adults responsible for illegal consumption of 
alcohol by minors;
    <bullet> Implementing beer keg registration laws to deter the 
purchase of kegs of beer for consumption by minors;
    <bullet> Strengthening enforcement of zero tolerance laws;
    <bullet> Implementing the use of routine sobriety checkpoints to 
increase the deterrence of underage drinking and driving.
    Enforcement of State and local laws has proven to be a highly 
effective tool in underage drinking prevention. Tougher enforcement of 
laws aimed at reducing underage drinking is greatly needed, and 
Congress can provide the impetus for action. In particular, MADD 
strongly supports NAS Recommendation 9-3:
    9-3: The Federal Government should require States to achieve 
designated rates of retailer compliance with youth access prohibitions 
as a condition of receiving block grant funding, similar to the Synar 
Amendment's requirements for youth tobacco sales.
    As part of a comprehensive strategy to reduce underage drinking, 
Congress should also provide additional resources to law enforcement in 
order to improve enforcement of underage drinking laws.

          EXPANDING YOUTH-ORIENTED AND COMMUNITY INTERVENTIONS

    The NAS report underscores the need for expanding youth-oriented 
and community interventions, including: intensive research and 
development for a youth-focused national media campaign to prevent 
underage drinking; funding for and implementation of evidence-based 
education interventions, with priority given to those that incorporate 
effective elements and those that are part of comprehensive community 
programs; and improving assessment and treatment programs.
    MADD strongly supports NAS Recommendation 11-2:
    11-2: Public and private funders should support community 
mobilization to reduce underage drinking. Federal funding for reducing 
and preventing underage drinking should be available under a national 
program dedicated to community-level approaches to reducing underage 
drinking, similar to the Drug Free Communities Act, which supports 
communities in addressing substance abuse with targeted, evidence-based 
prevention strategies.
    MADD's youth programs are rooted in the latest scientific research 
and strive to empower children, teens and parents with knowledge so 
that individuals will be able to keep themselves and others safe from 
harm. Programs encourage good decision-making and engage youth in 
specific interventions designed to reduce underage drinking.
    One of MADD's most successful community based youth programs is 
called Youth In Action (YIA). MADD's YIA program partners young people 
with community adult leaders to work toward ``environmental'' 
prevention strategies. Projects focus on strengthening enforcement of 
underage drinking laws and policy change. YIA teams have been trained 
in more than 40 communities across the country. Their partnerships with 
local law enforcement agencies, schools and community leaders have 
helped pass key underage drinking legislation and saved young lives.
    Youth In Action focuses on the community environment that condones 
underage drinking, from the store clerk who doesn't check IDs, to the 
police officer who might pour out the beer and send teens home, to an 
adult who doesn't mind buying beer for a kid who slips him an extra 
$10--YIA teams look for community solutions instead of focusing their 
attention on their peers. Youth In Action teams engage in very specific 
interventions because research says these projects work. YIA teams 
across the country conduct:
    <bullet> Alcohol Purchase Surveys--A young looking 21 year old 
attempts to purchase alcohol without an ID. No actual purchase is made. 
It is merely a survey to see if the clerk would have sold alcohol to a 
presumed minor without ID.
    <bullet> Compliance Checks--With the help of the police, young 
people act as underage buyers. They are instructed to go through with 
the sale, whether the clerks ask for ID or not. The police may cite or 
arrest the store clerk.
    <bullet> Shoulder-Tap Surveys--With law enforcement present to 
ensure safety, a young person (or group of young people) approach 
strangers outside an alcohol retailer to see if these adults would 
willingly purchase alcohol for them because they are too young to 
legally buy. Those that answer yes receive instead of money, a card 
outlining the law and penalty for furnishing alcohol to a minor. Those 
that refuse to purchase alcohol are handed a card thanking them for 
serving their community by refusing to provide alcohol to a minor.
    <bullet> Law Enforcement Recognition Programs--YIA teams publicly 
thank local law enforcement officials who are working to prevent 
underage drinking. This can be done many ways: a formal banquet, a 
media event, or even just by bringing food to officers at the station 
or out on location where police officers are working on the job. Either 
way, this is a unique opportunity for teens to thank police officers 
for doing their job.
    <bullet> Roll Call Briefings--YIA teams set up meetings with their 
local police departments to make presentations at shift change 
meetings. Two or three YIA members go to the police station with an 
adult leader to encourage police officers to enforce the Zero Tolerance 
Law. Many YIA teams have printed cards or notepads to hand out 
outlining the law and declaring their support for it.
    Two weeks ago while visiting New Orleans to attend the MADD 
National Conference, 20 young activists from YIA teams from across the 
country spent a Thursday night determining youth accessibility to 
alcohol in the ``Big Easy'' by measuring the number of adults willing 
to purchase alcohol for those under 21. The ``shoulder tap'' survey 
revealed that it is relatively easy for youth to get alcohol in New 
Orleans. Additionally, to help enforce the minimum drinking age law, 
YIA teams spoke at 10 New Orleans Police Department roll call briefings 
to demonstrate to law enforcement officers that young people believe 
that the enforcement of the 21 minimum drinking age law will change 
behavior and save lives.
    Protecting You/Protecting Me (PY/PM) is another program developed 
by MADD in response to educators, parents, and community leaders 
seeking an alcohol-use prevention program for elementary school 
students that could be incorporated in to the core curriculum. PY/PM 
was named a Model Program by the U.S. Department of Health and Human 
Services, Substance Abuse and Mental Health Services Administration 
(SAMHSA), Center for Substance Abuse and Prevention (CSAP).
    PY/PM includes the latest brain research, provides all curriculum 
and training materials necessary for national replication and includes 
an evaluation component, which continually demonstrates significant 
results.
    The PY/PM curriculum teaches first through fifth graders basic 
safety skills, alcohol's effects on the developing brain and shows kids 
how to protect themselves by making good decisions, such as what to do 
when riding in a car with an unsafe driver. The curriculum is designed 
to fill the gap in current prevention programs that have not yet 
incorporated the latest research on children's brains and the 
developmental risks associated with exposure to alcohol before the age 
of 21.
    The goal of the curriculum is to prevent injury and death of 
children and youth due to underage consumption of alcoholic beverages, 
and vehicle-related risks, especially as passengers in vehicles in 
which the driver is not alcohol-free.
    Evaluation of PY/PM has shown that students receiving the lessons 
are:
    <bullet> more knowledgeable about their brains
    <bullet> more media literate
    <bullet> less likely to ride with a driver who is not alcohol-free
    <bullet> less likely to drink when they are teenagers
    PY/PM is endorsed by the American Academy of Pediatrics and the 
National Association of Elementary School Principals. By the end of 
2003, nearly 200,000 elementary students will be exposed to MADD's PY/
PM's lessons in over 1,200 schools across the country.

                    INCREASING ALCOHOL EXCISE TAXES

    Research shows that alcohol taxes and price affect youth alcohol 
consumption and associated consequences. Studies demonstrate that 
increased beer prices lead to reductions in the levels and frequency of 
drinking and heavy drinking among youth and lower traffic crash 
fatality rates among young drivers.
    MADD strongly supports NAS Recommendation 12-7:
    12-7: Congress and State legislatures should raise excise taxes to 
reduce underage consumption and to raise additional revenues for this 
purpose. Top priority should be given to raising beer taxes, and excise 
tax rates for all alcoholic beverages should be indexed to the consumer 
price index so that they keep pace with inflation without the necessity 
of further legislative action.
    Revenue generated from increased alcohol excise taxes could be 
designated, as NAS suggests, to fund a broad prevention strategy to 
reduce underage drinking. NAS concludes that ``the long downward slide 
in the actual cost of these taxes to consumers has considerably 
exacerbated the underage drinking problem.'' (p. 246)
    Despite the public health ramifications, the alcohol industry 
continues to push for lower alcohol excise taxes. In 1991, for the 
first time in 40 years, the Federal excise tax on beer was raised from 
$9 per barrel to $18 per barrel (or 16 cents per six-pack to 32 cents 
per six pack).
    MADD is strongly opposed to H.R. 1305 and S. 809, legislation 
seeking to ``roll-back'' the 1991 beer tax increase. The National 
Bureau of Economic Research has estimated that the 1991 increase saves 
600 young lives each year in reduced traffic crashes. Similarly, MADD 
is strongly opposed to H.R. 2950 and S. 1457, legislation seeking to 
roll-back the Federal excise tax on distilled spirits to its pre-1985 
level.

                               CONCLUSION

    It is time for our nation--from parents to communities to our 
political leaders at the national and State levels--to end the 
complacent attitude about underage drinking and to take action to end 
this public health epidemic. There is an urgent need to expand 
prevention, treatment and community programs and improve enforcement of 
existing laws to prevent underage drinking. More youth drink alcohol 
than smoke tobacco or use other illegal drugs, yet Federal investments 
in preventing underage drinking pale in comparison with resources 
targeted at preventing illicit drug use.
    The media constantly reports on the countless numbers of alcohol-
related deaths and injuries of today's youth, but our nation accepts 
and even enables these preventable tragedies. The future of our 
nation's youth continues to hang in the balance. Underage drinking is 
illegal, and yet millions of kids continue to engage in this high-risk 
behavior every month, every weekend, and even every day.
    The NAS has reviewed the research and has recommended strategies 
that will significantly reduce and prevent underage drinking: a 
national media campaign to prevent underage drinking, tougher standards 
for alcohol advertising, improved teen drinking prevention laws, better 
enforcement and awareness of these laws, expanded youth and community 
interventions, and increased Federal and State excise taxes on 
alcohol--all areas that MADD's members view as critical to solving this 
problem.
    MADD will continue to work with Members of Congress and with 
partners in the public health community to pursue introduction of a 
comprehensive, science-based legislative package designed to reduce and 
prevent underage drinking. I urge this committee to use the NAS 
recommendations as a roadmap to create a healthier future for America's 
youth.
    The devastating effects of underage drinking are completely 
preventable. The NAS recommendations give us a new beginning and a 
fresh approach to attack this problem. We must, as a nation, ramp up 
our efforts, and today is a new beginning in that endeavor. Thank you.

                 Prepared Statement of David DeAngelis

    Good morning. My name is David DeAngelis, and I am a senior at 
North Haven High School in North Haven, Connecticut. I would like to 
thank Senator Dodd, Senator DeWine, and the sub-committee for inviting 
me to be here this morning. I am honored to have the opportunity to 
speak on this issue.
    Three summers ago, three classmates and I attended the Connecticut 
MADD Power Camp. One speaker left a lasting impression on us. Her 
teenage daughter had been killed by a drunk driver and she began 
speaking to young people about the perils of drinking and driving. The 
task grew increasingly difficult and on the way to our group, she 
prayed to her daughter for a sign to help her continue. A car passed. 
The license plate read ``SAVE 1''.
    The four of us left the camp determined to address the problems of 
underage drinking in our community and started a newspaper column 
titled ``SAVE 1''. We decided to target adults, hoping to enlighten 
parents and encourage them to help their children make the right 
choices. After the other three students graduated, I continued to write 
it on my own.
    Although I receive positive feedback about the column, I sometimes 
get frustrated. Last spring, I gave a presentation to parents at my 
town's middle school and only thirty people showed up. Trying to remain 
motivated became a challenge.
    That changed this summer when I volunteered as a staffer at Power 
Camp and worked with students to develop a project for their town. I 
left the camp optimistic after watching them rally behind their idea to 
focus on passing a local ordinance against serving alcohol to minors at 
house parties.
    Today I speak before you on the heels of the release of the NAS 
report on underage drinking. When I read the report, especially the 
committee's proposal for a national adult-oriented media campaign, the 
words Adult-oriented jumped out at me. Targeting adults is necessary to 
effectively address underage drinking. Parents often take on a ``kids 
will be kids'' attitude and think that drinking is part of growing up. 
Actually, young people try to emulate adults whose social lives revolve 
around alcohol. Many parents not only condone the use of alcohol but 
also provide liquor to their children and their children's friends.
    Last May, a classmate of mine had an after-prom party where alcohol 
was included. To make sure the guests would be ``safe'', his parents 
confiscated their car keys. This summer, what started as a few kids 
hanging out in a basement turned into a full-fledged party as more and 
more kids showed up with beer. The parents spent the entire evening 
upstairs never checking on the group.
    Then, there are the times when parents are not home. Kids party, 
drink, and do stupid and dangerous things. One girl, hosting a party, 
jumped into her pool fully clothed after getting drunk. Three times. 
Another classmate celebrated his birthday by drinking at a friend's 
house and falling down the stairs.
    Underage drinking is not a problem confined to the town of North 
Haven. It happens everywhere. This past July, I was here in Washington 
for Boys Nation. Standing in the airport, I met some of the other 
delegates and casually asked what they liked to do for fun. One 
promptly replied, ``Drink'' and began recounting stories that involved 
getting drunk with his friends.
    A large number of high school students are affected by underage 
drinking, including those who have made the decision not to drink. 
These kids are often ostracized by students in the more popular 
drinking circles and fight daily pressures to join.
    This initiative is extremely important. It will take a national 
movement to change the apathetic attitudes of parents. Blatant 
disregard for the drinking age simply cannot be tolerated. The youth of 
America are receiving the message that underage drinking is acceptable, 
not to mention the messages they receive from the media.
    The alcohol industry spends over one billion dollars each year on 
advertising, portraying drinking as a ticket to good times. Most 
disturbing is the fact that alcohol companies advertise during TV 
programs viewed predominantly by teenagers. On the radio, more beer 
commercials are heard by children than by adults. These ads are clever, 
entertaining, and humorous. I can recite a radio commercial for Beck's 
Beer that I heard almost every day this summer.
    When children are not getting bombarded with commercials, they are 
seeing images promoting drinking in the shows they watch. Who else is 
watching MTV at 4:00 in the afternoon? Or at 1:00 on a Saturday when 
shows like ``Spring Break'' and ``Fraternity'' are aired?
    Connecticut has the highest rate of underage drinking. The average 
age that children begin drinking is 11 for boys and 13 for girls. The 
Connecticut Coalition to Stop Underage Drinking has been at work for 
the past seven years addressing these issues, focusing much of its 
energy on the role of adults. It has also begun work on each of the 
local recommendations in the NAS report.
    But they only scratch the surface of the problem. We--the entire 
nation--need the federal government's guidance, direction, and 
resources. Underage drinking is a national crisis which is only getting 
worse. The NAS recommendations are too valuable to ignore.

  Prepared Statement of Catherine Bath, Program Director, Security On 
                              Campus, Inc.

    Dear Senator DeWine and Committee Members: We at Security On 
Campus, Inc., a national nonprofit organization concerned with the 
safety of college students, want to thank the Senate for supporting 
stronger Federal action on the serious problem of drinking among our 
youth. The recommendations of the NAS report need to be implemented to 
save the needless waste of young lives. I know. I lost my only son to 
an alcohol-related incident at Duke University in November 1999. There 
is no greater heartbreak. There is no loss more tragic or unnecessary!
    Should we be surprised at the high percentages of college and high 
school students experimenting with alcohol and engaging in high-risk 
drinking? Our children have been exposed to the alcohol industry's 
public service announcements (AKA beer commercials) all of their young 
lives. Other than the alcohol industry's advertisements to party with 
beer, bond with beer, be fun, popular and successful with beer, our 
children have had virtually no other education about alcohol. My son 
(now deceased) and his whole generation, now in college, grew up 
mesmerized by Spuds McKenzie and the Budweiser Frogs!
    Why are alcohol advertisers not required to issue a long list of 
warnings (the truth--like the drug companies are required to do) on TV? 
Why are they allowed to advertise such a dangerous drug to our children 
at all?
    The National Campaign to Prevent Underage Drinking Act of 2001 
never got passed into law. Why? Because the alcohol industry lobby is 
more powerful than the voice of this country's parents. All of the 
efforts to effect some change in this culture are subverted at every 
juncture by the alcohol industry, a very powerful and cash rich 
presence and force at every level, including governmental. They are 
lobbying to lower beer tax to its 1951 level.
    That is a slap in the face of every parent in this country. And it 
is a knife in the heart of parents such as myself who have lost their 
children to alcohol and there are SO MANY OF US!

  Prepared Statement of Brandon Busteed, Founder and CEO, Outside The 
                               Classroom

    I am so utterly frustrated and disappointed. I'm frustrated with 
the fact that this country has an underage drinking problem of epidemic 
proportions, yet the resources dedicated to solving it have been 
miniscule by any measure. I'm frustrated by the lack of leaders willing 
to address the problem. I'm especially frustrated that so many people 
don't care, and that some even want to keep things status quo. I'm 
disappointed that it has taken Congress so long to even consider doing 
something about it. I'm disappointed in myself in believing that very 
little will come of this hearing. I'm disappointed most of all that 
those leaders needed most to solve this problem--the college and high 
school students themselves--are completely missing from this dialogue.
    You'll see and hear today from alcohol industry lobbyists seeking 
to protect their market and profits, researchers who are decades 
removed from college and high school, and activists who have lost 
family members and close friends to alcohol-related deaths. All these 
perspectives are critical and deserve to be heard. Indeed, they are 
typically the only ones heard. But unfortunately, you're not going to 
hear from some of the sources that most need to be heard. You're not 
going to hear from people like me, save if you take the time to read 
this--one of the many written testimonies submitted to this hearing.
    I'm 26-years-old--about 4 years removed from my undergraduate 
experience at Duke University where I was a student activist advocating 
responsible drinking and nonalcoholic lifestyles. Different from most 
who get involved in this effort, I was not spurred into action by the 
death of a friend or an alcoholic relative. I was an NCAA Division I 
standout in track and cross-country. I was a public policy major. I am 
a white male athlete raised in an upper-middle class home. Based on 
those demographics, I'm in about the highest-risk category for high-
risk drinking that there is. About the only thing missing is that I was 
not a member of a Greek organization in college. But my father is an 
active elder in his Greek organization, and there was every reason to 
believe I should have/could have/would have followed his footsteps.
    What makes me unusual is that I fit all the standard stereotypes 
for being the opposite of who I am today. I should be a ``binge'' 
drinker. Instead, I'm the founder and CEO of an organization, Outside 
The Classroom, that has educated over 100,000 college students about 
alcohol through an online course called AlcoholEdu. I am a young person 
who has chosen to make a career out of tackling this social epidemic of 
high-risk drinking. And I'm extremely impatient.
    The study by the National Academy of Sciences clearly articulated 
the problem and made some useful recommendations about a solution. But 
unfortunately its assessment of effective prevention programs simply 
regurgitated already outdated studies such as the now 3-year-old NIAAA 
study on college drinking. It did nothing to advance the knowledge of 
and evaluation of successful new programs that are up and running 
today. For example, AlcoholEdu did not yet exist when the NIAAA 
conducted their assessment of effective college prevention programs. In 
just 3 short years later, we've demonstrated success on hundreds of 
campuses.
    The fact of the matter is that there are many programs already up 
and running that are working to reduce dangerous drinking on college 
campuses and in high schools today. These programs need better 
financial support along with more formal evaluation. AlcoholEdu, our 
online prevention program, is only one. Others include environmental 
management campaigns, stricter enforcement of alcohol policies, and 
more encouragement and funding of alcohol-free social alternatives. Our 
partner in delivering AlcoholEdu for High School, Mothers Against Drunk 
Driving, has a suite of prevention programs that are getting dramatic 
results in high schools and communities.
    In fact, the new concept we have pioneered of ``Population-Level 
Prevention,'' where an entire social group goes through a prevention 
program simultaneously, is one of the most important steps forward in 
prevention that we've seen in years. With AlcoholEdu, our research has 
shown that when all the first-year students in a college go through the 
online prevention experience together, overall consumption of alcohol 
declines from rates before the program, rates of abstention increase 
rather than decrease, and, most important, rates of dangerous, high-
risk binge drinking--cause of the most harmful negative consequence of 
alcohol on campus--decline dramatically.
    Such successful programs may be working today, but they need more 
economic support during the worst fiscal crisis colleges and high 
schools have faced in a generation.
    Therefore the policy implications are clear. Congress should pay 
heed to the advice in the NAS report to raise taxes on alcohol. The 
money is needed to fund important prevention programs that are already 
available, and that will work when applied on a population basis. The 
real scandal is that this country is doing virtually nothing to fund 
and support prevention efforts. The statistics speak for themselves. We 
spend 25 times more money on anti-drug campaigns (other than alcohol) 
than we do on anti-drug campaigns related to alcohol. Yet, alcohol is 
by far the most widely used drug with the most death and destruction 
associated with it--far more than all other drugs combined. And it's 
clear the alcohol industry bears much of the responsibility simply by 
virtue of selling and marketing alcohol.
    Therefore it's only right that the Federal Government should tax 
the industry to support public efforts to protect our young people from 
this danger. However, the taxes shouldn't go toward funding programs 
run or in any other way supported by the alcohol industry. Instead, 
Congress should use the money to authorize funding for proven programs 
delivered by nonprofit and for profit providers without any alcohol-
industry affiliations, mimicking the same successful public policy we 
have learned from tobacco industry settlements.
    Specifically, Congress should allocate funds to implement 
recommendations 10-1, 10-2, 10-3 and 10-4 in the NAS report focusing on 
Youth-Oriented Interventions. This funding would support planning for a 
youth-focused media campaign, implementation of evidence-based 
population-level education programs, and support for evaluations of 
evidence-based comprehensive prevention programs in colleges. Congress 
should also allocate funds to implement recommendations 11-1 and 11-2 
in the section of the report focusing on Community Interventions, 
helping community leaders conduct comprehensive prevention programs 
utilizing evidence-based strategies and programs.
    The NAS proposal that a grand public-private partnership be formed 
also is the right idea. With the right public funding to prime the 
pump, we will see an inflow of private capital from across the rest of 
the private-sector spectrum to address the problem. At Outside The 
Classroom, which is a private, for-profit company, we have forged an 
alliance with one of the world's best-known nonprofit organizations, 
Mothers Against Drunk Driving, and are calling on the private sector to 
do their share as well. We are issuing a challenge to the nation's CEOs 
to fund prevention programs for every high school student in the 
country by contributing to a new Youth Alcohol Prevention Partnership 
Fund. The cost of this program--less than $5 per student per school for 
a school-wide Population-Level Prevention Program--gives real meaning 
to the old saying, ``an ounce of prevention is worth a pound of cure.'' 
It is an innovative partnership between a for-profit and a nonprofit 
that is actively engaging the private sector to meet the demand for a 
solution to a problem that, by effectively disabling America's youth, 
is undermining our nation's future productivity and competitiveness.
    The CEOs we've spoken with like the philosophy of our prevention 
partnership, because it attacks the problem at the source--by drawing 
the first line in the battle against underage drinking with the 
individual young people themselves. By educating young people about the 
problems of high-risk drinking, and by engaging them in leadership 
activities to attack the problem, we are inculcating the value of 
personal accountability and responsibility in our citizens and leaders 
of tomorrow which will be absolutely essential to any long-term effort 
to solve the problem. And, because beneficial results from a program 
like AlcoholEdu are so easily measured, it provides the kind of ROI 
measurement that the private sector needs. Finally, it is actually 
solving a problem that will directly affect the private sector's 
competitiveness and profitability in the future.
    The Federal Government should assist with these prevention efforts 
not only by providing direct funding for them, but also by providing 
funding for the evaluation of programs necessary to rapidly discover 
which programs work best, and how, so that they might be propagated 
across the country all the more rapidly.
    As a recent member of the underage population, I understand what 
will motivate young people to change their behavior. I had my first 
alcoholic drink on February 10, 1999, one month before my 22nd 
birthday, and three months before my graduation from college. The fact 
that I didn't drink never hurt my social life in college one bit. I was 
elected a class officer every year, and served as class president my 
junior year. My senior year--because of my efforts to provide an 
alternative lifestyle for campus--I was elected by my peers to serve as 
Duke's Young Trustee--a 3-year position on Duke's Board of Trustees. I 
wouldn't say that my actions were ``popular'' though. At one point 
during my undergraduate career, students were so upset by a non-
alcoholic party I planned following a basketball victory that I had the 
door of my car kicked in along with death threats on my answering 
machine. Most people would have thrown in the towel. I only became more 
convinced that I was on the right track towards social change.
    During my senior year, I founded a national nonprofit organization 
with two of my undergraduate colleagues. Its purpose was to work 
jointly with student leaders and administrators to find creative 
alternatives to social life on campus--that either did not involve 
alcohol or involved it in safe, responsible, legal, and ``de-
emphasized'' ways. We had plenty of successes and plenty of failures. 
One of the biggest failures was in our capabilities as a nonprofit 
organization. We applied for and were denied 16 grants from 16 
different foundations and government entities.
    Although we were able to attract some private donations for our 
efforts, we had zero success at convincing grantors to fund our 
efforts. We were trying to do something innovative and ground-breaking, 
but unfortunately our nation's foundations and government agencies are 
not designed to support such initiative. We didn't have Ph.D.'s, we 
didn't have CVs and successful track records, and we didn't have 
operating history. What we did have was an idea that eventually found 
its way, but only through sheer willpower, true innovation, and an 
appeal to the private sector.
    Since I couldn't find a way to do what I wanted as a nonprofit, I 
decided that I might have a compelling case to start a for-profit 
company. So, I took my innovative idea and went to the only place that 
rewards innovation: private industry and venture capital. I've since 
raised nearly $7 million for Outside The Classroom, Inc. and our 
program AlcoholEdu--a science-based, non-opinionated online course 
about alcohol. In only 3 years, AlcoholEdu is now the single most 
widely used course on the Internet. And because we built-in the 
evaluation and assessment of the course, we now have the world's 
largest evaluative database on college students and alcohol with nearly 
15 million data points from tens of thousands of students from hundreds 
of colleges and universities.
    After 3 years, I am confident that we are on to something extremely 
important. We have been pioneering the concept of ``population-level 
prevention'' whereby AlcoholEdu is mandated or required of all students 
in a population--namely all first-year students. When a college or 
university requires the course of all students, we can demonstrate 
dramatic reductions in high-risk drinking and related behaviors, and 
increases in abstention and the use of protective factors. Highlights 
include:
    <bullet> Abstainers rose from 39.4 percent to 43.4 percent, a 10 
percent increase.
    <bullet> Heavy episodic drinkers dropped from 38.1 percent to 35.0 
percent, an 8 percent decrease Problematic drinkers (who had 10-plus 
drinks at least once during the past two weeks) dropped from 12.1 
percent to 9.9 percent, an 18 percent decrease.
    <bullet> The average number of drinks consumed per week, for 
drinkers, dropped from 9.9 before the course to 8.6 a month after 
AlcoholEdu.
    Population-level prevention is based on the theory that high-risk 
drinking is not an individual or addiction problem; rather it is a 
social epidemic that finds its home within social networks. And just as 
these social networks among young people can drive negative norms 
related to alcohol, they can also be used to drive positive, safe norms 
related to alcohol. In our research, we have found that when 
AlcoholEdu--an interactive, personal education related to alcohol--is 
given to entire population of students, it creates a viral and 
interactive reaction which results in more students talking to one 
another about the experience. Because all students are required to take 
AlcoholEdu and because AlcoholEdu evokes a very personal educational 
experience from each student, the school creates a common bond or 
shared experience among this population. That common bond is exactly 
what drives the dialogue among students, and when students are creating 
their own dialogue about what they've learned, they are essentially 
engineering a new cultural norm around alcohol. A norm that is less 
tolerant of high-risk drinking and negative consequences, and more 
supportive of abstention.
    I don't need to espouse the validity and power of what AlcoholEdu 
is doing. Its results are speaking loud and clear, and at the end of 
the day results will drive what our approach to solving this problem 
will be. I'm confident I'll be a part of the solution and so will 
Outside The Classroom--despite the fact that I'm not a Ph.D., and my 
organization is for-profit. And I also know that finding a solution 
will require many leaders and many organizations collaborating on a 
truly comprehensive approach to addressing the problem.
    Let me be clear: I'm not a prohibitionist. I never have been and 
never will be. But let me also be clear about another point: I think 
alcohol, specifically the abuse of it, is the number one cause 
undermining the future success of America and our competitiveness in 
the world. It is keeping college students from realizing their true 
potential, and it has essentially diminished the value of higher 
education as a process to train the leaders of tomorrow. A vast number 
of college students are literally ``pissing away'' their education. 
And, increasingly, a vast number of our high school and middle school 
students are on the way to squandering their promising futures too.
    I'm willing to help. I'm here to solve the problem. And I'm looking 
for support. All of us in the prevention field are looking for support. 
And we're waiting to see how you're going to respond. Please don't do 
what's expected and disappoint us. The answers to solving this epidemic 
are clear and present. The leadership from government is not. But it 
can be. And I urge you to take action now.

   Prepared Statement of Peter H. Cressy, Ed.D., President/CEO, The 
             Distilled Spirits Council of the United States

    Mr. Chairman and Members of the Subcommittee, on behalf of the 
Distilled Spirits Council of the United States (DISCUS), a national 
trade association representing U.S. producers, marketers, and exporters 
of distilled spirits products, I commend you for initiating the hearing 
on national strategies to reduce underage drinking. As a former 
university president, parent and now CEO of a major beverage alcohol 
trade association, I appreciate the opportunity to discuss this serious 
and complex problem.

Code of Responsible Practices for Beverage Alcohol Advertising and 
                    Marketing

    For decades, DISCUS and its members have been deeply committed to 
social responsibility and have worked aggressively to fight underage 
drinking. Since the 1930's, DISCUS members have adhered to a voluntary 
code of advertising and marketing practices. The overriding principle 
of the Code is to market our products to adults in a responsible and 
appropriate manner.
    A major component of the Code is the Code Review Board (Board). The 
Board serves as an enforcer by quickly responding to complaints from 
both the public and competitors alike. DISCUS is proud to note that 
member companies have fully and readily complied with the decisions 
rendered by the Board. Moreover, non-DISCUS members have been largely 
responsive as well.
    During the hearing, some discussion focused on examples of 
inappropriate alcohol advertising content. Senator Dodd referenced a 
print advertisement by Bacardi tagged ``Vegetarian By Day. Bacardi By 
Night'' that provides an excellent example of the effectiveness of the 
DISCUS Code review process. In 2001, following publication of the ad, a 
competitor within the industry filed a complaint with the Code Review 
Board. The Board subsequently determined the content inconsistent with 
provisions of the Code. Shortly thereafter, Bacardi withdrew the 
advertisement from circulation.
    In 2003, DISCUS adopted major revisions to the Code to underscore a 
commitment to the most responsible advertising and marketing practices 
in the industry, including:
    <bullet> All drinks Code covering over 2,800 brands of spirits, 
beer and wine
    <bullet> 70 percent adult demographic for all ad placements and 
promotional events
    <bullet> Transparency through public reports of complaint decisions
    <bullet> Participation by external advisors
    <bullet> Continuation of ban on advertising in college newspapers
    <bullet> Age verification mechanisms for websites
    <bullet> Explicit restraints regarding sexual content
    <bullet> Minimum of 25 years old for all models/actors in 
advertising
    Virtually all of the available research makes it clear that parents 
and peers have the greatest influence on a minor's decision to drink. 
Similar studies also prove that advertising affects brand choice rather 
than the decision to drink illegally or to abuse beverage alcohol. 
Nonetheless, DISCUS and its members have taken the steps outlined above 
in response to changing technologies and societal concerns. A leading 
public health professional--Dr. Robert Reynolds, Director of Policy 
Analysis and Training at the Pacific Institute for Research and 
Evaluation reinforces this point:
    ``There can be no public confidence in alcohol industry self-
regulation until the results of the complaint process are open to 
public review. DISCUS, by adopting new standards for transparency and 
public reports about complaints, promises sunshine to previously secret 
decisions. As a public health professional, I must applaud the new 
commitment by DISCUS to provide the American people with the 
information necessary to judge their actions, not just their words.''
    DISCUS and its member companies are proud of the Code review 
process and the expeditious and just manner that complaints are 
handled. The Federal Trade Commission, offering a similar assessment in 
a report to Congress last month, found the Code review process 
``rigorous and effective.''

The Century Council

    Since 1990, The Century Council, an independent organization funded 
by America's leading distillers, has spent $130 million on programs 
developed with multiple academic, government and community partners. 
Many of these programs and strategies are similar to those recently 
advocated in the 2003 National Academy of Sciences report.

American Campus and Alcohol Conferences

    In October 2000, DISCUS initiated an effort among universities to 
reduce drinking on college campuses throughout the country. Together 
with Eastern Connecticut State University, The George Washington 
University, University of Massachusetts Dartmouth, University of 
Massachusetts Amherst, and University of Louisville, DISCUS convened a 
3-day working conference where campus and community teams developed 
realistic plans to combat campus drinking. Representatives from 34 
universities, including Connecticut College and Bowling Green State 
University, attended the conference with teams comprised of students, 
faculty, community leaders, local law enforcement, and beverage alcohol 
retailers. At the conclusion of the conference, each team was 
encouraged to apply for grants to implement their plans. As a result, 
roughly $300,000 was distributed in program grants to seventeen 
universities who submitted requests.
    This model program has resulted in a nationwide series of regional 
conferences. We have now completed four and have worked with nearly 200 
colleges and universities. Additional conferences are scheduled at 
Eastern Connecticut State University in November and DePauw University 
in Indiana next February.
    Again, Mr. Chairman, allow me to commend you, your staff and the 
Subcommittee for addressing underage drinking. DISCUS and its members 
are determined and dedicated to ensuring that our products are consumed 
responsibly and in moderation by those of legal drinking age who choose 
to drink. I look forward to further collaborative partnerships that 
make a real impact on this complex and serious issue.

Prepared Statement of George A. Hacker, Director, Center for Science in 
   the Public Interest, CSPI and Kimberly Miller, Manager of Federal 
  Relations Alcohol Policies Project Center for Science in the Public 
                                Interest

                              INTRODUCTION

    Thank you for the opportunity to submit testimony regarding one of 
the most damaging and neglected public health and safety threats facing 
our society. Underage drinking is by far the nation's costliest and 
most neglected youth drug problem, and CSPI commends the Committee for 
focusing much needed attention on this important public health issue. 
Underage The hearing is especially timely given this month's release of 
two major reports to Congress on underage drinking and related issues, 
from the National Academy of Sciences and the Federal Trade Commission, 
respectively.
    For more than 20 years, CSPI's Alcohol Policies Project has worked 
to prevent and reduce alcohol problems at the national, State and local 
levels, collaborating with thousands of organizations and individuals 
to promote a comprehensive, prevention-oriented policy strategy to 
improve public health and safety and help save young lives. During that 
time we have developed the strong conviction that Federal efforts to 
prevent and reduce underage drinking have been sorely underfunded, 
woefully fragmented, fundamentally invisible and largely ineffective. 
Numerous obstacles have thwarted the creation of a comprehensive, 
highly focused, clearly identified, and hard-hitting Federal effort to 
address underage drinking. We hope that the work of this Committee will 
begin to help overcome some of those long-standing barriers.
    First, we would like to review the legislative and policy context 
which gave rise to the National Academy of Sciences' ground breaking 
report, recommending a comprehensive national strategy to reduce 
underage drinking. Second, we will address the longstanding absence of, 
and glaring need for, a stronger, more visible, consistent, and 
effective Federal leadership role in reducing underage drinking and its 
widespread public health and safety harms. Third, we will outline why a 
media and communications campaign to prevent underage drinking needs to 
be the centerpiece of a comprehensive, aggressive national prevention-
oriented public health and safety strategy. Finally, we will highlight 
two other priority areas for Federal action to reduce underage drinking 
in the areas of taxation and advertising.
 legislative and policy context of underage drinking prevention efforts
    CSPI was part of a broad coalition of national and local public 
health and safety organizations that for 2 years supported 
Congressional efforts to include underage drinking prevention messages 
in the Office of National Drug Control Policy's billion-dollar Youth 
Anti Drug Media Campaign (see attached list of organizations). Although 
ultimately unsuccessful, efforts by Representatives Wolf and Roybal-
Allard in the House and by Senator Frank Lautenberg in the Senate 
generated substantial support and hotly contested debate on the issue.
    Despite votes that excluded alcohol from ONDCP's media campaign, 
Congressional debate on the issue strongly affirmed the clear and 
compelling need for a parallel, but comparable national media campaign 
to prevent underage drinking. Numerous members of Congress recognized 
the incongruity of spending hundreds of millions of dollars to prevent 
illicit drug use, while ignoring underage alcohol use, widely 
recognized as the far more devastating, severe, and widespread drug 
problem for young Americans. Congressional debate reflected strong 
support \1\--and recognition of the need--for an underage drinking 
prevention campaign to raise awareness of the problems associated with 
underage drinking and deliver prevention messages to young people, 
parents, community leaders, and public health and safety officials.
---------------------------------------------------------------------------
    \1\ Congressional Record, Volume 145, July 1, 1999 (Senate)] [Page 
S7987-S8010], Floor debate on Lautenberg Amendment No. 1214 to S. 1282 
fiscal year 2000 Treasury Postal Appropriations bill).
---------------------------------------------------------------------------
    In this context, on April 4, 2001, Representatives Lucille Roybal-
Allard (D-CA) and Frank Wolf (R-VA) introduced legislation to establish 
a ``National Media Campaign to Prevent Underage Drinking'' (H.R. 1509). 
Shortly thereafter, Senators Harry Reid (D-NV) and John Warner (R-VA), 
and others, introduced companion legislation in the Senate (S. 866). 
The proposed legislation would create a discrete underage-drinking 
media campaign focused on alcohol and housed in the Department of 
Health and Human Services. These bills are backed by a broad array of 
public health and safety groups, including CSPI, the American Medical 
Association (AMA), Mothers Against Drunk Driving (MADD), Consumer 
Federation of America, Latino Council on Alcohol & Tobacco, the Trauma 
Foundation, and the American Academy of Pediatrics, as well as by the 
Advertising Council and the National Partnership for a Drug-Free 
America. Countless local and statewide groups also support the measure. 
The bipartisan bills have garnered 82 co-sponsors in the House and 18 
in the Senate.
    While the legislation was not enacted in the 107th Congress, report 
language in the fiscal year 2002 Labor, Health and Human Services and 
Education appropriations bill represented an important first step in 
moving the media-campaign issue forward. With support from the National 
Beer Wholesalers Association and the Distilled Spirits Council of the 
United States, appropriations language provided $500,000 for the 
National Academy of Sciences and Institute of Medicine to develop a 
strategy to reduce and prevent underage drinking. Congress charged the 
Academy to produce a comprehensive policy and prevention strategy to 
combat underage drinking and its consequences, with emphasis on the 
role a media campaign could play in such a strategy.

            THE NAS REPORT'S MEDIA CAMPAIGN RECOMMENDATIONS

    Based on a review of available research, the NAS report strongly 
recommends that the Federal Government fund and actively support the 
development of a national media effort targeted at adults, as a major 
component of a campaign to reduce underage drinking. It states that the 
goals of the national media campaign would be to instill a broad 
societal commitment to reduce underage drinking, to increase specific 
actions by adults that are meant to discourage or inhibit underage 
drinking, and to decrease adult conduct that tends to facilitate 
underage drinking.
    The report also calls for intensive research and development for a 
youth-focused national media campaign relating to underage drinking. It 
stipulates that if this work yields promising results, the inclusion of 
a youth-focused campaign in the strategy should be considered.
    These recommendations provide strong backing for a renewed push to 
pass Federal legislation creating a national media campaign to prevent 
underage drinking. This goal has been a top alcohol-policy priority for 
public health, consumer, religious, and substance abuse prevention 
groups for several years, and a media campaign should be a top priority 
for legislative action flowing from the NAS report.

 THE GLARING ABSENCE OF A VISIBLE, COHESIVE FEDERAL VOICE ON UNDERAGE 
                                DRINKING

    For too long, the Federal Government has been far too silent on 
underage drinking and the promise of many policy interventions and 
communications strategies to reduce problems that have devastating 
economic and public health and safety consequences. We believe that the 
longstanding absence of a visible, effective, coordinated Federal voice 
and role in addressing underage drinking and its harms contributes to a 
social norm of acceptance, tolerance, and even accommodation of 
underage drinking.
    Worse yet, this abdication of Federal responsibility on underage 
drinking has left alcohol producers primarily in charge of educating 
young people and the public, both about alcohol use and about how to 
combat underage drinking. Despite wildly self-serving industry 
propaganda, those efforts to address underage drinking have been 
unevaluated and generally ineffective. Although more visible than 
Federal media programs to prevent underage drinking, industry's 
investment in those messages--both financial and creative--pales in 
comparison with what it spends promoting drinking. For example, 
Anheuser-Busch, the world's largest brewer, claims to have spent some 
$350 million since 1982 on public awareness and social responsibility 
messages. That's about what the company spends in just 1 year on 
advertising.
    One way to measure the government's lack of commitment to this 
issue is to look at the resources devoted to preventing alcohol 
problems among young people. A May, 2001 report released by the U.S. 
General Accounting Office (GAO), Underage Drinking: Information on 
Federal Funds Targeted at Prevention, concludes that only $71 million 
of the Federal Government's fiscal year 2000 budget was allocated 
specifically to the prevention of underage drinking. This pitiful 
allocation is dwarfed by the $18 billion our government spends on the 
drug war, the $52 billion in estimated costs of underage drinking, and 
the $2 billion alcohol producers spend per year on alcohol advertising 
and promotion. To make matters worse, these woefully inadequate 
resources are scattered among disparate Federal agencies, and many 
programs have been developed with little coordination among the 
agencies and no unifying vision or strategy.
    Unlike with tobacco, for which the Department of Health and Human 
Services has been designated as the lead agency for the government's 
efforts in the area of smoking and health and chairs a statutorily 
established Inter-Agency Committee on Smoking and Health, there's no 
lead agency for the development or implementation of a strategy on 
underage drinking or combating societal alcohol problems.
    The Surgeon General has issued several widely publicized reports on 
the public health hazards of tobacco, and regularly issues reports on 
the marketing of tobacco products to young people. Despite numerous 
appeals over the years from an array of public health and safety 
groups, the Surgeon General has never held a single workshop or issued 
any report on underage drinking. In fact, the 1988 Surgeon General's 
Workshop on Drunk Driving stands out as the Department's sole high-
visibility forum on alcohol, period.
    Similarly, the Federal Government's efforts to combat the 
devastation of illicit drugs are backed by a well-funded, cohesive, 
publicly articulated, national drug-control strategy. That strategy is 
coordinated by ONDCP, an executive-department agency that reports 
directly to the President. Since the mid-1990s, Congress has 
appropriated billions to that agency, including hundreds of millions of 
dollars for a national youth anti-drug media campaign.
    Nothing remotely resembling such a concerted effort has ever 
existed to address underage drinking, or alcohol abuse. Yet, according 
to DHHS, alcohol is the most costly of all drug problems, imposing 
economic costs of more than $185 billion on the nation each year and 
causing more than 100,000 deaths. According to the Centers for Disease 
Control, alcohol is a key factor in the three leading causes of death 
among young people in America: accidents, homicides, and suicides. 
Unlike tobacco, which kills its users in middle age and later, alcohol 
is a drug that actually kills thousands of young people each year, many 
more than die from the use of all other drugs combined.

THE NEED FOR A MEDIA CAMPAIGN AS THE CENTERPIECE OF FEDERAL EFFORTS TO 
                       PREVENT UNDERAGE DRINKING

    According to the Department of Health and Human Services, 
prevention efforts are beginning to pay off in declining rates of teen 
smoking. However, in part due to the absence of comparable efforts to 
combat underage drinking, alcohol use and binge drinking among teens 
continue at alarmingly high rates. The latest National Household Survey 
data suggest that alcohol use among American youth has even increased. 
Ten million 12- to 20-year-olds reported drinking alcohol in the year 
prior to the survey. Of those, nearly 6.8 million (19 percent) reported 
binge drinking and 2.1 million (6 percent) were heavy drinkers. Among 
the 12- to 17-year-olds, 10.6 percent binge drink and 2.5 percent say 
they're heavy drinkers. In fact, previous month alcohol use among 12- 
to 17-year-olds increased more than 5 percent since 2000; 17.3 percent 
reported alcohol use in the past month.
    As a society, we have invested heavily in massive public awareness 
campaigns designed to deter young people from taking up smoking and 
experimenting with illicit drugs. Those campaigns have provided an 
effective backdrop for a myriad of revolutionary public and private 
reforms that range from the imposition of advertising restrictions on 
cigarettes to the prohibition--even in bars--of indoor tobacco use. 
There is little doubt that they have helped to change the social and 
political conversation about smoking and drugs, and have empowered 
citizens and communities to take effective action on behalf of young 
people and society.
    Recently, it has become increasingly apparent that comprehensive 
communications programs have actually played an important role in 
steering young people away from tobacco use. Evidence from Florida, 
California, and Massachusetts demonstrates that reaching young people 
with the right messages can make a difference. Although perhaps more 
complicated to implement, a similarly effective media campaign to 
prevent and reduce underage drinking is both imperative and achievable.
    Of course, not even the best media campaign would magically 
eradicate underage drinking, any more than ONDCP's campaign has 
eliminated youth drug use. Nor is it realistic to imagine that 
sufficient resources would be available for a media campaign that, 
independently, could compete with more than $2 billion dollars a year 
in aggressive alcohol advertising and promotion, much of which appeals 
directly to underage youth. However, a highly visible media campaign 
that reaches mass--and target--audiences with consistent, powerful, 
credible, and persuasive messages on underage drinking can help in many 
ways. As the centerpiece of an integrated prevention strategy, it 
would:
    <bullet> Provide a clear, consistent Federal voice and message on 
underage drinking that would highlight government interest in, 
leadership for, and commitment to reducing the widespread harms of 
underage drinking.
    <bullet> Focus public attention on underage drinking as a 
significant public health and safety issue and elevate it on the 
public's and policy makers' radar screens. A well-financed, focused, 
appropriately targeted, creative, and provocative media campaign can 
generate discussion and debate, challenge complacency, and prompt State 
and community action for needed policy and practice reforms. Media 
involvement will help motivate and bolster community members working to 
change those community norms that contribute to youth alcohol use.
    <bullet> Communicate highly visible, culturally imbedded media 
messages that (when effectively crafted and delivered) can help shift 
attitudes, shape perceptions, and change the national conversation 
about underage drinking, both among youth and adults. Administered 
effectively, a national media campaign would put to good use the 
enormous creativity and talent of willing participants in the media and 
advertising industries. Those professionals pride themselves on their 
prowess in influencing youths' attitudes and behaviors.
    For too long, the absence of cohesive, well-researched, 
coordinated, and highly promoted prevention messages has allowed 
alcohol producers free reign to poison the airwaves, both with 
seductive product appeals and with ineffective, vague, and self-serving 
``socially responsible'' public relations pitches. Those generally 
untested and unevaluated messages serve more to inoculate alcohol 
marketers from potential legal liability and Congressional and 
regulatory scrutiny than they do as real prevention.
    Despite our reservations about industry's public awareness 
campaigns, we would not expect a national, government-sponsored media 
campaign on underage drinking to supplant those messages. Industry 
efforts would and should continue, given the alcoholic-beverage 
industry's undeniable responsibility to discourage the misuse of its 
products. However, just as we would never delegate the responsibility 
for youth smoking prevention efforts primarily to cigarette companies, 
we should not continue to allow vested interests in the alcoholic-
beverage industry to have the principal voice when it comes to 
communicating with young people and adults about preventing underage 
drinking.
    If the alcoholic-beverage industry is sincere in its commitment to 
prevent underage drinking, it should embrace public efforts to educate 
adults and young people about alcohol. A media campaign on underage 
drinking will not be about prohibition. It would not be about 
stigmatizing drinkers or alcohol producers. It would not, we would 
hope, be about communicating simplistic and self-defeating messages 
that heighten youth rebellion and interest in alcohol. It should be 
about ending our national denial of underage drinking as a major public 
health and safety issue and instilling a broad societal commitment to 
reducing underage drinking. A national media campaign would help 
increase public awareness and understanding of the destructive role of 
alcohol in young people's lives, and it would strengthen community 
resolve and capacity to take effective action to reduce and prevent 
underage drinking and its myriad harms.

OTHER KEY PRIORITIES FOR FEDERAL ACTION ON UNDERAGE DRINKING: TAXES AND 
                              ADVERTISING

    Among the NAS report's many worthy recommendations, those 
concerning taxation and advertising deserve brief mention.
    1. Alcohol Taxes: One of the report's more controversial outcomes 
was a recommendation that Congress and State legislatures raise excise 
taxes to reduce underage consumption and to raise additional revenues 
for prevention programs. The report cites three arguments for higher 
taxes to combat underage drinking. ``First, underage drinking imposes 
particularly high average social costs. . . . Second, raising excise 
tax rates . . . is a strategy that has strong and well-documented 
prevention effects on underage drinking. Third, a designated portion of 
the funds generated by the taxes can be earmarked for preventing and 
reducing underage drinking.''
    At the Federal level, this recommendation sends a clear message to 
lawmakers that--at the very least--lowering Federal excise taxes on 
alcoholic-beverages (in particular, beer--the primary alcoholic drink 
of choice for young people) is a bad idea. Supporters of legislation to 
reduce the Federal excise tax on beer and other alcoholic beverages now 
have a clear choice between protecting young people's health and safety 
or padding the bottom line of a politically-connected industry.
    At the State level, the NAS report's tax recommendations firmly 
support and provide fresh impetus for State's initiatives to raise 
excise taxes on alcoholic-beverages to reduce underage drinking and 
raise revenues for prevention and treatment.
    2. Alcohol Advertising: The NAS report urged the alcohol industry 
to strengthen its current voluntary advertising codes, refrain from 
marketing practices that have substantial appeal to youth, and be more 
careful to place ads to reduce youthful exposure. Even though the NAS 
report acknowledged the lack of direct evidence for a causal link 
between advertising and alcohol consumption, it supported better 
industry self-regulation and recommended that Congress appropriate 
necessary funding for the U.S. Department of Health and Human Services 
(DHHS) to monitor underage exposure to alcohol advertising on a 
continuing basis and to report periodically to Congress and the public. 
It also urged that the DHHS's principle annual survey on youth 
substance use be amended to include the collection of data on underage 
drinkers' product and brand choices.
    Some industry representatives have alleged that the Federal Trade 
Commission's (FTC's) recent report to Congress, ``makes the NAS report 
moot'' on alcohol advertising. Nothing could be further from the truth. 
Although the FTC's report is quick to congratulate the alcoholic-
beverage industry's promised voluntary adoption of a ``70 percent adult 
audience'' placement standard (up from 50 percent), the practical 
effects of this change will be minimal. The revised standard 
essentially mirrors what the industry is already doing. In fact, 
several years ago, when NBC considered running liquor ads using an even 
higher 85 percent adult-audience placement standard, advertising trade 
professionals pointed out that an 85 percent benchmark would be 
virtually meaningless, because nearly every NBC show would qualify 
(given that 72 percent of the U.S. population is 21 or older). In 
short, the shift to a 70 percent threshold is cosmetic, and will afford 
no real reduction in the extent of youth exposure to alcohol 
advertising.
    The FTC's report also conspicuously punts on the critical issue of 
``spillover''--that is the impossibility of designing ads that appeal 
to 21-year-olds without also appealing to younger persons as well. The 
FTC's failure on this point (other than its almost offhand 
acknowledgements that ads reach significant numbers of underage persons 
and appeal to them) reflects an underlying legal conclusion that 
industry's right (given the paucity of evidence that advertising and 
consumption and harm are causally linked) to target legal-age consumers 
trumps society's responsibility to protect children and adolescents.
    We think industry can do better, by eliminating youthful themes, 
concepts, and characters, by imposing stricter placement standards, and 
by more prominently promoting only the moderate use of its products. 
It's worth noting that some stores that sell alcohol exercise extra 
caution, for example, by carding everyone up to the age of thirty. 
Advertisers could do likewise by designing ads that skew ``age-
upwards'' in appeal, rather than ``age-downwards.'' Advertising content 
issues present challenging legal and business questions, but need to be 
addressed more seriously by producers than they have been.
    The FTC's report also fails to respond to Congress' specific 
request to examine the impact of expanded broadcast advertising of the 
new generation of liquor-branded ``alcopops'' (such as Smirnoff Ice, 
Bacardi Silver, and Skyy Blue) on underage persons. The report instead 
fatalistically states that ``there is no information to show the extent 
to which teens drink these beverages,'' and proceeds to base its 
conclusions solely on a review of industry-supplied marketing 
materials. That is simply not good enough.
    ``Alcopop'' producers openly acknowledge that their products are 
specifically aimed at ``entry level'' drinkers, and that the use of 
liquor brand names on these products is aimed at drawing young drinkers 
to the parent brands of hard liquor. The FTC's failure to seriously 
examine the appeal of such products to underage consumers underscores 
the need to implement the NAS recommendation that the DHHS's principle 
annual survey on youth substance use be amended to include the 
collection of data on underage drinkers' product and brand choices. The 
availability of such data is essential to understanding the actual 
youth impact of new products and the advertising campaigns that promote 
them.
    In sum, on the advertising front, we urge Congress to:
    <bullet> Act on the NAS recommendations to encourage better 
voluntary placement standards;
    <bullet> Require regular Federal monitoring of and reporting on the 
impact of alcohol advertising on underage consumers;
    <bullet> Require the DHHS to amend its annual national survey on 
youth substance use (known as the ``Monitoring the Future'' Survey) to 
include the collection of data on underage drinkers' product and brand 
choices.
    <bullet> Establish a national media campaign on the risks and harms 
of underage drinking to balance the messages parents and young people 
receive from alcohol advertising.
    We thank the Committee for its consideration of our views, and 
would be pleased to assist its efforts in any way we can.

Prepared Statement of General Arthur T. Dean, Major General, U.S. Army, 
   Retired Chairman and CEO Community Anti-Drug Coalitions of America

    Underage drinking is a national epidemic affecting our nation's 
children. Community Anti-Drug Coalitions of America (CADCA) strongly 
supports a major Federal role in the funding and implementation of 
policies, strategies and programs aimed at preventing underage 
drinking. It is essential for every community in the nation to have the 
necessary tools and resources to protect their children from the 
harmful effects of underage drinking. Community coalition efforts that 
involve multiple sectors of a community working together to implement 
comprehensive strategies have proven effective in changing norms and 
reducing underage drinking.
    Underage drinking is a serious, pervasive public health issue that 
must be seriously addressed at the Federal, State and local levels. 
Federal policies and programs need to include an increased focus on the 
importance of collaborative, comprehensive community responses to 
underage drinking. Multiple strategies, that include regulation, 
enforcement, training, community education and media campaigns need to 
be implemented in every State and community in the nation.
    Many of CADCA's coalition members have had major successes 
implementing community-wide strategies that have markedly reduced 
underage drinking. For example in Ohio, the Coalition for a Drug-Free 
Greater Cincinnati has established comprehensive policies, strategies 
and programs to help lower alcohol consumption by youth. Due to those 
efforts alcohol use among 7th to 12th graders decreased by 23 percent 
between 1993 and 2000. In the same region where a coalition did not 
exist, alcohol use remained constant. Community coalitions can and do 
provide the community-wide synergy to decrease the consumption of 
alcohol among youth.
    In Troy, Michigan, the Troy Community Coalition documented the 
impact adult alcohol consumption had on youth behavior. The Coalition 
worked with local businesses to encourage them and their employees to 
be positive role models for their children. They also established a 
campaign, ``Do Your Part to Prevent Alcohol Tragedy'' in which the 
Coalition convinced insurance companies to reduce insurance premiums 
for bars and bar owners that consistently checked ID's, refused to 
provide alcohol to adults who have had too much to drink, and whose 
employees received server training through coalition sponsored 
workshops. Due to these strategies, binge drinking among Troy's high 
school students was reduced by 10 percent between 1999 and 2000. In the 
12 years since the Troy Community Coalition has been in operation the 
percentage of 8th grade students reporting they had consumed an 
alcoholic beverage in their lifetime was reduced by 22.5 percent.
    In Vallejo, California, the Vallejo Fighting Back Coalition is 
working with the local police department to train teens to attempt to 
purchase alcohol at local outlets. These ``teen decoys'' also conduct 
assessments of outlets and encourage operators to create youth ``safe'' 
zones within the stores. The Vallejo Alcohol Policy Coalition has 
implemented environmental strategies to reduce the harm caused by 
alcohol in the community. These strategies include: a teen party 
ordinance, a conditional use permit ordinance, server/seller training 
and review of all new applications to sell alcohol in Vallejo. Finally, 
each family with a middle or high school student is provided with a 
copy of the teen party ordinance and drug and alcohol information, 
along with a request to sign a parent pledge that their children will 
not be permitted to attend or give parties where alcohol is served. Due 
to these in-depth community strategies, Vallejo reduced past month 
alcohol use by 11th graders by 9 percent from 37 percent in 1999 to 28 
percent in 2001; Vallejo's 2001 rate for past month alcohol use by 11th 
graders is 13 percent lower than the comparable statewide rate.
    CADCA knows first hand that the most effective way to achieve 
reductions in underage drinking is through the consistent application 
of comprehensive community-wide strategies that focus on policy and 
environmental changes. CADCA therefore recommends that the Federal 
Government focus more attention and financial resources on effective 
strategies to combat underage drinking such as those outlined in the 
recently released report by the National Academy of Sciences entitled 
Reducing Underage Drinking: A Collective Responsibility.

    Prepared Statement of Juanita D. Duggan, CEO and Executive Vice 
        President, Wine and Spirits Wholesalers of America, Inc.

    Mr. Chairman: Thank you for the opportunity to submit testimony to 
your subcommittee for this important hearing. I represent the Wine and 
Spirits Wholesalers of America, Inc. (WSWA), a national trade 
organization and the voice of the wholesale branch of the wine and 
spirits industry. Founded in 1943, WSWA represents more than 400 
privately held, family owned and operated companies in 44 States, the 
District of Columbia and Puerto Rico that hold State licenses to act as 
wine and/or spirits wholesalers.
    The purpose of the National Academies of Sciences report and 
today's hearing is to look at how we can increase safeguards to prevent 
underage access to alcohol so that, for example, a 14-year-old girl or 
boy can't easily get beer, wine or liquor. As industry, government, 
parents and others work to strengthen these measures, there are those 
who want to weaken and ultimately dismantle the very heart of these 
longstanding safeguards.
    These counterproductive forces include direct shipments of alcohol 
to homes from retailers and producers, as well as a series of court 
cases specifically intended to undermine local control of alcohol. If 
they succeed, the system of checks and balances we now have in place to 
guard against underage access--like a basic face-to-face transaction--
will go away. Left in the wake of this vital system will be a 
freewheeling alcohol trade that will thrive in anonymous, faceless 
alcohol purchases which cannot be tracked or otherwise monitored.
    When it comes to alcohol, our society recognizes its unique nature 
and need for a unique system to control its distribution. After all, 
the selling of beer, wine and liquor is not the same as selling cars, 
books or CDs.
    Now, I would like to turn to the NAS report itself. David Rehr, 
President of the National Beer Wholesalers Association, Inc. may have 
said it best in an opinion column printed in the September 26, 2003 
Washington Times:
    ``Illegal underage drinking deserves the nation's serious 
attention. It doesn't deserve a non-scientific study focusing on 
unproven methods that fail to identify real solutions. Congress took 
the first step in asking for a credible, scientific, unbiased study to 
attack underage drinking. They stepped up to the plate. Unfortunately, 
the NAS struck out.''
    There is a nugget of gold, however, that can be mined from the NAS 
report. In section two of the report entitled ``The Strategy,'' the NAS 
focuses on the issue of underage access, in particular, Internet Sales 
and Home Delivery. The report states that underage purchase of alcohol 
over the Internet or through home delivery is a method of illegal 
access to alcohol used by 10 percent of underage drinkers. That figure, 
however, is based on data reported in the 2000 Journal of Studies on 
Alcohol, and the report correctly concludes that increasing utilization 
of the Internet may have increased that percentage greatly over the 
last 3 years. Finally, the NAS report goes so far as to suggest that 
the significance of these illegal underage sales is so great that:
    ``. . .an argument can be made for banning Internet and home 
delivery sales altogether in light of the likelihood that these methods 
will be used underage purchasers. . .'' (Page 176)
    The NAS, in an otherwise flawed report, has struck gold in 
highlighting a point of access of alcohol for underage drinkers that is 
statistically significant and growing. Moreover, this point of access 
is one that public policy makers have the power to control. Recently, 
the wholesale tier has taken upon itself the role of safeguarding the 
three-tier system against those who seek to undermine it through direct 
shipment sales of alcohol, such as the ones cited by the NAS. To truly 
understand the dangers presented by an unregulated alcohol distribution 
system, it is helpful to illustrate how underage access to alcohol is 
different in these circumstances.
    First and foremost, sales made via the phone or through the 
Internet, since they are not face-to-face, cannot positively establish 
the age of the purchaser. There is no guarantee that the person 
ordering the alcohol is of age. Most young people between the ages of 
18 and 21 years of age (and many who are even younger) possess credit 
cards allowing them to order online-still others have the use of their 
parents' cards; there is no way for the online supplier to accurately 
verify the age of the person ordering.
    Moreover, there is no way to ensure that a minor does not 
ultimately receive a shipment of alcohol. The suppliers wash their 
hands of the alcohol once it leaves their premises, and there is no 
guarantee that the delivery service will require an I.D. upon 
delivery--or that they will not simply drop the box off at the door 
unattended.
    That is exactly what happened when scores of media outlets 
conducted stings over the past several years to determine the safety of 
direct sales. Those stings showed how easy it was for minors to order 
alcohol online-and how sloppy the carriers were who delivered the 
alcohol, often without checking I.D. or often just leaving the alcohol 
on the front doorstep. Perhaps more telling, a sting by the Michigan 
Attorney General's office ensnared 79 different companies who illegally 
shipped 1,020 bottles of wine, 318 bottles of beer and 20 bottles of 
spirits, many of those sales going to underage buyers.
    At a 2002 forum on the issue of online commerce hosted by the 
Federal Trade Commission, Michigan Assistant Attorney General Irene 
Mead testified that not only were minors caught purchasing beer and 
wine online during stings to bust retailers breaking the law, but they 
also had made the startling discovery that minors were able to purchase 
high-proof grain alcohol as well. She told the frightening story of a 
teen in a rehabilitation facility that actually succeeded in having a 
case of bourbon delivered to the facility--straight to him via the 
Internet. When he finished that case he contacted the Internet site and 
said all the bottles were broken on delivery. A free case was promptly 
shipped to him, again without detection.
    Separately, the owner of the 877 Spirits catalog told an audience 
at a legal conference on alcohol beverage law that minors were 
constantly trying to buy alcohol online through his company. He said 
they were often able to detect minors through their buying methods. 
Meaning, 877 Spirits bills itself as on online gift catalog. Therefore, 
when orders are placed for delivery within the same zip code as the 
purchaser, it indicates a potential concern, since his products would 
be available locally. The catalog often asks the potential purchaser to 
send a fax copy of their I.D. and credit card and though the person 
says it is on the way--the proof never arrives.
    Proponents of direct shipping alcohol beverages discount the 
implications of these enforcement actions and reports, claiming they 
are somehow tainted and the product of wholesaler orchestration. While 
we would like to claim credit for these illuminating stings, 
wholesalers do not control news reporters and certainly do not control 
the Michigan Attorney General's office. But that really isn't the 
point; the fact is that companies do exist that do business with remote 
consumers, and either do not have adequate controls in place, or simply 
do not care if they sell to minors.
    The three-tier, wholesaler supported system for controlled 
distribution of alcohol provides for the quick identification and 
apprehension of a retailer who sells to minors, a safeguard that is 
impossible to implement with respect to direct-shipped sales.
    Keep in mind, the genesis of the wine and spirits wholesaler, a key 
component in the modern system of controlled beverage alcohol 
distribution, can be traced back to the decision by State lawmakers at 
the end of Prohibition to establish the three-tiered system for the 
distribution of beverage alcohol--a decision that was theirs to make as 
a result of the ratification of the 20 Amendment in 1933.
    The 21st Amendment is unambiguous in its enumeration of power to 
the States to regulate the importation and controlled distribution of 
alcohol within its borders. And no Supreme Court decision interpreting 
that amendment over the past 70 years has ever diminished that 
authority. The simple fact is, as noted by respected jurist Frank 
Easterbrook in a compelling 7th Circuit opinion upholding Indiana's 
right to determine and control the channels of distribution, alcohol is 
not cheese and its sale and distribution should be treated specially.
    Principal among the reasons that the three-tiered system was 
established was consumer protection; it was determined that there 
should be an intermediary separating the supply and retail tiers to 
ensure that large suppliers with market power did not dominate 
individual retailers by establishing ``tied-houses.'' These pre-
prohibition tied-house retailers made their profits not by-the-glass, 
or by-the-bottle, but rather through winning incentives for moving 
large quantities of alcohol. In other words, the imposition of a 
mandatory wholesale tier served to end many unhealthy and unsafe 
practices that prevailed prior to Prohibition.
    The wholesale tier functions as a partner with State regulatory 
systems that are designed to promote the core 21st Amendment concerns--
ensuring orderly market conditions, promoting temperance, including 
keeping alcohol out of the hands of minors and collecting tax revenue. 
By requiring that every drop of alcohol passes through the three-tiered 
system, States are assured that every bottle of alcohol is properly 
labeled, taxed and sold only to adults.
    In order to understand how the three-tiered system operates as a 
partner with the State and Federal regulatory communities and serves 
the interests of consumer protection, I would ask you to follow a 
bottle as it flows through the three-tiered system.
    A supplier must obtain approval for the label from the Alcohol and 
Tobacco Tax and Trade Bureau (TTB) to ensure that it contains truthful 
and non-misleading information and that it contains mandatory health 
warnings. That bottle must then be sold to a State and federally 
licensed wholesaler who is responsible for maintaining and filing 
detailed records of each bottle brought into the State, pays the excise 
taxes due on the alcohol, and delivers the alcohol to a State licensed 
retail establishment. The retailer is responsible for paying over to 
the State the sales taxes generated by each sale, and is directly 
responsible for ensuring that alcohol does not fall into the hands of 
minors or other prohibited individuals. Since both the wholesaler and 
the retailer must be licensed by the State, they are fully accountable 
for any dereliction of their duties. They are subject to on-site 
inspections, auditing and compliance checks, and any violation can 
result in a loss of license, fines and other potentially more severe 
penalties.
    Wholesalers believe that the three-tier system is our nation's 
premier safeguard against underage access to alcohol. As an industry, 
we are not only committed to this system, but also to its philosophy. 
We work diligently to uphold the letter and spirit of the stringent 
laws of each State in which we do business.
    Congress has recently recognized the need for legislative action to 
support the safeguards and accountability mechanisms of the three-tier 
system. Mr. Chairman, you, along with Senators Hatch and Kohl authored 
the landmark Federal legislation that made it more feasible to 
prosecute an illegal direct shipper. ``The 21st Amendment Enforcement 
Act,'' passed by the 106th Congress and signed into law in 2000, 
provides State Attorneys General with a powerful means by which to 
protect their citizens and prosecute illegal direct shippers.
    However, the contributions of the wholesalers to the communities in 
which they live and work go far beyond protecting the three-tier system 
of alcohol distribution. Our commitment as good corporate citizens is 
also unwavering.
    Last year, WSWA conducted the first-ever survey of our members' 
broader contributions to their communities. We found that our members 
donate more than $55 million a year to charitable causes throughout 
this country. They include:
    United Way, Boys and Girls Clubs of America, YMCA/YWCA, The Sober 
Ride Project, D.A.R.E. (Drug Abuse Resistance Education), Ronald 
McDonald House, MADD, Make a Wish Foundation, Project Graduation, 
Center for Women and Families, Crusade for Children, Sky Ranch, Big 
Brother Project, Camp Braveheart and many others.
    Our members not only contribute to organizations that confront the 
problems some people face with alcohol abuse and other risky behaviors, 
but to other organizations that contribute to the greater good of us 
all--artistic endeavors, environment enrichments and developmental 
teachings that exemplify responsible behavior. These efforts promote 
social connectedness and help dissuade inappropriate behavior such as 
alcohol abuse and underage consumption. For example, the youth groups I 
listed help disadvantaged kids make the right choices about drugs, 
alcohol and risky behavior in general. You cannot overlook our 
commitment to these organizations.
    Instead, the proponents of direct shipping are posing a growing 
threat to preventing underage alcohol access. Led by a handful of 
powerful retailers and elite wineries, these direct shipping advocates 
want to dismantle the three tier-system of safeguards and instead ship 
directly to consumers--with little or no controls in place. These 
groups are suing in several States and the Supreme Court will likely 
take up the case. The bottom line issue that must be addressed is 
simply this: Should leaders in local communities control how alcohol is 
marketed and sold within their State, or will wineries and large 
international alcohol conglomerates make that decision? We think local 
communities should have more control, not less--and we think most 
Americans would agree.
    In conclusion, Mr. Chairman, we as wholesalers of wine and spirits 
recognize--as did Judge Easterbrook--that our product is not cheese and 
must be treated specially. We recognize alcohol's unique consideration 
in our society and support--even defend--the regulation and control of 
its distribution. We also believe that we are good partners to the 
communities in which we live and work. As such, we are appreciative of 
the opportunity to provide testimony at this hearing and would hope 
that the Chairman will continue to consider Wine and Spirits 
Wholesalers of America a resource as you work to prevent underage 
consumption and access to alcohol.
    Thank you again for this opportunity to provide testimony today for 
this important hearing.

 Prepared Statement of the Governors Highway Safety Association (GHSA)

    The Governors Highway Safety Association (GHSA) is a nonprofit 
association whose members administer Federal highway safety grant 
programs, including those that are aimed at reducing underage drinking 
and driving. Although underage drinking and driving is only one facet 
of the complex underage drinking issue, it is a serious and costly 
problem for the country and a priority for the organization. GHSA has 
received Federal grants from both the National Highway Traffic Safety 
Administration (NHTSA) and the Office of Juvenile Justice and 
Delinquency Prevention (OJJDP) to develop materials and training on 
underage drinking.
    Significant progress has been made in underage drinking and driving 
over the last 20 years, largely due to the 1984 enactment of the 
National Minimum Drinking Age law. Nonetheless, young drivers are still 
being killed in motor vehicle crashes at an unacceptable rate. 
According to NHTSA, 17 percent of all underage drivers in fatal crashes 
were intoxicated and 24 percent of young drivers killed in fatal 
crashes in 2002 were intoxicated. Further, 69 percent of young drinking 
drivers involved in fatal crashes were unrestrained, and 77 percent of 
those drinking and killed in crashes were unrestrained. Clearly there 
is much work to be done to prevent this unnecessary loss of young life.
    GHSA firmly believes that the problem of underage drinking and 
driving must be addressed as part of a comprehensive approach to 
underage drinking. The National Academy of Sciences recently released 
report, ``Preventing and Reducing Underage Drinking,'' advocates such 
an approach, and GHSA strongly supports it. We believe that the NAS 
report is a landmark study that lays out the blueprint for future 
action on underage drinking. Implementation of the report will take a 
concerted, coordinated effort by all levels of government as well as 
considerably more resources from the Federal and State governments and 
the alcohol industry.
    GHSA also supports a number of specific recommendations in the NAS 
report.
    We laud the recommendation that Federal agencies form an 
interagency committee to coordinate their efforts on underage drinking. 
Different Federal agencies approach the problem of underage drinking 
differently, and there is little coordination between them. These 
agencies have working relationships with different State agencies, but 
there is no attempt to develop a comprehensive approach at the State 
level. For example, State highway safety agencies are eligible to use 
their NHTSA impaired driving grants for underage drinking programs. 
OJJDP funds State programs aimed at enforcing underage drinking laws. 
Some State highway safety offices are grant recipients, but so are 
State criminal justice and health agencies. The Center for Substance 
Abuse Prevention (CSAP) of the U.S. Department of Health and Human 
Services (HHS) directs funds to State substance abuse agencies for 
underage drinking prevention. The National Institute of Alcohol Abuse 
and Alcoholism conducts research on underage drinking but disseminates 
the results largely to the prevention and health communities. The 
Center for Injury Prevention and Research of the Centers for Disease 
Control conducts research on impaired driving and disseminates the 
results to the public health and highway safety communities but not 
necessarily to the law enforcement community. If the Federal Government 
took a leadership role on this issue and developed a coordinated 
approach, then it is more likely that the States would respond in a 
similar manner.
    Further, the NAS report recommends that a national training and 
research center should be established in HHS, presumably to serve the 
constituent Federal and State agencies with a responsibility for 
reducing underage drinking. If there were a single center, then the 
kind of duplicate Federal research and training programs that currently 
exist could be eliminated. Two years ago, GHSA recommended to NHTSA, 
CSAP, OJJDP and the HHS program on Drug Free Schools that they fund a 
joint underage community-based training program and a research effort 
to evaluate the effectiveness of the training. Without direction and 
resources from Congress, however, the suggestion was not followed. A 
national center is needed since training and research are integral 
parts of any underage drinking solution.
    Another recommendation that GHSA strongly supports is the one 
calling for community interventions. The NAS report recommends that 
community leaders assess the underage drinking program in their 
communities and consider effective approaches to reducing underage 
drinking. GHSA was fortunate to receive a grant from NHTSA to develop a 
pilot project on underage drinking prevention. GHSA identified six 
communities and worked with their existing coalitions to assess their 
underage drinking problems and develop strategic plans for addressing 
the problems. Out of the pilot project, eight underage drinking 
guidebooks (on topics similar to those recommended by NAS) and one 
resource book was produced, and a training program was developed. (The 
guidebooks may be accessed on NHTSA's website, www.nhtsa.dot.gov/
injury/alcohol. Click on youth and then on ``Community How to Guides on 
Underage Drinking Prevention.'') The guidebooks have been so popular 
with community organizations that NHTSA is on its third printing of 
them. Unfortunately, however, NHTSA did not have the resources to 
continue the community intervention effort and the pilot project has 
languished.
    We believe that a community-level approach to underage drinking is 
critical and have proven successful in the prevention and criminal 
justice fields. (The Center for Substance Abuse Prevention, for 
example, has developed a Model Communities program which has been 
thoroughly evaluated and found successful.) Once a community has 
recognized the need to address the issue and put the resources and 
institutional infrastructure in place to address it, then there is a 
higher likelihood that underage drinking will be reduced and will 
remain reduced after Federal funding has disappeared. GHSA strongly 
urges this Committee to consider funding community intervention efforts 
such as the one developed by GHSA.
    Restricting access to alcohol is an area with which GHSA members 
are very familiar since they provide the leadership on underage 
drinking legislation and enforcement and on education programs about 
the legislation and enforcement. Therefore, the NAS recommendations on 
access are ones which the Association strongly supports. State highway 
safety offices use Federal highway safety grants to fund sobriety 
checkpoints and saturation patrols (for those States constitutionally 
prohibited from conducting checkpoints), enforcement of zero tolerance 
laws, compliance checks, server training, programs to discourage adults 
from providing minors with alcohol, and educational programs to 
discourage underage purchase of alcohol.
    GHSA members have also been very supportive of graduated licensing 
laws: 38 States now have these very effective laws. The Association has 
encouraged its members to review existing graduated licensing laws and 
strengthen them by restricting the number of underage passengers and by 
enacting nighttime driving curfews. Our proposal for reauthorization of 
the Transportation Equity Act for the 21st Century (TEA-21) would 
provide incentives to States that enhance their graduated licensing 
laws, among other actions.
    GHSA also supports keg registration and dram shop laws, and many 
State highway safety agencies have provided information that has helped 
legislatures enact these laws. In addition, GHSA members have been 
supportive of State efforts to modify existing laws to allow passive 
alcohol testing since research has shown that these low-cost devices 
are very effective in providing a preliminary indication of a drunk 
driver.
    There is one access issue in the NAS report that has not gotten 
much attention: the issue of Internet alcohol sales and home delivery. 
According to the report, surveys show that 10 percent of young people 
report obtaining alcohol through the Internet or home delivery and that 
this percentage is likely to grow. This direct shipment effectively 
puts the delivery person in the role of having to screen for underage 
access, thereby eliminating the State alcohol beverage control systems 
and reducing accountability. The panel indicated that a case can be 
made to ban this type of sale and GHSA believes that this should be 
explored further. We are concerned that, as the Federal Government and 
others work to curtail underage access through current channels, 
another door not be opened through the Internet and home deliveries. 
The issue deserves increased attention by the committee.
    GHSA also supports the NAS recommendations on youth-oriented 
interventions. The Association concurs that only evidence-based youth-
focused education programs should be funded. As noted previously, 
however, not enough is being done at the Federal level to ensure that 
the research results are being disseminated to all agencies--including 
State highway safety agencies--with a responsibility for underage 
drinking prevention.
    GHSA is pleased that NAS has recommended a comprehensive approach 
to college-based interventions--an idea that fits nicely with its 
community-level intervention recommendation and with the GHSA underage 
drinking prevention pilots. The Association concurs that college 
interventions should also be carefully evaluated and a list of 
evidence-based programs published. At the same time, it is important 
not to discard potentially effective programs based on limited research 
findings. College age ``social norming'' is a case in point. Under this 
approach, colleges seek to create a new campus social norm around the 
positive behavior of students who drink moderately or not at all. A 
recent report by the Harvard School of Public Health cast doubt on the 
effectiveness of this approach and urges colleges and universities to 
cease funding such programs. GHSA feels, however, that social norming 
has many potential benefits and that further demonstration programs and 
evaluative research must be conducted.
    One of the most controversial recommendations in the NAS report is 
the one to increase Federal alcohol excise taxes. While GHSA does not 
have explicit policy supporting such an increase, the Association 
strongly opposes any effort to reduce alcohol excise taxes, as has been 
proposed in S. 809 and H.R. 1305. Under these legislative initiatives, 
Federal beer taxes would be rolled back to their 1951 level, 
effectively reducing the taxes by 50 percent. Economic studies have 
shown that the price of alcoholic beverages, particularly beer, is very 
elastic: the lower the price, the higher the demand for the product. 
Conversely, the higher the price, the lower the demand. These studies 
estimate that the 1991 increase in beer taxes saved more than 600 young 
lives in alcohol-related crashes each year. Hence, if beer is the 
alcoholic drink of choice of young persons, and if the price is 
reduced, it is predictable that young persons will drink more beer. 
From GHSA's perspective, this will lead to more underage drinking and 
driving and more needless loss of young lives. GHSA therefore strongly 
believes that lowering the price of alcoholic beverages is very poor 
public policy and should be avoided at all costs.
    Another controversial recommendation focuses on alcohol advertising 
and urges that alcohol companies refrain from marketing practices that 
have a substantial underage appeal. The report also recommends that 
alcohol trade associations strengthen their voluntary advertising codes 
so that commercial messages are not placed in venues that have a 
substantial underage appeal. GHSA strongly concurs with both 
recommendations.
    The Association was very disappointed with the recent Federal Trade 
Commission's (FTC) report which concluded that the alcohol industry is 
complying with a previous FTC order that limited advertising to media 
with at least a 50 percent adult audience. While we applaud the actions 
of
    the Beer Institute and the Distilled Spirits Council of the United 
States to immediately raise the voluntary standard to 70 percent, GHSA 
believes that even that standard is too low. GHSA was particularly 
disappointed that the FTC did not use the Congressional-mandated review 
of industry advertising practices as an opportunity to convene the 
alcohol industry, safety groups, and prevention organizations to hammer 
out revised advertising standards that could be acceptable to all 
parties. We believe that the solution to the alcohol advertising 
problem must be a joint effort between the industry as well as agencies 
and organizations that are responsible for halting underage drinking.
    This concludes the statement of the Governors Highway Safety 
Association. Thank you for the opportunity to submit our views on such 
an important issue and one that is of high priority to the Association 
and Congress.

 Prepared Statement of Ralph Hingson, Sc.D., Professor, Associate Dean 
        for Research, Boston University School of Public Health

    My name is Dr. Ralph Hingson. Last year I was asked by the 
Committee on Developing a Strategy to Reduce and Prevent Underage 
Drinking of the National Academy of Sciences to write a background 
paper ``Social and Health Consequences of Underage Drinking'' for their 
report released September 10, 2003 Reducing Underage Drinking: A 
Collective Responsibility. They also asked me to present at their 
committee hearings the Report of the National Institute on Alcohol 
Abuse and Alcoholism (NIAAA) ``A Call to Action: Changing the Culture 
of Drinking at U.S. Colleges''. This report to which I contributed 
(Hingson et al. 2002; Hingson and Howland 2002) was prepared by a task 
force of college presidents, researchers, and students convened by 
NIAAA to:
    1) review the magnitude and dimensions of college student drinking 
problems in the United States; and
    2) explore what prevention and treatment strategies have been 
tested and found in scientific research to reduce those problems.
    I would like to review findings on 1) the magnitude and 
consequences of underage drinking, and 2) strategies established 
through scientific research to reduce those problems.

            MAGNITUDE AND CONSEQUENCES OF UNDERAGE DRINKING

    To assess the magnitude and consequences of underage drinking in 
the United States, we examined data from:
    <bullet> The Fatality Analysis Reporting System (FARS) for the year 
2002 of the National Highway Traffic Safety Administration (NHTSA).
    <bullet> Injury mortality statistics from the U.S. Centers for 
Disease Control and Prevention (2003).
    <bullet> U.S. Census population statistics.
    <bullet> Smith, et al. Fatal non-traffic injuries involving 
alcohol: A meta-analysis. Annals of Emergency Medicine, 1999, a review 
of 331 published medical examiner studies from 1975 to 1995 in the 
United States.
    <bullet> The 2002 National Household Survey on Drug Use and Health 
conducted in person with over 68,000 randomly selected persons age 12 
and older by the Substance Abuse and Mental Health Services 
Administration (2003).
    <bullet> The 2001 Youth Risk Behavior Survey, a self-administered 
in school study of a random sample of 13,600 U.S. high school students 
with an 83 percent response rate conducted by the U.S. Centers for 
Disease Control and Prevention (Grunbaum et al. 2002).
    <bullet> The 1999 National Survey of Drinking and Driving conducted 
for NHTSA in 1999, with 5,733 respondents of age 16 and older (Royal 
2000).
    <bullet> The 1992 National Longitudinal alcohol Epidemiologic 
Survey conducted with over 40,000 adults 18 and older in 1992 by the 
U.S. Census Bureau for the National Institute of Alcohol Abuse and 
Alcoholism.

                              KEY FINDINGS

    1) The average age that American youth begin drinking has declined 
from 17.6 in 1965 to 15.9 in 1999. Among persons 12-20 years old in 
1990, 2.2 million or 11 percent started drinking before the age 18. By 
2000 that number nearly doubled to 4.1 million, 17 percent of the 12-20 
age group (2002 National Household Survey on Drug Use and Health, U.S. 
Census Bureau).
    2) Among U.S. high school students, 29 percent (over 4.3 million) 
started drinking alcoholic beverages before age 13 (2001 Youth Risk 
Behavior Survey).
    3) Among high school students nationwide, those who begin drinking 
at younger ages are much more likely than those who wait until they are 
older to drink heavily and drink heavily more frequently. Those who 
start to drink at age 10 or younger are 11 times more likely than those 
who wait until they are 17 or older to have consumed 5 or more drinks 
on at least 6 occasions in the past month, 22 percent vs. 2 percent 
(2001 Youth Risk Behavior Survey).
    4) Those high school students who drink 5+ drinks at least 6 times 
per month, nearly one million students, compared to those who don't 
drink are much more likely in a given month to engage in behavior that 
places them and others at risk for injury, death, or illness. Those 
frequent heavy drinkers are:
    --more likely to drive after drinking, 41 percent vs. 0 percent.
    --5 times more likely to ride with a drinking driver, 80 percent 
vs. 14 percent.
    --5 times more likely to never wear a seatbelt, 15 percent vs. 3 
percent. (Thus they are more likely to be in traffic crashes and if in 
a crash, seriously injured or killed).
    --4 times more likely to carry a weapon, 44 percent vs. 10 percent.
    --7 times more likely to carry a gun, 22 percent vs. 3 percent.
    --6 times more likely to be injured in a fight, 13 percent vs. 2 
percent.
    --9 times more likely to be injured in a suicide attempt, 9 percent 
vs. 1 percent.
    --27 times more likely to have used marijuana, 27 percent vs. 1 
percent. much more likely to use cocaine 26 percent vs. 0 percent.
    --13 times more likely to have injected drugs, 13 percent vs. <1 
percent.
    --8 times more likely to have had sex with 6 or more partners, 31 
percent vs. 4 percent.
    --less likely to use condoms during their last sexual intercourse, 
54 percent vs. 63 percent. In the U.S. 138,000 persons ages 13-29 have 
been diagnosed with HIV/AIDS (U.S. Department of Health and Human 
Service 2000).
    --nearly 4 times more likely to have been or gotten someone else 
pregnant, 19 percent vs. 5 percent. Annually there are over 900,000 
unplanned teenage pregnancies (Henshaw 1998).
    5) High school students who drink 5+ drinks on at least six 
occasions per month, were 3 times more likely to report that their 
grades at school in the past year were mostly D's and F's, 15 percent 
vs. 5 percent. While their risky violent behaviors, illicit drug use 
and sexual behavior may also contribute to their poor academic 
performance, new research indicates that the teenage brain is 
developing throughout adolescence and is disproportionately vulnerable 
during adolescence to adverse effects of alcohol on memory, planning, 
and spatial relations. Magnetic resonance imaging studies have shown 
decrements in frontal lobe activity associated with heavy adolescent 
alcohol consumption (Brown, Tapert, Granholm, and Delis 2000; Tapert, 
Brown, Meloy et al. 2001).
    6) These newly identified effects of alcohol on the brain may help 
explain why alcohol impairs the driving ability of people under 21 more 
than it does for adults. A review of over 100 experimental scientific 
articles on alcohol and driving skills published from 1981-1997 
(Moskowitz and Fiorentino 2000) revealed that alcohol impairs some 
driving skills beginning with any significant departure from zero blood 
alcohol content (BAC). The majority of experimental studies examined 
reported significant impairment at BACs of 0.05 percent and all drivers 
can be expected to experience impairment in some critical driving 
skills by a BAC 0.08 percent or less.
    Research comparing drivers in single vehicle fatal crashes to those 
stopped in national roadside surveys on similar roadways at the same 
time of day and day of the week who were not in crashes reveal each 
0.02 percent increase in blood alcohol level nearly doubles the single 
vehicle fatal crash risk (Zador et al. 1991). The most recent national 
crash and survey analysis reveals that at BACs of 0.08 percent-0.099 
percent compared to zero BAC in all age and gender groups, there is at 
least an 11-fold increase in single vehicle fatal crash risk, but for 
males 16-20 there is a 52-fold increased risk relative to same age 
sober drivers.Compounding their heightened single vehicle fatal crash 
risk at each blood alcohol level relative to older drivers, when they 
drive after drinking, drivers under 21 have higher blood alcohol 
levels, on average BAC of 0.10 percent, 3 times the average level 
consumed by adults who drive after drinking. Young drinking drivers are 
also more likely to have passengers in the vehicle than adult drunk 
drivers (Royal 2000).
    In 2002 nationwide over 2,200 people died in crashes involving 
drinking drivers under the age of 21. Half of the people who died in 
those crashes were persons other than the underage drinking driver. 
Over half were under the age of 21 while nearly 500 were over age 21 
(Fatality Analysis Reporting System 2002).
    7) Based on medical examiner studies of alcohol involvement in non-
traffic injury deaths among persons under 21, there may be another 2000 
non-traffic alcohol-related injury deaths annually caused by falls, 
drownings, burns, overdoses, as well as, nearly 2000 alcohol-related 
intentional injury deaths, homicides and suicides (CDC 2003; Smith 
1999; Levy, Miller, Lox 1999).

                              IMPLICATIONS

    There is a strong need to increase education and enforcement of 
laws that exist in every State making it illegal to sell alcohol to 
persons under 21 and for persons under 21 to drive after any drinking. 
There is also a clear need to improve our measurement of underage 
drinking and related problems.
    <bullet> We need to collect information in our national surveys on 
harms underage drinkers cause to others just as we have collected 
information on harms drinking college students cause other college 
students (600,000 assaults caused by drinking college students annually 
and 70,000-80,000 sexual assaults/date rapes perpetrated by drinking 
college students) (Hingson et al. 2002).
    <bullet> We need to conduct national surveys about alcohol 
consumption and related health risks with respondents at younger ages 
starting at early as 9 or 10 to more accurately understand when 
drinking begins, what contributes to early alcohol use and to 
prospectively examine associated immediate and long-term consequences.
    <bullet> Every unintentional death should be tested for alcohol 
just as most fatally injured drivers in fatal crashes are tested for 
alcohol. The alcohol testing of fatally injured drivers has provided a 
valuable yardstick against which to measure the impact of laws to 
reduce drinking and driving. States passing laws can be compared to 
States that do not pass these laws to see if there are post-law 
reductions in alcohol-related deaths. Knowledge gained from studies 
like this have productively guided our efforts to address this problem. 
We need a similar yardstick to better assess the impact of 
interventions to reduce alcohol-related falls, drownings, burns, 
overdoses, homicides and suicides.

                STRATEGIES TO PREVENT UNDERAGE DRINKING

    Fortunately there are strategies scientifically tested and 
demonstrated through rigorous studies to reduce underage drinking and 
related problems. These include:
    <bullet> Individually-oriented strategies
    <bullet> Environmental strategies
    <bullet> Comprehensive community intervention

Individually-Oriented Strategies
    Strategies to change knowledge, attitudes, beliefs and behaviors of 
person whose drinking places themselves and others at risk have been 
shown to reduce drinking and related problems. Particularly effective 
have been brief counseling behavior modification strategies in Trauma 
Centers and Emergency Departments. Gentilello et al. (1999) screened 
all patients treated at the Harborview Trauma Center in Seattle, 
Washington. Forty-six percent had been injured under the influence of 
alcohol. Similar proportions have been found at other Trauma Centers 
(Rivara 2000).
    Half of those injured under the influence were randomly allocated 
to receive a 30-minute brief intervention during which time they were 
advised: 1) how their drinking compared to people of the same age and 
gender nationwide; 2) what their increased risk of subsequent injury or 
illness was if they continued to drink at levels recorded at intake 
into the study; 3) where they could obtain counseling and other 
assistance in reducing their drinking. One year later, those in the 
intervention group were averaging 3 drinks less per day and over a 3 
year follow-up period those in the intervention group relative to the 
control group experienced 23 percent fewer drunk driving arrests, a 47 
percent reduction in emergency department admissions for injury and a 
48 percent reduction in hospital in-patient injury admissions. Most of 
the reductions occurred among patients who did not meet diagnostic 
criteria for alcohol dependence.
    A similar experimental study was completed in a Pediatric Emergency 
Department by Monti et al. (1999) at Providence Hospital. In both, the 
brief counseling intervention and standard care group drinking declined 
6 months after intake into the study, but the brief intervention group 
reported one-quarter the number of drinking driving incidents, one-
seventh the number of traffic violations, and one-quarter the number of 
alcohol-related injuries. A key to the remarkable success of both 
studies was that the patients were queried and counseled about their 
drinking at a teachable moment when they had just been so severely 
injured under the influence of alcohol that they needed to be treated 
in an emergency department or given life support in a trauma center.
    Larimer (2002) has recently reviewed a similar series of 
experimental studies that screened college students for drinking 
problems and reported significant reductions in drinking and alcohol-
related problems among those offered brief interventions. Fleming 
(1999) similarly reviewed over 30 experimental studies of brief 
interventions in primary care and hospital settings that also indicated 
brief interventions were followed by reductions in drinking and 
alcohol-related problems.
    Thus, while there are clearly numerous, rigorous experimental 
evaluations that indicate brief interventions and counseling can help 
persons with risky drinking behaviors, a limitation is that most 
adolescents do not believe they have drinking problems, do not attend 
screening programs, are not queried about their drinking by their 
physicians and health care providers and are not receiving the sort of 
brief intervention counseling demonstrated to reduce alcohol problems. 
There is an urgent need to expand screening and brief intervention 
counseling of adolescents with drinking problems.
    However, before this can be accomplished a major policy impediment 
must be addressed. In over 35 States, there are laws that permit 
insurance companies to withhold medical reimbursement for the treatment 
of patients injured under the influence of alcohol (Rivara 2000). These 
laws create a disincentive for physicians and health care providers to 
screen for the underlying factor ``alcohol'' that may be contributing 
to many of the injuries that bring patients to emergency departments 
and trauma centers.

Environmental Intervention
    In addition to individually-oriented intervention, efforts to 
reduce alcohol availability in the environment can reduce underage 
drinking. The most important such intervention has been raising the 
legal drinking age to 21. Over the past two decades alcohol-related 
traffic deaths have declined 56 percent in 16-20 year olds. During the 
same time period, traffic deaths in that age group where alcohol is not 
a factor have increased 42 percent as the numbers of drivers under 21 
has increased as has the distance they travel (Figure 1). In 1984 
Congress passed and President Reagan signed legislation that would 
withhold Federal highway construction funds from States that did not 
raise the legal drinking age to 21. At that time 25 States had a legal 
drinking age of 21. By 1988 all States adopted that law.
    A review by the U.S. Centers for Disease Control and Prevention of 
49 studies published in the scientific literature found that in States 
where drinking ages were lowered in the 1970s on average experienced a 
10 percent increase in alcohol-related crashes in the targeted age 
group of drivers. Conversely, in States where drinking ages were raised 
there was a 16 percent decrease in alcohol-related crashes in the 
target age groups of drivers. The National Highway Traffic Safety 
Administration (NHTSA) estimates that annually 700-1000 traffic deaths 
are prevented by the adoption of the minimum legal drinking age of 21, 
bringing the total number of lives saved by that law to more than 
21,000 by 2002.
    I believe the NHTSA estimate is conservative for two reasons. 
First, it does not take into account other causes of death associated 
with alcohol misuse among young persons--unintentional injuries, falls, 
drownings, burns, overdoses, homicides, suicides, HIV/AIDS infection, 
etc. Second, it does not take into account a new body of scientific 
studies that indicate the younger people are when they start to drink 
the greater their likelihood not only as adolescents but as adults of 
experiencing a myriad of life-threatening alcohol-related problems.
    Analyses of the National Longitudinal Alcohol Epidemiologic Study 
reveals that persons who begin drinking at age 14 or younger are 4-5 
times more likely in their life to experience alcohol dependence (Grant 
1998); 7 times more likely to as adults to drink to intoxication on a 
weekly basis (Hingson et al. 2000); 12 times more likely to be 
unintentionally injured under the influence of alcohol (Hingson et al. 
2000); 7 times more likely to be in motor vehicle crashes because of 
drinking (Hingson et al. 2002); and, 11 times more likely to be in 
physical fights while or after drinking (Hingson et al. 2001) [Figures 
2-6]. The statistically significant relationships between starting to 
drink at a younger age and unintentional injury, motor vehicle crash, 
and involvement in physical fights after drinking persist even after 
analytically controlling for personal history of alcohol dependence, 
frequency of heavy drinking, illicit drug use, smoking, family history 
of alcoholism, race and ethnicity and other respondent characteristics 
associated with early onset of alcohol use (Hingson et al. 2000, 2001, 
2002).
    These findings raise the possibility that delaying drinking onset 
or preventing alcohol use during adolescence may have benefits in 
reducing alcohol-related unintentional and intentional injuries and 
deaths not only during adolescent but also adult years. This 
possibility is of great importance because unintentional injuries are 
the leading cause of death in the United States from ages 1-34 and 
intentional injuries are the second leading cause of death from ages 
10-34 (CDC 2003). In 2000, there were 97,900 unintentional injury 
deaths in the United States (CDC 2003) of which 41,944 were traffic 
crash deaths. In 2000, 17,380 traffic deaths (40 percent) were alcohol-
related (involving a driver or pedestrian who had been drinking). The 
meta-analysis of medical examiner studies conducted by Gordon Smith 
(1999) revealed that 39 percent of non-traffic unintentional injury 
deaths tested positive for alcohol at the time of death. Thirty-one 
percent of traffic crash deaths and 31 percent of other unintentional 
injury deaths involved persons with blood alcohol levels above 0.10 
percent meaning they would have been legally intoxicated. These data on 
blood alcohol concentrations of non-traffic unintentional injury deaths 
indicate there are over 20,000 alcohol-related non-traffic 
unintentional injury deaths annually in the U.S.
    The meta-analysis of medical examiner studies of Smith (1999) 
indicated that 47 percent of homicide victims and 29 percent of suicide 
victims had positive blood alcohol levels. In 2000 there were 16,765 
homicide deaths and 39,350 suicide deaths indicating that at least 
7,800 homicide deaths and 8,500 suicide deaths were alcohol related. 
Thus, all total each year over 50,000 people die in the United States 
from alcohol-related unintentional or intentional injuries. Alcohol is 
a major if not the leading contributor to the top 2 leading causes of 
death among young people in the United States, unintentional and 
intentional injuries.

Price of Alcohol
    The National Academy of Sciences in its Report to Congress in 2003 
reviewed the literature on price of alcohol and alcohol-related 
problems and recommended that Congress and State legislators should 
raise excise taxes to reduce underage alcohol consumption and to raise 
additional revenues for this purpose.
    The research literature on the effects of price on alcohol 
consumption indicates that as price increases, consumption decreases 
(Toomey and Wagenaar 2002). Among moderate drinkers, it has been 
estimated that a 1 percent price increase results in a 1.19 percent 
decrease in consumption (Manning 1995). Younger, heavier drinkers tend 
to be more affected than older, heavier drinkers (Kenkel 1993; Godfrey 
1997; Chaloupka and Wechsler 1996; Sutton and Godfrey 1995). Younger 
drinkers have less discretionary income and that may contribute to 
their heightened sensitivity to alcohol prices.
    Higher alcohol prices have also been found to reduce alcohol-
related problems such as motor vehicle fatalities (Kenkel 1993), 
robberies, rapes, and liver cirrhosis deaths (Cook and Moore 1993; Cook 
and Tauchen 1982; Ruhm 1996).
    If, as recommended by the National Academy Report (2003) revenues 
generated by alcohol tax increases to raise beverage prices are in turn 
earmarked for programs and enforcement of policies known to reduce 
underage drinking that could be further reduce underage drinking 
problems.

Legislation to Reduce Alcohol-Related Traffic Deaths
    A variety of laws have also been found to reduce alcohol-related 
traffic deaths (Voas et al. 2000; Hingson, Heeren, Winter 1994, 1996, 
2000; Hingson and Winter 2003 in press; Shults 2001; Wells-Parker 1995; 
Wagenaar 2001; Zador et al. 1989). These include criminal per se laws, 
enacted in all States, that stipulate that having a blood alcohol level 
above the legal limit is evidence by itself that a person was driving 
while legally intoxicated, a criminal offense; administrative license 
revocation, the law in 40 States that permit police to immediately 
confiscate the license of any driver operating a motor vehicle with a 
blood alcohol level above the legal limit in that State; mandatory 
assessment and alcohol treatment if warranted for persons convicted of 
driving while intoxicated, the law in 32 States; 0.08 percent legal 
blood alcohol limits for drivers age 21 and older, the law in 44 
States; zero tolerance laws making it illegal for driver under age 21 
to drive with any measurement amount of alcohol, the law in all States; 
and primary enforcement safety belt laws, the law in 20 States that 
allow police to stop and give a citation to drivers of vehicles 
containing unbelted or unrestrained motorists. Sobriety checkpoints are 
a particularly effective enforcement strategy to assist in the life-
saving implementation of these laws (Castle et al. 1995; Lacey et al. 
1999; Shults et al. 2001). We need each of these laws in every State 
and they should be coupled with active education and enforcement 
efforts.

Comprehensive Community Interventions
    Implementation of environmental strategies has to occur at the 
community level. The just released National Academy of Sciences report 
(2003) emphasized the importance of community based efforts to reduce 
underage drinking and related problems. The report indicates 
comprehensive initiatives are the most effective and recommends 
community organizing, coalition building and use of mass media. They 
also recommend communities and States undertake regular and 
comprehensive compliance check programs including notification of 
retailers concerning the program and follow-up communication to them 
about the outcome (sale/no sale) for their outlet.
    Research supports these recommendations. Several carefully 
conducted school based and community based initiatives have been found 
in rigorous research evaluations, most sponsored by the National 
Institute on Alcohol Abuse and Alcoholism, to have had particular 
success in reducing drinking and/or related alcohol problems among 
young people (Hingson and Howland 2002). These programs typically 
coordinate efforts of city officials from multiple departments of city 
government, school, health, police, alcohol beverage control, etc. 
which include concerned private citizens and their organizations, as 
well as, parents, students and merchants who sell alcohol. Often, 
multiple intervention strategies are incorporated into the programs 
including school based programs involving students, peer leaders and 
parents, media advocacy, community organizing and mobilization, 
environmental policy change to reduce alcohol availability to youth and 
heightened enforcement of laws regulating sales and distribution of 
alcohol and laws to reduce alcohol-related traffic injuries and deaths.
    The Mid Western Prevention Project attempted to prevent abuse of 
alcohol, tobacco, and illicit drugs, such as cocaine, among adolescents 
age 10-14 in Kansas City, Missouri and later in Indianapolis, Indiana. 
A quasi-experimental design in Kansas City and a randomized 
experimental design in Indianapolis were used to evaluate the program 
(Pentz 1989). In Kansas City, a 10-session youth training program on 
skills for resisting substance use included homework sessions involving 
active interviews and role plays with parents and family members about 
family rules regarding the use of these substances, and successful 
techniques to avoid their use, and counteract media and community 
influences to use these substances. Approximately 80 percent of 
students completed the exercises with parents or adult family members. 
Mass media coverage was also initiated as part of the intervention. 
Topic areas included psycho social consequences of the use of alcohol, 
tobacco, and other drugs, correction of perceptions about the 
prevalence of peer drug use, recognition of adult media and community 
influences on substance use, peer and environmental pressure 
resistance, assertiveness in practicing pressure resistance, problem 
solving for difficult situations that involve potential substance use, 
and statements of public commitments to avoid alcohol, tobacco and 
other drug use. Modeling and role playing of resistance skills, 
feedback with peer reinforcement, peer leader facilitation and 
discussion of homework results were part of the program.
    Forty-two schools participated in the study. When students in the 
24 intervention schools were compared at 1 year follow up to students 
in 18 delayed intervention schools, prevalence of use of alcohol, 
cigarettes and marijuana was lower in the intervention schools 11 
percent vs. 16 percent for alcohol use, 17 percent vs. 24 percent for 
cigarette use and 7 percent vs. 16 percent for marijuana use.
    Project investigators (Chou et al. 1998) also tracked 1904 students 
exposed to the program in Indianapolis. They were compared with a 
sample of 1508 in the control group. Schools were randomly assigned to 
groups, and students were followed at 6 months, 1.5 years, 2.5 years 
and 3.5 years after baseline. After analytically controlling for 
ethnicity, gender, socioeconomic status, father's occupation, school 
type and grade, the researchers found that among subjects using 
alcohol, tobacco or other drugs at baseline, secondary prevention 
effects reducing alcohol use were found at the 6 month and 1.5 year 
follow up, and for tobacco at 6 month follow up. The authors concluded 
the social influence based primary prevention program produced benefits 
not only among students who are non-users at baseline but also among 
those using substances at baseline.
    Project Northland in Minnesota (Perry et al. 1996) was designed to 
reduce alcohol use among young adolescents. Sixth, seventh and eighth 
graders were exposed to 3 years of a behavior curriculum, that educated 
them to communicate with their parents about alcohol, deal with peer 
influence and normative expectations about alcohol, and understand 
methods that bring about community level of change in alcohol-related 
programs and policies. Students learned skills to resist alcohol use 
and skills for bringing about social, political and institutional 
change. A ``Town Meeting'' was conducted by students making 
recommendations for community action for alcohol use prevention.
    Community task forces included a cross section of community 
government officials, law enforcement personnel, school 
representatives, health professionals, youth workers, parents, 
concerned citizens, and adolescents. Community task forces stimulated 
passage of several local alcohol-related ordinances to prevent sales to 
minors and intoxicated patrons. Businesses provided discounts to 
students who pledged to be alcohol and drug free. A theater production 
was also undertaken.
    A higher percentage of students in the intervention group were 
alcohol users at baseline prompting stratified follow up analyses of 
users and non-users at baseline. At follow up, the percentages that 
used alcohol in the past week and past month were significantly lower 
in the intervention group. No significant follow up differences between 
groups were found on measures of cigarette smoking or marijuana use.
    DARE and DARE Plus. DARE Plus took the traditional DARE program 
involving police education with 7th and 8th grade students about 
alcohol and drugs and enhanced it with a peer-led parental involvement 
classroom program, youth-led extracurricular activities, community 
adult action teams and postcard mailings to parents. Evaluation of this 
program randomly allocated 24 middle and junior high schools to receive 
DARE Plus, DARE or a control intervention. Over 6,200 students were 
enrolled and 84 percent were followed for 2 years.
    In schools receiving DARE Plus relative to control schools, boys 
showed less increase in alcohol use, other drug use and tobacco use. 
Girls showed less increase in drunkenness when DARE Plus and DARE 
schools were compared. No significant differences between students' 
behavior in DARE schools and controls schools were observed over time 
(Perry C., Komro K., Veblen-Mortenson S., et al. 2003).
    In Communities Mobilizing for Change (Wagenaar 2000), 15 
communities were randomly allocated to intervention or comparison 
groups. The intervention used a community organizing approach to reduce 
the accessibility of alcoholic beverages to youth under the legal 
drinking age.
    The intervention communities sought to reduce the number of alcohol 
outlets selling to young people, availability of alcohol to youth from 
non-commercial sources such as parents, siblings, older peers, and 
community tolerance of adults providing alcohol to underage youth. 
Action was encouraged through city councils, school and enforcement 
agencies, as well as private institutions such as alcohol merchants, 
business associations, and the media.
    Relative to the comparison communities the intervention communities 
achieved a 17 percent increase in outlets checking the age 
identification of youthful appearing alcohol purchases, a 24 percent 
decline in sales by bars and restaurants to potential underage 
purchasers, a 25 percent decrease in the proportion of 18-20 year olds 
seeking to buy alcohol, a 17 percent decline in the proportion of older 
teens who provided alcohol to younger teens and a 7 percent decrease in 
the percentage of respondents under age 21 who drank in the last 30 
days.
    The Community Trials Program (Holder et al. 2000) was a 5-year 
initiative designed to reduce alcohol involved injuries and death in 3 
experimental communities. The program had 5 mutually reinforcing 
components.
    The first component tried to mobilize the community support for 
public policy interventions by increasing general awareness, knowledge, 
and concern about alcohol-related trauma. Initiatives jointly planned 
by project organizers and local residents were implemented by the 
residents.
    Second, a Responsible Beverage Server component sought to reduce 
sales to intoxicated patrons and increase enforcement of local alcohol 
laws by working with restaurants, bar and hotel associations, beverage 
wholesalers, the Alcohol Beverage Control Commission and local law 
enforcement.
    Third, a DWI component sought to increase the number of DWI arrests 
by a combination of special officer training, deployment of passive 
alcohol sensors, and the use of DUI checkpoints. News coverage 
publicized these activities.
    Fourth, the media brought attention to underage drinking. Sales 
clerks, owners, managers were trained to prevent sales of alcohol to 
minors and enforcement of underage drinking laws increased. Compliance 
check surveys detected sales of alcohol to underage purchasers and 
police gave citations to violators. Fifth, local zoning powers 
regarding alcohol outlet density were used to reduce availability of 
alcohol.
    The percentage of alcohol outlets that sold to underage drinkers 
declined in each intervention community (Grube 1997). Alcohol related 
crash involvement as measured by single vehicle night crashes declined 
10 percent-11 percent more in program than comparison communities. 
Alcohol related trauma visits to Emergency Departments declined 43 
percent (Holder et al., 2000).
    The Massachusetts Saving Lives Program (Hingson et al. 1996) was a 
5-year (1988-1993) comprehensive community intervention designed to 
reduce alcohol impaired driving and related traffic deaths. Six program 
communities were selected to receive financial support for their 
initiatives based on a competitive proposal process (Haverhill, Lowell, 
Marlborough, Medford, Plymouth, and North Hampton). These were compared 
with five matched communities whose applications also satisfied 
selection criteria but were not funded. The rest of the State of 
Massachusetts also served as a comparison. Outcome data was collected 
for the period 5 years before and 5 years after the intervention.
    In each program community, a full time coordinator from the Mayor 
or City Manager's office organized a task force of concerned private 
citizens and organizations and officials representing various city 
departments (e.g. School, health, police, and recreation). Each 
community received approximately $ 1 per inhabitant per year in program 
funds. Half the funds were spent to hire the coordinator and the 
balance for increased police enforcement and other program activities 
and educational materials. Voluntary activity was also encouraged. 
Active task force membership ranged from 20 to more than 100 persons in 
each community. An average of 50 organizations participated in each 
city.
    Most of the initiatives were developed by the communities. The 
program sought to reduce drunk driving as well as behaviors 
disproportionately exhibited by drunk drivers, related risks, such as 
speeding, running red lights, failure to yield to pedestrians in 
crosswalks, and failure to wear safety belts. To reduce drunk driving 
and speeding, communities introduced media campaigns, checkpoints, 
business information programs, speeding and drunk driving awareness 
days, speed watch telephone hotlines, police training, high school per 
led education, Students Against Drunk Driving Chapters, College 
Prevention programs, alcohol free prom nights, beer keg registration, 
and increased liquor outlet surveillance by police to reduce underage 
alcohol purchase. To increase pedestrian safety and safety belt use, 
program communities conducted media campaigns and police check points, 
posted crosswalk signs warning motorist of fines for failure to yield 
to pedestrians, added crosswalk guards, and offered preschool education 
programs and training for hospital and prenatal staff. Coordinators 
engaged in numerous media advocacy activities to explain trends in 
local traffic safety problems and strategies the communities were 
implementing to reduce traffic injury and death. The proportion of 
drivers under age 20 who reported driving after drinking in random 
digit dial telephone surveys, declined from 19 percent during the final 
year of the program to 9 percent in subsequent years. There was little 
change in comparison areas. The proportion of vehicles observed 
speeding through use of radar was cut in half, whereas there was also 
little change in comparison cities. There was a seven percent increase 
in safety belt use, a significantly greater increase than shown in 
comparison area.
    Fatal crashes declined from 178 during the 5 preprogram years to 
120 during the 5-program years. This was a 25 percent greater reduction 
than in the rest of Massachusetts. Fatal crashes involving alcohol 
declined 42 percent and the number of fatally injured drivers with 
positive blood alcohol levels declined 47 percent relative to the rest 
of Massachusetts (90 percent of fatally injured drivers in 
Massachusetts are tested annually for alcohol). Visible injuries per 
100 crashes declined 5 percent more in Saving Lives Cities than the 
rest of the State during the program period. The fatal crash declines 
were greater in program cities particularly among younger drivers age 
15-25. All six-program cities had greater declines in fatal and 
alcohol-related fatal crashes than comparison cities or the rest of the 
State.

                              CONCLUSIONS

    Alcohol is a leading contributor to the leading causes of death for 
persons under 21 and up to age 34 unintentional and intentional injury. 
Each year over 50,000 people nationwide die from alcohol-related 
injuries. The average age that young people begin to drink in the U.S. 
is declining with 29 percent of high school students, 4.3 million 
starting to drink before age 13. Alcohol has a disproportionately 
deleterious effect on the developing brain during adolescence producing 
decrements in memory, planning, and spatial relations. The younger the 
age people begin to drink the greater their likelihood of developing 
alcohol dependence and frequent heavy drinking patterns, and 
experiencing unintentional injuries under the influence of alcohol, 
motor vehicle crashes because of drinking, and physical fights while or 
after drinking. These relationships are found not only during 
adolescence, but carry over into adult life.
    Underage drinking is associated with a variety of health risks not 
only to adolescent drinkers but other adolescents and adults as well. 
Half the people who died in motor vehicle crashes involving drinking 
drivers under 21 are persons other than that underage drinking driver. 
Our government at all levels, Federal, State and local, has an 
obligation to protect its citizens from harms posed to them by underage 
drinking drivers. There is a clear need to expand screening, 
counseling, environmental and comprehensive community efforts to reduce 
underage drinking and onset of drinking at very young ages.
    Fortunately, there is a sizeable research literature that has 
identified individually oriented counseling strategies that can reduce 
problematic drinking as well as environmental approaches such as 
greater enforcement of the age 21 drinking age law, zero tolerance laws 
making it illegal for persons younger than 21 drive after any drinking, 
increased price of alcohol with tax revenues earmarked for prevention 
and treatment programs with proven effectiveness, and heightened 
enforcement of other alcohol service and anti-drinking driving laws. 
The enforcement of these laws is best accomplished at the community 
level and several rigorously evaluated comprehensive community 
intervention studies have demonstrated these efforts can markedly 
reduce drinking and associated alcohol-related injuries and deaths 
among young persons.
    There is an urgent need to adopt interventions along these lines 
proposed in the National Academy of Sciences 2003 report, Reducing 
Underage Drinking: A Collective Responsibility.

                               REFERENCES

    Brown S., Tapert S., Granholm E., and Delis D. Neurocognitive 
function of adolescents: Effects of protracted alcohol use. Alcoholism 
Clinical and Experimental Research, 24 (2): 164-171, 2000.
    Castle S.P., Thompson J.D., Spataro J.A., et al. Early evaluation 
of a statewide sobriety checkpoint program. Paper presented at the 39th 
Annual Conference of the Association for the Advancement of Automotive 
Medicine, Chicago, 1L, pp. 65-78, October 16-18, 1995.
    Centers for Disease Control and Prevention. National Center for 
Injury Prevention and Control Web-based injury statistics query and 
reporting system (WISQARS). http://www.cdc.gov/ncipc/wisqars/, 2003.
    Chaloupka F.J. and Wechsler H. Binge drinking in college: The 
impact of price, availability, and alcohol control policies. 
Contemporary Econ. Policy, 14 (4): 112-124, 1996.
    Chou CP. et al., Effects of a community based prevention program on 
decreasing drug use in high risk adolescents. American J. of Public 
Health 88 (6) 944-948, 1998.
    Cook P.J. and Moore M. Economic perspectives on reducing alcohol-
related violence. In: Martin S.E., ed. Alcohol Interpersonal Violence: 
Fostering Multidisciplinary Perspective. NIAAA Research Monograph No. 
24. NIH Pub No. 93-3496. Rockville, MD, pp. 193-212, 1993.
    Cook P.J. and Tauchen G. The effect of liquor taxes on heavy 
drinking. Bell J. Econ, 13 (2): 379-390, 1982.
    Fleming M.F. and Manwell L.B. Brief intervention in primary care 
settings: a primary treatment method for at-risk, problem, and 
dependent drinkers. Alcohol Research Health, 23: 128-137, 1999.
    Gentilello L., Rivara F., Donovan D., Jurkovich G., Daranciang E., 
Dunn C., Villaveces A., Copass M. and Ries R., Alcohol interventions in 
a trauma center as a means of reducing the risk of injury recurrence. 
Annals of Surgery, 230 (4): 473-483, 1999.
    Godfrey C. Can tax be used to minimize harm? A health economist's 
perspective. In: Plant M., Single E., Stockwell T. (eds.) Alcohol: 
Minimising the harm: What works? London, England: Free Association 
Books, pp. 29-42, 1997.
    Grant B. The impact of family history of alcoholism on the 
relationship between age at onset of alcohol use and DSM III alcohol 
dependence. Alcohol Health and Research World, 22: 144-147, 1998.
    Grube J.W. Preventing sales of alcohol to minors: results from a 
community trial. Addiction, 92 (S2): S251-S260,1997.
    Grunbaum J.A., Kann L., Kinchen S.A., Williams B., Ross J.G., Lowey 
R. and Kolbe L. Youth risk behavior surveillance--United States, 2001. 
J. School Health, 72 (8): 313-328, 2002.
    Henshaw S.K. Unintended pregnancy in the United States 1982-1993. 
Family Planning Perspectives, 30: 24-29, 1998.
    Hingson R. and Winter M. Epidemiology and consequences of drinking 
and driving. Alcohol Research and Health, in press, 2003.
    Hingson R., Heeren T., Levenson S., Jamanka A. and Voas R. Age of 
drinking onset, driving after drinking and involvement in alcohol 
related motor vehicle crashes, Accident Analysis and Prevention, 34: 
85-92, 2002a.
    Hingson R. and Howland J. Comprehensive community interventions to 
promote health: Implications for college-age drinking problems. J. 
Studies on Alcohol, Supplement 14: 226-240, 2002.
    Hingson R., Heeren T., Zakocs R.C., Kopstein A. and Wechsler H. 
Magnitude of alcohol-related mortality and morbidity among U.S. college 
students ages 18-24. J. Studies on Alcohol, 63 (2): 136-144, 2002.
    Hingson R., Heeren T. and Zakocs R., Age of drinking onset and 
involvement in physical fights after drinking. Pediatrics, 108: 872-
877, 2001.
    Hingson R., Heeren T., Jamanka A. and Howland J. Age at drinking 
onset and unintentional injury involvement after drinking JAMA, 284 
(12): 1527-1533, 2000.
    Hingson R., Heeren T., and Winter M. Effects of recent 0.08 percent 
legal blood alcohol limits on fatal crash involvement. Injury 
Prevention, 6: 109-114, 2000.
    Hingson R., Heeren T., and Winter M. Lowering State legal blood 
alcohol limits to 0.08 percent: The effect on fatal motor vehicle 
crashes. American J. Public Health, 86 (9): 1297-1299, 1996.
    Hingson R., McGovern T., Howland J., Hereen T., Winter M. and 
Zakocs R. Reducing alcohol-impaired driving in Massachusetts: The 
Saving Lives Program. American J. of Public Health, 86: 791-797, 1996.
    Hingson R., Heeren T. and Winter M. Lower legal blood alcohol 
limits for young drivers. Public Health Reports 109(6):738-744, 1994.
    Holder H., Gruenwald P., Ponicki W., Treno A., Grube S., Satz R., 
Voas R., Reynolds R., Davis J., Sanchez L., Gaumont G., and Rolper P. 
Effects of community based intervention on high risk driving and 
alcohol-related injuries. JAMA, 284 (18): 2341-2347, 2000.
    Kenkel D.S. Drinking, driving, and deterrence: The effectiveness 
and social costs of alternative policies. J. Law Econ., October: 877-
913, 1993.
    Lacey J.H., Jones R.K. and Smith R.G. Evaluation of Checkpoint 
Tennessee: Tennessee's statewide sobriety checkpoint program. DOT HS 
808-841. U.S. Department of Transportation, National Highway Traffic 
Safety Administration, Washington, DC, 1999.
    Larimer M.E. and Cronce J.M. Identification, prevention and 
treatment: A Review of individual-focused strategies to reduce 
problematic alcohol consumption by college students. J. Studies on 
Alcohol, Supplement 14: 148-163, 2002.
    Levy D., Miller T. and Lox K. Costs of underage drinking. U.S. 
Department of Justice, Office of Justice Programs, Office of Juvenile 
Justice and Delinquency Prevention, Washington, DC, 1999.
    Manning W.G., Blumberg L. and Moulton L.H. The demand for alcohol: 
The differential response to price. J. Health Econ., 14 (2): 123-148, 
1995.
    Monti P., Colby S., Barnett P., Spirito A., Rosenhow D., Myers M., 
Wooland R. and Lewander W. Brief intervention for harm reduction with 
alcohol positive older adolescents in a hospital emergency department. 
J. of Consulting and Clinical Psychology, 67 (6): 989-994, 1999.
    Moskowitz H. and Fiorentino D. A review of the literature on the 
effects of low doses of alcohol on driving related skills, DOT HS 809-
028. U.S. Department of Transportation, National Highway Traffic Safety 
Administration, Springfield, VA, 2000.
    National Academy of Sciences. Reducing underage drinking: A 
collective responsibility. Committee on Developing a Strategy to Reduce 
and Prevent Underage Drinking. Institute of Medicine, National Research 
Council, National Academies Press, Washington, DC, 2003.
    National Center for Injury Prevention and Control. Division of 
Unintentional Injury Prevention Annual Report 2000. Centers for Disease 
Control and Prevention, National Center for Injury Prevention and 
Control, Atlanta, GA, 2003.
    National Highway Traffic Safety Administration. Traffic Safety 
Facts 2002: Overview. DOT HS 809-612. U.S. Department of 
Transportation, Washington, DC, 2003.
    National Institute on Alcohol Abuse and Alcoholism. A Call to 
Action: Changing the culture of drinking at U.S. colleges. NIH 
Publication No. 02-5010, p. 19, April 2002.
    National Institute on Alcohol Abuse and Alcoholism. Drinking in the 
United States: main findings from the 1992 National Longitudinal 
Alcohol Epidemiologic Survey (NLAES) NIH Publication No. 99-3519, 1998.
    Pentz M., Dwyer J., MacKinnon D., Flay B., Hensen W. and Wang E., 
Johnson A., A multi community trial for primary prevention of 
adolescent drug abuse. JAMA, 261(22): 3259-3265, 1989.
    Perry C.L., Komro K.A., Veblen-Mortenson S., Bosner L., 
Farbrakhsler K., Munsen K., Stigler M. and Lytte L. A randomized 
controlled trial of middle and junior high school DARE and DARE Plus 
programs. Archives of Pediatrics and Adolescent Medicine, 157 (2): 178-
184, 2003.
    Perry C.L., Williams C.L., Veblen-Mortenson S., Toomey T.L., Komro 
K.A., et al.. Project Northland: Outcomes of a community-wide alcohol 
use prevention program during early adolescence. American J. of Public 
Health, 86: 956-65, 1996.
    Rivara F., Tollefson S., Tesh E. and Gentilello L. Screening trauma 
patients for alcohol problems: Are insurance companies barriers? J. of 
Trauma Injury Infection and Critical Care, 48 (1): 115-118, 2000.
    Royal D. 1999 National Surveys of Drinking and Driving Attitudes 
and Behaviors. Volume One: Findings; Volume Two: Methods. U.S. 
Department of Transportation, National Highway Traffic Safety 
Administration, Washington, DC, 2000.
    Ruhm C.J. Alcohol policies and highway vehicle fatalities. J. 
Health Econ, 15 (4): 435-454, 1996.
    Shults R., Ekder R., Sleet D., et al. Reviews of evidence regarding 
interventions to reduce alcohol-impaired driving. American J. 
Preventive Medicine, 21 (S4): 66-68, 2001.
    Smith G., Branngs C. and Miller T. Fatal non-traffic injuries 
involving alcohol: a meta-analysis. Annals of Emergency Medicine, 33: 
699-702, 1999.
    Substance Abuse and Mental Health Services Administration. Results 
from the 2002 national survey on drug use and health: National 
findings. Office of Applied Statistics, NHSDA Series H-22, DHHS Pub. 
No. SMA 03-3836, Rockville, MD, 2003.
    Sutton M. and Godfrey C. A grouped data regression approach to 
estimating economic and social influences on individual drinking 
behaviour. Health Econ., 4: 237-247, 1995.69.
    Tapert S.F., Brown G., Meloy M., Dager A., Cheung E. and Brown S. 
MRI measurement of 471rain function in alcohol use disordered 
adolescents. Alcoholism: Clinical and Experimental Research, 25, 80A, 
2001.
    U.S. Department of Health and Human Services. Health United States 
with Adolescent Chart Book. DHHS Pub No. 0012317, Hyattsville, MD, 
2000.
    Voas R.B., Tippets A.S. and Fell J. The relationship of alcohol 
safety laws to drinking drivers in fatal crashes. Accident Analysis 
Prevention, 32: 483-492, 2000.
    Wagenaar A., O'Malley P. and LaFond C. Lowered legal blood alcohol 
limits for young drivers: Effects on drinking drivers and driving after 
drinking behaviors in 30 States. American J. Public Health, 91 (5): 
801-804, 2001.
    Wagenaar A., Murray D., Gehan J., Wolfson M., Forster J., Toomey 
T., Perry C. and Jones-Weber R. Communities mobilizing for change: 
Outcomes from a randomized community trial. J. Studies on Alcohol, 161 
(1): 85-94, 2000.
    Wells-Parker E., Bangert-Drowns R., McMillen R. and Williams M. 
Final results from a meta-analysis of remedial intervention with drink/
drive offenders. Addiction,, 90: 907-926, 1995.
    Zador P.L., Krawchuck S. and Voas R. Alcohol-related relative risk 
of driving fatalities and driver impairment in fatal crashes in 
relation to driver age and gender: An update using 1996 data. J. 
Studies on Alcohol, 61: 387-395, 2000.
    Zador P.L. Alcohol-related relative risk of fatal driver injuries 
in relation to driver age and sex. J. Studies on Alcohol, 52 (4): 302-
310, 1991.
    Zador P., Land A., Fields, et al. Fatal crash involvement and laws 
against alcohol impaired driving. J. Public Health Policy, 10: 467-485, 
1989.
      a note on the effects of lower legal drinking ages in europe
    The National Academy of Sciences report (2003) noted the belief 
held by some people that in Europe, where drinking ages are lower than 
in the U.S., young people learn to drink in a more responsible manner 
and that lowering the legal drinking age would reduce underage 
drinking.
    The National Academy report provided clear evidence that this 
notion has no basis in fact. In 1999 random surveys 15-year-olds in 29 
European nations were asked the same questions about drinking as used 
in the Monitoring the Future national surveys of U.S. 10th grade 
students. In 28 of 29 European nations, a greater percentage of the 
adolescents surveyed drank in the past 30 days than in the U.S. In 21 
of the European nations, a greater proportion of youth surveyed drank 
to intoxication in the past year. Since 1995, the proportions of U.S. 
youth under 21 who report drinking to intoxication has remained 
constant whereas in half the European countries, studies have shown the 
proportion has increased. Lower legal drinking ages do not reduce the 
proportion of underage drinkers; rather they reduce the age of 
initiation of alcohol use.
    We as a Nation should examine why most European nations have lower 
legal blood alcohol limits that the U.S., a higher age of driving 
licensure, and the effects on youth drinking and driving of their often 
more widespread public transportation. The European nations might 
benefit from an examination of our history of raising the legal 
drinking age to 21 and the benefits of those changes in reducing 
alcohol-related traffic and other injury fatalities.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               Independent State Store Union, ISSU,
                                      Harrisburg, PA 17108,
                                                September 29, 2003.
Hon. Mike DeWine,
U.S. Senate,
Washington, DC 20510.

    Dear Mr. Chairman: I have worked in the alcohol beverage industry 
for 32\1/2\ years as a State store manager of the Pennsylvania Liquor 
Control Board.
    We see daily the hands of old people and young people from every 
economic and social class shake as they scrounge their dollars and 
cents to buy their half pints of whiskey or pints of vodka.
    We see billboards in poor neighborhoods extolling $30.00 bottles of 
cognac where children fight to go to bed early to get a mattress.
    We see heavily advertised quarts of beer sold in hoagie shops 
cheaper than a quart of water.
    We have watched 25 years of alcohol advertising on Super Bowl 
Sunday validate to every 8-21 year old male that drinking beer is the 
American male right of passage.
    I have read that 63 percent of all adults favor a law that would 
ban all advertisements of alcoholic beverages on billboards in the 
country. Let's do it.
    As an American citizen, a liquor store manager, a president of a 
union representing State liquor store managers in Pennsylvania and a 
member of the Global Alcohol Policy Alliance, I encourage your 
committee to ban all alcohol advertising in the USA.
    Alcohol is a factor in the four leading causes of death for people 
under 21--car fatalities, homicide, suicide and other accidental 
deaths.
    A child is six times more likely to die from alcohol than all the 
other drugs combined.
    The only argument against the ban of alcohol advertising is that 
too many dollars pass through too many hands and that allows the six-
fold youth alcohol death ratio to live on and on.
            Sincerely,
                                                Ed Cloonan,
                   President, Independent State Store Union (ISSU).
                                 ______
                                 
  Prepared Statement of Hon. Susan M. Molinari, Chairman, The Century 
                                Council

    Mr. Chairman and Members of the Subcommittee: The Century Council 
is an independent, national not-for-profit organization dedicated to 
fighting drunk driving and underage drinking. Headquartered in 
Washington, DC, and funded by America's leading distillers, the 
Council's mission is to promote responsible decision-making regarding 
drinking, or not drinking, of beverage alcohol and to discourage all 
forms of irresponsible consumption through education, communications, 
law enforcement and other programs. Since 1991, The Council's funding 
companies (Allied Domecq Spirits & Wine North America, Bacardi USA., 
Inc., Brown-Forman, DIAGEO, Future Brands LLC, Pernod Ricard USA) have 
invested $130 million to support the Council's efforts to develop and 
implement alcohol education and prevention programs.
    The Century Council is chaired by the Honorable Susan Molinari. An 
independent Advisory Board comprised of distinguished leaders in 
business, government, education, medicine and other relevant 
disciplines assists the Council in its' development of programs and 
policies. Additionally, the Council maintains advisory panels in the 
areas of education and traffic safety that provide related guidance in 
those areas.
    The recently released National Academy of Sciences (NAS) report on 
underage drinking clearly accomplishes an extremely important goal and 
one that is central to The Century Council's mission. The report shines 
a spotlight on this critically important issue and hopefully as a 
result, decreases the awareness gap that exists in our country 
regarding underage drinking and the important relationship that parents 
have in solving this problem.
    Since 1991, the Council has been on the front lines of developing 
programs, strategies and tactics that both highlight the issues and 
develop promising practices that result in long-term positive impact 
and many of the points covered in the NAS report are in concert with 
the philosophies, and actions, of The Century Council. As an 
independent organization, dedicated to fighting drunk driving and 
underage drinking, staffed with professionals in these areas, the 
Council is now, and has been in the past, providing many of the 
programs and services that the report recommends.
    The Century Council, operating on the philosophy that collective 
action can have a greater impact than individual efforts, involves all 
sectors of the community including beverage alcohol wholesalers and 
retailers, law enforcement, public officials, educators, insurers, 
health care professionals and private citizen organizations in the 
fight against drunk driving and underage drinking.
    In pursuit of these goals, The Century Council identifies areas of 
concern in the fight against drunk driving and underage drinking, 
coordinates the development of initiatives to address such areas, and 
implements education and public awareness campaigns and promotes 
legislation through strategic partnerships.
    Hand-in-hand with all sectors of the community, The Century Council 
develops innovative, award-winning programs focused on the following 
core activities:
    <bullet> Promoting alcohol educational programs for middle school- 
through college aged students and for their parents, teachers, and 
adult supervisors;
    <bullet> Creating law enforcement and retailer programs with 
materials and promotions designed to deter minors from purchasing 
beverage alcohol;
    <bullet> Researching and identifying solutions for drunk driving 
and underage drinking and advocating for effective laws and policies at 
the state and Federal levels;
    <bullet> Developing programs that target drunk drivers, with a 
special emphasis on the hardcore drunk driver, and creating promising 
strategies and legislation to eliminate the problem;
    <bullet> Delivering blood alcohol education to inform the public 
about State laws for blood alcohol concentration (BAC) and how and 
individual's BAC level is affected based on gender, weight, and number 
and type of beverage;
    Clearly the issue of underage drinking is an important one. Many 
organizations highlight high-profile incidents involving underage 
drinking and call for action. Unfortunately, many of those same 
organizations do little to actually develop and implement programs to 
effectively combat and correct the problem. The Century Council focuses 
much of its efforts on programs, strategies and tactics to combat 
underage drinking. As always, our efforts are guided by noted 
professionals working in the field of alcohol education and prevention 
who ensure that our activities hold promise in effecting a long-term 
positive shift in the behavior of our youth.
    These programs in both the education and traffic safety arenas 
include:
    Ready or Not Talking With Kids About Alcohol is a community 
program created in partnership with Boys & Girls Clubs of America, 
Ready or Not helps parents and other adults prevent underage drinking 
problems among middle-school age children (ages 10 to 14). The program 
includes a 30-minute video illustrating five concrete steps adults can 
take to prevent illegal underage drinking and a facilitator kit for use 
in workshops or at home. Spanish-language Sin Rodeos: Hablando con los 
ninos sobre el alcohol and Native American adaptations are also 
available free-of-charge.
    Brandon Tells His Story is a high school program that features 
Brandon Silveria, a permanently disabled young man who crashed his car 
after having a few drinks at age 17. Brandon and his father, Tony, tour 
America's high schools to educate students--over one million to date--
about the dangers and consequences of underage drinking. In addition to 
the lecture program, The Century Council reaches thousands more 
students with a half-hour video and accompanying classroom activity 
guide that brings Brandon's story to high schools across the country. 
Three video messages focusing on back-to-school, spring break, and 
prom/graduation are available to keep Brandon's story alive throughout 
the school year. The video has won the education field's prestigious 
Chris award and a FREDDIE first-place in the American Medical 
Association's International Health & Medical Film Competition.
    Alcohol 101 for High School Seniors is an interactive CD-ROM 
program with a companion Educator's Guide designed to aid educators in 
preparing students to make informed choices about alcohol. By 
demonstrating the negative outcomes of bad decisions and providing safe 
and healthy alternatives, Alcohol 101 for High School Seniors 
encourages students to maintain safety and control in situations 
involving alcohol. Alcohol 101 for High School Seniors was developed 
through a partnership between the American School Counselor Association 
(ASCA). Additional information can be found at 
www.Alc101forHSseniors.org.
    ``Parents, You're Not Done Yet'' is a brochure designed to 
encourage parents of incoming college freshmen to discuss college 
drinking with their kids before they leave home and during the first 
weeks of the school year. With input from educators, alcohol policy 
administrators and other higher education professionals, The Council 
created and has distributed more than 3 million free brochures to over 
1,300 colleges. A downloadable version of the brochure, in both English 
and Spanish, is available online at www.centurycouncil.org.
    Alcohol 101 PlusTM is an innovative, interactive CD-ROM program 
aimed at helping students make safe and responsible decisions about 
alcohol on college campuses. Set on a ``virtual campus,'' Alcohol 101 
Plus combines the core elements of the award-winning Alcohol 101 
program, including the ``Virtual Bar,'' with new content targeted to 
at-risk populations--first year students, Greeks, student-athletes, and 
judicial policy offenders. The realistic scenarios highlight the 
specific issues, challenges, and decisions these groups face when it 
comes to alcohol in a college setting and provides students and 
educators with the opportunity forreflection and discussion. The 
program also includes an interactive alcohol education game developed 
in partnership with SONY, which provides the user with an opportunity 
to learn about how alcohol affects an individual's health, performance, 
and decision-making. A website, www.alcohol101plus. org, complements 
the Alcohol 101 Plus CD by providing a wealth of additional information 
for students, facilitators, and the media.
    Promising Practices identifies constructive ways to fight alcohol 
abuse on university and college campuses. Developed through a grant 
from The Century Council, David Anderson, Ph.D. and Gail Gleason 
Milgram, Ed.D. developed a sourcebook of promising practices. This 
sourcebook, the only kind in the country, included two updates and 
companion materials such as task force and action planners. This 
resource includes nearly 300 proven alcohol abuse prevention programs 
at both public and private schools throughout the country and policies 
and programs included in the Sourcebook are in use on campuses 
nationally.
    ``Speak Up'' is a joint project between The Century Council and the 
National Collegiate Athletic association (NCAA) that focuses on 
delivering alcohol education and prevention to student athletes. 
Through NCAA's Champs Life Skills coordinators, facilitated discussions 
dealing with alcohol issues are conducted with Division I, II and III 
student athletes.
    Cops in Shops--a cooperative effort, involving local retailers and 
law enforcement, designed to deter minors from attempting to illegally 
purchase alcohol and adults who purchase alcohol for minors. Undercover 
officers are assigned to participating retail locations; often one 
works inside the store while a second is positioned outside to 
apprehend adults who procure alcohol for youth.
    Point of Sale Materials--more than ten million posters, decals, 
buttons and employee information brochures have been distributed free 
of charge to over 100,000 retailers in all 50 states. Based on recent 
survey data stating that 65 percent of youth who drink obtain alcohol 
from their family and friends, The Century Council, working with the 
American Beverage Licensees (ABL), created a new campaign that 
highlights the point of access to alcohol by underage youth and 
encourages parents to play a more active role in keeping alcohol out of 
the hands of our nation's youth. The key component to the campaign is a 
30 second Public Service Announcement, buttons and informational cards, 
distributed at the point of purchase, that provide tips for parents on 
how to talk with their kids about alcohol. To raise awareness of the 
industry's efforts, The Council continues to host local events brining 
together retailers, wholesalers, and community leaders to deter 
underage purchasing.
    The Blood Alcohol Educator CD-ROM is an interactive CD-ROM for 
adults that provides the blood alcohol concentration (BAC) limit for 
driving in a user's particular state and educates the user on how their 
personal BAC level changes based on their gender, weight and number and 
type of drink. Once in the program's ``Virtual Bar,'' the user can 
select from a variety of drinks to determine their BAC level and a 
clock calculates how long it will take for the user's BAC level to 
return to zero. The BAE CDROM is the centerpiece of a national campaign 
that includes a BAE Van tow that has distributed over 100,000 BAE CD-
ROMs to the public free-of-charge. The BAE Van is outfitted with the 
colorful BAE logo and builds out into a cyber-cafe with three computer 
terminals to allow visitors to use the program. The BAE CD-ROM is 
available in both English and Spanish and, in addition to the CD-ROM 
and Van tour, can be used on the web at www.b4udrink.org.
    The Century Council believes that in educating parents, youth and 
educators in alcohol prevention and education, outreach to the Hispanic 
community is of utmost importance. As a result, the Council has a 
variety of Hispanic programs including;
    <bullet> The Century Council's award-winning Hispanic program--``Si 
Toma, No Maneje'' was the first comprehensive program in the nation to 
provide the large, growing Hispanic population with Spanish-language 
anti-alcohol-abuse information. The Century Council's commitment is to 
provide the Hispanic community with culturally sensitive messages about 
the dangers of drunk driving and underage drinking. As a result of this 
approach, The Council has designed a complete array of educational 
programs that are easy to use and adaptable to the individual needs of 
the community.
    Hice La Promesa! (I Made the Promise)--This program, a pledge to 
not drive drunk, to serve as designated drivers and to encourage 
families and friends to do the same, was created in partnership with 
the Catholic Archdiocese of Los Angeles. Over 2,000 parishes have 
conducted Hice La Promesa! events reaching more than 1 million 
Catholics.
    Sin Rodeos: hablando con los nifios sobre el alcohol--A Spanish 
language version of The Council's Ready or Not: Talking With Kids About 
Alcohol program was produced in partnership with the Los Angeles 
Unified School District (LAUSD). Sin Rodeos presents the key messages 
of Ready or Not through culturally sensitive situations. The program is 
also supported by the ASPIRA Association, the Cuban American National 
Council, League of United Latin American Citizens (LULAC), National 
Association of Latino Elected and Appointed Officials Education Fund 
(NALEO), National Council of La Raza (NCLR), and the National Puerto 
Rican Coalition.
    Public Service Announcements (PSA's)--In 1994, The Century 
Council's public service announcement ``El Nino'' received an award 
from Hispanic Business Magazine as Best Public Service Announcement.
    Vive, por nuestro futuro! Si tomas, no manejes! is the title of our 
most recent campaign developed in partnership with Recording Artists, 
Actors and Athletes Against Drunk Driving (RADD) and the National 
Association of Broadcasters (NAB). More than a dozen radio and 
television PSAs were produced featuring Hispanic celebrities such as: 
Edward James Olmos, Chayanne, India, Shakira and Tito Puente. The NAB 
distributed the TV and radio PSAs nationwide in mid-September 2000, in 
conjunction with Hispanic Heritage Month.
    Other Programs Available in Spanish--The Century Council also 
offers the Blood Alcohol Educator (BAE) program, the ``Parents, You're 
Not Done Yet'' brochure and some Point of Sale materials in Spanish.
    The Century Council also has an ongoing PSA program featuring well-
known public figures and celebrities discussing the dangers of drunk 
driving and the need for alcohol education; many are produced in both 
English and Spanish.
    It is important to note that The Century Council also focuses on 
combating drunk driving and has similar programs, strategies and 
tactics to attack this important problem. As the focus of this 
statement surrounds the issue of underage drinking, an overview of 
those programs will not be included in this packet.
    The Century Council constantly conducts research and focus groups 
to assist us in developing new programs and to gauge the effectiveness 
of our efforts. Attachments are included at the end of this statement 
that are relevant to any discussion on underage drinking.
    Simply highlighting the problem and promoting action plans that are 
not data-driven are not in the best interest of solving this important 
issue. Since 1991, The Century Council, and America's leading 
distillers who fund us, have had a long-standing commitment in the 
fight to stop underage drinking. Our belief is that science-based, 
programs developed by professionals and widely distributed to parents, 
educators and youth is the best action towards the goal of stopping 
underage drinking. We will continue our efforts and as always, stand 
ready to work with any strategic partners and members of the Committee 
to accomplish this task. Thank you.
    Attachments:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
  Prepared Statement of Stacia Murphy, President, National Council on 
                 Alcoholism and Drug Dependence, NCADD
    Thank you for providing this opportunity to present written 
comments to the Senate Subcommittee on Substance Abuse and Mental 
Health Services, and we hope this statement will be made part of the 
hearing record.
    As indicated in the recent report from the Institute of Medicine 
titled ``Reducing Underage Drinking--A Collective Responsibility,'' 
underage drinking is a critical public health issue. Through this 
testimony, we hope to give support to the conclusions of the report. 
Furthermore, we urge implementation of the report's key findings and 
agree that there should be:
    <bullet> Greater allocation of government resources to address 
underage drinking;
    <bullet> Stronger constraints on alcohol advertising aimed at youth 
audiences;
    <bullet> Stricter enforcement for regulations banning the sale of 
liquor to underage drinkers;
    <bullet> An increase in the excise taxes on alcohol to promote a 
campaign to reduce underage drinking, much as has been done to reduce 
smoking.
    To achieve these important goals, NCADD would support a strong 
Federal voice on underage drinking. As individuals and as a nation, we 
can't afford to look the other way any longer. America's youth are our 
future and we need to insure that they are no longer drowned in a 
whirlpool of negative consequences.
    Founded in 1944, the National Council on Alcoholism and Drug 
Dependence is the oldest advocacy organization in the country 
addressing America's most widely used drug, alcohol. With over 95 
Affiliates in 28 States, we work at the national level on policy issues 
related to barriers in education, prevention and treatment for 
alcoholics, other drug dependent persons and their families.
    Prepared Statement of The National Association for Children of 
                               Alcoholics
    The National Association for Children of Alcoholics supports the 
NAS report recommendations. The reduction of underage drinking is a 
critical public health imperative. In addition, it can halt the family 
cycle of addiction, since those who do not drink until age 21 are much 
less likely to become alcoholics themselves. This is especially 
relevant to children of alcoholics since they are at great risk of 
having a genetic vulnerability and being exposed to environmental 
influences that may make them more susceptible to becoming alcoholics 
themselves.
    One in four children lives in a family with alcohol abuse or 
alcoholism. This is a critical mass of the nation's children who are at 
increased risk for alcohol, other drug and mental health problems 
because of the environment in which they live, and prevention of 
underage drinking is crucial to their potential for healthy and 
productive lives.
 Prepared Statement of James A. O'Hara III, Executive Director, Center 
                     on Alcohol Marketing and Youth
    Mr. Chairman, Senator Dodd, distinguished Members of the 
Subcommittee, your hearing today marks an important recognition of the 
scope and devastating consequences of underage drinking for our youth 
and our families. The numbers you are hearing today do indeed tell a 
story of abuse and risk.
    Let me underline a few more of the telling statistics of the abuse 
and devastating consequences from the recently released National 
Research Council/Institute of Medicine report, Reducing Underage 
Drinking: A Collective Responsibility.
    <bullet> ``[A]lmost one-half of the 12-year-olds who reported 
alcohol use reported having drunk heavily [five or more drinks on same 
occasion] in the past 30 days.'' \1\
---------------------------------------------------------------------------
    \1\ National Research Council and Institute of Medicine, Reducing 
Underage Drinking: A Collective Responsibility, Committee on Developing 
a Strategy to Reduce and Prevent Underage Drinking, Eds. Richard J. 
Bonnie and Mary Ellen O'Connell, Board on Children, Youth, and 
Families, Division of Behavioral and Social Sciences and Education 
(Washington, DC: The National Academies Press, 2003), 41.
---------------------------------------------------------------------------
    <bullet> ``The rate of heavy drinking doubles from age 14 (about 6 
percent) to age 15 (about 12 percent) and continues to increase 
steadily.'' \2\
---------------------------------------------------------------------------
    \2\ Ibid., 41.
---------------------------------------------------------------------------
    <bullet> ``While only 7 percent of licensed drivers in 2000 were 
aged 15 to 20, they represented approximately 13 percent of drivers 
involved in fatal crashes who had been drinking.'' \3\
---------------------------------------------------------------------------
    \3\ Ibid., 61.
---------------------------------------------------------------------------
    <bullet> ``. . . 29 percent of 15- to 17-year-olds and 37 percent 
of 18- to 24-year-olds said that alcohol or drugs influenced their 
decision to do something sexual.\4\
---------------------------------------------------------------------------
    \4\ Ibid., 63.
---------------------------------------------------------------------------
    Behind all the numbers and statistics are the shattered lives of 
our children and families. Let me remind you how a year ago this month 
we read with shock and disbelief of the 200 or so high school students 
who arrived drunk to their homecoming dance in Scarsdale, New York.\5\ 
Five of these young people were hospitalized for acute alcohol 
poisoning. The incident occasioned much debate and concern about 
parents' responsibilities. It also raises the question of why so many 
of our teens think the only way to have a good time is with alcohol. In 
short, it reflects the complicated but devastating reality of underage 
drinking as described by the NRC/IOM's historic report: ``Understanding 
why adolescents drink is more likely to be found in the confluence of 
factors.'' \6\
---------------------------------------------------------------------------
    \5\ See, e.g., Jane Gross, ``Teenagers' Binge Leads Scarsdale to 
Painful Self-Reflection,'' New York Times, Tuesday, 8 October 2002, 
sec. B, p. 1; ``200 students arrive at school dance drunk,'' The Times 
Union, Friday, 27 September 2002, sec. B, p. 2.
    \6\ National Research Council and Institute of Medicine, 87.
---------------------------------------------------------------------------
    The Center on Alcohol Marketing and Youth (GAMY) focuses its work 
on one of those factors--alcohol advertising. In fact, alcohol 
advertising and its role in underage drinking have been of concern to 
public health officials and policy makers for many years. Then Surgeon 
General Antonia Novello requested the Inspector General of the U.S. 
Department of Health and Human Services to report on alcohol 
advertising's appeal to underage youth and how effectively the Federal 
and State Governments, as well as the alcohol industry, were monitoring 
it. The Inspector General's report, issued in 1991, found that the 
Federal and State agencies were fragmented in their approaches to 
alcohol advertising and that the alcohol industry's self-regulatory 
codes were largely ineffective.\7\ At the request of Congress, the 
Federal Trade Commission has now released two reports on alcohol 
advertising and underage youth, the first in September 1999 and the 
second earlier this month. In the 1999 report, the FTC called on the 
industry to make several reforms in its self-regulation,\8\ and in the 
second report the FTC found that the industry had made significant 
improvements.\9\
---------------------------------------------------------------------------
    \7\ Office of Inspector General, Department of Health and Human 
Services, Youth and Alcohol: Controlling Alcohol Advertising That 
Appeals to Youth (Washington, DC: Department of Health and Human 
Services, 1991), 6, 10-12.
    \8\ Federal Trade Commission, Self-Regulation in the Alcohol 
Industry: A Review of Industry Efforts to Avoid Promoting Alcohol to 
Underage Consumers (Washington, DC: Federal Trade Commission, 1999), 
ii-iii.
    \9\ Federal Trade Commission, Alcohol Advertising and Marketing: A 
Report to Congress (Washington, DC: Federal Trade Commission, 2003), i.
---------------------------------------------------------------------------
    A key point made by each of these reports is that responsibility 
for alcohol advertising rests with the industry. The industry regulates 
itself through the codes of the trade associations and of individual 
companies. In general, these codes address two main topics: content and 
placement.\10\ Over the years, the content of alcohol advertising has 
generated some of the sharpest controversy in terms of questions of its 
appeal to underage youth. The Budweiser frogs and Spuds McKenzie may be 
two of the most well-known and controversial. A 1996 study of children 
ages nine to 11 found that children were more familiar with Budweiser's 
television frogs than Kellogg's Tony the Tiger, the Mighty Morphin' 
Power Rangers, or Smokey the Bear. \11\ Even the most recent FTC report 
that commended the industry for ``added . . . attention to the issue of 
ad content'' also remarked, ``Still, a visible minority of beer ads 
feature concepts that risk appealing to those under 21.'' \12\
---------------------------------------------------------------------------
    \10\ See, e.g., Beer Institute, ``Advertising and Marketing Code,'' 
<http://beerinstitute.org/adcode2.pdf> (Accessed 25 Sept 2003); 
Distilled Spirits Council of the United States, ``Code of Responsible 
Practices for Beverage Alcohol Advertising and Marketing,'' <http://
www.discus.org/industry/code/code.htm> (Accessed 25 Sept 2003); Wine 
Institute, ``Code of Advertising Standards,'' <http://
www.wineinstitute.org/communications/statistics/
Code_of_Advertising.htm> (Accessed 25 Sept 2003).
    \11\ L. Leiber, Commercial and Character Recall by Children Aged 9 
to 11 Years: Budweiser Frogs Vs. Bugs Bunny (Berkeley: Center on 
Alcohol Advertising, 1996).
    \12\ Federal Trade Commission, Alcohol Advertising and Marketing, 
ii.
---------------------------------------------------------------------------
    While the FTC did not specify which ads were in this ``visible 
minority,'' here are examples of ads that have, in fact, generated 
significant controversy over their content in the past year:
    ``Because We Can,'' a television ad for Coors Light
    ``Laundromat,'' a television ad for Smirnoff Ice
    ``Cat Fight,'' a television ad for Miller Lite
    These ads have raised questions in the minds of many in the public 
health community about the adequacy of alcohol industry self-
regulation. On the other hand, the alcohol industry may well point to 
them as examples of responsiveness. Coors announced on June 2, 2003 
that it pulled ``Because We Can'' as the result of its participation in 
the Better Business Bureau's Advertising Pledge Program and a ruling by 
the BBB APP that the ad violated Coors's own advertising code; \13\ 
Diageo, the parent company for Smirnoff Ice announced last spring that 
it was pulling its ad because of complaints. According to the data 
available to GAMY from TNS Media Intelligence/CMR, both of these ads 
were last broadcast several months before either company announced 
their decisions. \14\
---------------------------------------------------------------------------
    \13\ ``Advertiser's Statement, Submitted: 2 June, 2003,'' in 
``Final Decision, Better Business Bureau Advertising Pledge Program,'' 
Case No. 02-02a, Decided May 16, 2003, <http://www.bbb.org/app/case/
Case02-02a.pdf> (Accessed 25 Sept. 2003).
    \14\ TNS Media Intelligence/CMR.
---------------------------------------------------------------------------
    The Center's primary focus, however, has been on the placement of 
alcohol advertising--where the industry chooses to place its ads, and 
who is exposed to the advertising and how frequently. We are a public 
health project based at Georgetown University's Health Policy Institute 
and funded by grants from The Pew Charitable Trusts and the Robert Wood 
Johnson Foundation. Since September 2002 we have released a series of 
reports on the exposure of underage youth--ages 12 to 20--to alcohol 
advertising in the measured media of magazines, television and radio. 
Our research has, in effect, been an attempt to conduct public health 
surveillance of alcohol advertising, using the databases routinely used 
by advertising agencies and consumer product companies in the planning 
of advertising campaigns. To assist us in this effort, we have employed 
the services of Virtual Media Resources, a media research and planning 
firm based in Natick, Massachusetts.
    We have found widespread and pervasive overexposure of underage 
youth to alcohol advertising in all three media.
    For magazines:
    Youth saw more beer and distilled spirits advertising than adults 
in magazines in 2001--45 percent more for beer brands and 27 percent 
more for distilled spirits brands.\15\
---------------------------------------------------------------------------
    \15\ ``More likely to be seen by'' (as well as percentage measures 
of youth overexposure and other comparisons of adult and youth exposure 
to alcohol advertising in this testimony) is based on ``gross rating 
points,'' which measure how much an audience segment is exposed to 
advertising per capita. Another way of measuring advertising exposure 
is ``gross impressions'' (the total number of times all the members of 
a given audience are exposed to advertising). The adult population will 
almost always receive far more ``gross impressions'' than youth because 
there are far more adults in the population than youth. Center on 
Alcohol Marketing and Youth, Overexposed: Youth a Target of Alcohol 
Advertising in Magazines (Washington, DC: Center on Alcohol Marketing 
and Youth, 2002), 1.
---------------------------------------------------------------------------
    Marketers of low-alcohol refreshers, the so-called 
``malternatives'' such as Smirnoff Ice, delivered 60 percent more 
magazine advertising to youth than adults in 2001.\16\
---------------------------------------------------------------------------
    \16\ Ibid., 1.
---------------------------------------------------------------------------
    These ads have been placed in magazines like Vibe and Spin that, 
respectively, had underage audiences of 41 percent and 39 percent in 
2001, as well as in magazines like Allure with a 34 percent underage 
audience and In Style with 25 percent underage readership.\17\
---------------------------------------------------------------------------
    \17\ The beer and distilled spirits industries have now revised 
their codes to prohibit placement where underage youth are 30 percent 
or more of the audience. Ibid., 11.
---------------------------------------------------------------------------
    For television:
    Almost a quarter of the television alcohol advertising in 2001--
51,084 ads--was more likely to be seen by youth than by adults.\18\
---------------------------------------------------------------------------
    \18\ Center on Alcohol Marketing and Youth, Television: Alcohol's 
Vast Adland (Washington, DC: Center on Alcohol Marketing and Youth, 
2002), 2.
---------------------------------------------------------------------------
    In 2001, alcohol advertising on television reached 89 percent of 
young people 12-20, who saw an average of 246 alcohol ads each. The 30 
percent of young people ages 12--20 who were most likely to see alcohol 
advertising on television saw at least 780 alcohol TV ads in 2001.\19\
---------------------------------------------------------------------------
    \19\ Ibid., 2.
---------------------------------------------------------------------------
    The alcohol industry's television advertising has been placed on 
shows like That `70s Show, The Parkers, and MADtv.\20\
---------------------------------------------------------------------------
    \20\ The beer and distilled spirits industries have now revised 
their codes to prohibit placement where underage youth are 30 percent 
or more of the audience. Ibid., 2-3, 7.
---------------------------------------------------------------------------
    For radio:
    Youth heard more radio advertising for beer, ``malternatives'' and 
distilled spirits in 2001 and 2002 than adults 21 and over. Underage 
youth, ages 12--20, heard 8 percent more beer and ale advertising and 
12 percent more malternative advertising. The exposure was even greater 
for the distilled spirits category, where youth heard 14 percent more 
advertising.\21\
---------------------------------------------------------------------------
    \21\ Center on Alcohol Marketing and Youth, Radio Daze: Alcohol Ads 
Tune in Underage Youth (Washington, DC: Center on Alcohol Marketing and 
Youth, 2003), 5.
---------------------------------------------------------------------------
    The vast majority of radio advertising reaching underage youth was 
placed on radio stations with four formats: Rhythmic Contemporary Hit, 
Pop Contemporary Hit, Urban Contemporary and Alternative. The artists 
featured on these formats are, for example, 50 Cent, Jennifer Lopez, LL 
Cool J, Nelly, Justin Timberlake, Eminem, Ja Rule, Dru Hill, Snoop 
Dogg, Red Hot Chili Peppers, Audioslave and Foo Fighters.\22\
---------------------------------------------------------------------------
    \22\ Ibid., 9, fn 27.
---------------------------------------------------------------------------
    Let me explain what we did and what these numbers mean. Standard 
industry databases provide information on where ads are placed. TNS 
Media Intelligence/CMR provides information on where ads are placed in 
magazines and on television programs, and Media Monitors, Inc. (MMI) 
provides information on which radio stations broadcast ads and at what 
time of the day. Other industry-standard databases--such as MRI, 
Arbitron and Nielsen Media Research--provide information on the 
audience composition for magazines, for radio stations and for 
television programming. Each of these audience composition databases 
obviously has certain limitations on how that data is collected, but 
these are the databases on which the advertising and consumer product 
industries rely, and are the databases on which the alcohol industry 
trade associations indicate they will rely to ensure that member 
companies place their ads appropriately.\23\ The ad placement data and 
audience composition data were analyzed by VMR to calculate the reach 
(what proportion of a given age group had the opportunity to see an ad) 
and the frequency (on average, how many times someone in a given age 
group would be exposed to an ad). We expressed the reach and frequency 
of alcohol advertising to underage youth--ages 12 to 20--and to legal-
age adults--those over age 21--in terms of gross rating points (GRPs), 
a measure used by media planners to compare the weight of advertising 
delivered per capita to different age groups or to other demographic 
segments. By comparing GRPs, which account for the size of the 
population of a particular age group, we are able to see which age 
group is more likely to be exposed to, or to see, alcohol advertising. 
As I mentioned, this is the kind of public health surveillance we 
already should have in our fight to reduce and prevent underage 
drinking, but it has been lacking.
---------------------------------------------------------------------------
    \23\ Federal Trade Commission, Appendix D and Appendix E, Alcohol 
Marketing and Advertising, D-6-7, E8-10.
---------------------------------------------------------------------------
    The alcohol industry frequently cites gross impressions as a more 
appropriate way to measure alcohol advertising. For example, the 
following statement was made by the Distilled Spirits Council of the 
United States (DISCUS) on June 20, 2003:
    ``CAMY wants the public to believe more youth hear and see alcohol 
ads than adults. They are just plain wrong and their own data confirm 
this fact. If you dig beneath their rhetoric and look at their own 
data, it shows spirits advertising is clearly directed to adults,'' 
said Distilled Spirits Council President Peter Cressy. . . .
    The table below--derived from CAMY's own data--shows distilled 
spirits advertising is directed to adults.
    Percentage of Impressions Derived from 21+ Audience
    Media--Percent
    Print--81 percent
    Radio--83 percent
    TV--76 percent
    Source: Derived from CAMY Reports'' \24\
---------------------------------------------------------------------------
    \24\ Distilled Spirits Council of the United States, ``CAMY 
Releases Another Misleading Report on Underage Drinking,'' 20 June 2003 
<http://www.discus.org/mediaroom/2003/release.asp?pressid=105> 
(Accessed 25 Sept 2003).
---------------------------------------------------------------------------
    Well, there are a lot more adults than there are children. By 
omitting the fact that 84.2 percent of the age 12+ population are 
adults (age 21 and over), and 15.8 percent are underage youth (ages 12 
to 20), DISCUS tells only part of the story in stating the percentages 
of gross impressions. Because of the disparity in population size, 
there are more impressions per person for youth and fewer per person 
for adults.
    To examine this criticism from an advertising perspective, take the 
case of magazines. In 2001, 19.1 percent of all magazine gross 
impressions for distilled spirits were for youth ages 12-20, and 80.9 
percent were for adults, age 21+. This equates to more GRPs for youth 
than for adults; that is, more impressions per person for youth than 
adults. While ``only'' 19.1 percent of gross impressions were delivered 
to youth, an even smaller percentage (15.8 percent) of the total 
population (age 12 and older) is composed of youth. Therefore the 
number of GRPs for youth is disproportionately large: 12,550 for youth, 
versus 9,916 for adults. In fact, youth received 26.5 percent more GRPs 
than adults--or 26.5 percent more impressions per person. (See Table 1)
    Put in terms of reach and frequency, the GRP analysis shows clearly 
what is hidden by relying on gross impressions: for distilled spirits 
advertising in magazines in 2001, 92 percent of youth ages 12-20 
(reach) saw on average 136 ads (frequency), while 95 percent of adults 
age 21+ (reach) saw on average 104 ads (frequency). Simply stated, 
youth were greatly overexposed to the distilled spirits advertising in 
magazines in 2001.
    Our research has utilized the most current data available to 
provide a reliable and verifiable analysis of underage youth exposure 
to alcohol advertising. The key public policy question going forward is 
how we protect underage youth from excessive exposure to alcohol 
advertising. It should be kept in mind that the alcohol industry has 
already agreed that there should be some limits to their advertising by 
the very fact that for years they have had voluntary codes restricting 
the placement of their own advertising.\25\ The IOM report also lays 
out what we believe is a convincing public policy rationale for limits 
on the alcohol advertising that reaches underage youth:
---------------------------------------------------------------------------
    \25\ Beer Institute, ``Advertising and Marketing Code;'' Distilled 
Spirits Council of the United States, ``Code of Responsible Practices 
for Beverage Alcohol Advertising and Marketing;'' Wine Institute, 
``Code of Advertising Standards.''
---------------------------------------------------------------------------
    ``It is sometimes assumed that, in the absence of compelling 
evidence of causation, there is no legitimate basis for limiting the 
exposure of young people to alcohol advertising. This assumption is 
wrong for three reasons. First, the absence of definitive proof may be 
caused by the methodological complexity of the inquiry rather than the 
absence of a contributing effect. . . . Second, there is a sound common 
sense basis for believing, even in the absence of definitive proof, 
that making alcohol use attractive to young people increases the 
likelihood that they will become alcohol consumers as young people 
rather than waiting until they are adults. . . . Third, persistent 
exposure of young people to messages encouraging drinking by young 
people (even if they appear to be 21) contradicts and interferes with 
the implementation of the nation's goal of discouraging underage 
drinking.'' \26\
---------------------------------------------------------------------------
    \26\ National Research Council and Institute of Medicine, 136-7.
---------------------------------------------------------------------------
    The last point made by IOM deserves underlining: the alcohol 
industry's advertising of the good times to be had by the consumption 
of alcohol undercuts and drowns out the messages of responsibility and 
caution given by parents and other adults. And parents know this and 
want something done. We commissioned public opinion research by Peter 
D. Hart Associates and American Viewpoint and found that parents 
overwhelmingly (81 percent) believe that, due to the potentially 
harmful effects of its products, the alcohol industry has a special 
responsibility to avoid exposing young people to messages encouraging 
alcohol consumption. \27\
---------------------------------------------------------------------------
    \27\ Memorandum, ``Results of a National Survey of Parents,'' from 
Peter D. Hart Research Associates, Inc./American Viewpoint to All 
Interested Parties, Washington, DC, June 24, 2003, <http://camy.org/
research/files/hartmemo07O3.pdf> (Accessed 25 Sept 2003).
---------------------------------------------------------------------------
    The beer and distilled spirits industries, as of this month 
according to the recent FTC report and their own trade associations, 
have now committed not to place alcohol advertising where the underage 
audience is 30 percent or more. \28\ This is a significant reduction 
from the previous industry threshold of 50 percent and is to be 
welcomed. Whether it is sufficiently protective of our children remains 
the question, however.
---------------------------------------------------------------------------
    \28\ See, e.g., Federal Trade Commission, Alcohol Advertising and 
Marketing, ii; Beer Institute, ``Advertising and Marketing Code;'' 
Distilled Spirits Council of the United States, ``Code of Responsible 
Practices for Beverage Alcohol Advertising and Marketing.''
---------------------------------------------------------------------------
    The IOM has recommended that industry move toward a 15 percent 
threshold, and CAMY's own research suggests a 15 percent threshold is 
the most protective and likely to prevent routine overexposure of 
underage youth, ages 12 to 20. The reasoning is straightforward. 
Underage youth represent 15.8 percent of the U.S. population, age 12 
and over. Advertising placed in venues where the audience composition 
is 15 percent or less simply follows the distribution of the 
population. As I said, the IOM has called for the industry to move 
toward this threshold. In addition, when a distilled spirits company 
sought to break the decades-old voluntary ban on distilled spirits 
advertising on broadcast television, it proposed to limit its 
advertising to late-night television, and in other dayparts to limit 
its advertising to programs where the underage audience was 15 percent 
or less.\29\ Also, the company promised to air one of its 
responsibility ads for every four product ads.\30\ Finally, a 
representative for the leading beer company in the United States--
AnheuserBusch--was recently quoted as saying the ``vast majority'' of 
their advertising in the last 10 years has been placed on programs 
``which traditionally attract audiences that are approximately 80 
percent adult.'' \31\ Clearly, what needs to happen is a balancing of 
the public health goal of limiting underage youth exposure to alcohol 
advertising and of the rightful economic self-interest of alcohol 
companies to advertise to their legal audience. With a distilled 
spirits company indicating that a 15 percent threshold is economically 
viable and with the country's largest beer company saying that a ``vast 
majority'' of its advertising has met a 20 percent threshold for the 
last 10 years, it would appear that some reduction from the newly 
announced 30 percent threshold, which allows for placement of alcohol 
ads where underage youth are twice their number in the general 
population, is still achievable and would further the public health 
goal. Let me be clear that there are many devils in the details: Is the 
threshold computed on a population base of age 2 and over or age 12 and 
over? Is the threshold applied to each brand of a company since 
advertising plans are normally developed for a specific brand, or is it 
company-wide?
---------------------------------------------------------------------------
    \29\ Stuart Elliot, ``NBC, with Conditions, to Accept Ads for 
Liquor,'' New York Times, Friday, 14 December 2001, sec. C, p. 1.
    \30\ Ibid.
    \31\ Theresa Howard, ``Alcohol advertisers agree to raise standards 
to help keep their messages away from kids,'' USA Today, Wednesday, 10 
Sept 2003, sec. B, p. 5.
---------------------------------------------------------------------------
    But even as we have this policy debate on a reasonable standard 
that would protect the health and well-being of our children and 
recognize the economic self-interest of the industry, the IOM pointed 
to several steps that our Public Health Service and other Federal 
agencies can take today:
    <bullet> A national media campaign that educates adults about the 
real dangers and risks of underage drinking and their important 
responsibilities in reducing and preventing it.\32\
---------------------------------------------------------------------------
    \32\ Recommendation 6-1. National Research Council and Institute of 
Medicine, 110.
---------------------------------------------------------------------------
    <bullet> A coordinated effort with increased funding commensurate 
with the problem by the Federal agencies now responsible for underage 
drinking prevention programs so that they are more effective, better-
leveraged and complement one other, and achieve real results so that 10 
years from now we aren't seeing the same stalled progress identified by 
the IOM.\33\
---------------------------------------------------------------------------
    \33\ Recommendation 12-1. Ibid., 237.
---------------------------------------------------------------------------
    <bullet> An annual report with key indicators of underage drinking. 
This is basic public health surveillance that should already be done so 
that we can assess what is working and what isn't.\34\
---------------------------------------------------------------------------
    \34\ Recommendation 12-3. Ibid., 238.
---------------------------------------------------------------------------
    <bullet> The filling of key gaps in our public health 
surveillance--the monitoring of underage youth exposure to alcohol 
advertising and the collection of data on our public health surveys on 
brand use by underage persons just like the data we already annually 
collect for underage use of cigarette brands.\35\
---------------------------------------------------------------------------
    \35\ Recommendations 7-4, 12-5, 12-6. Ibid., 145, 240, 241.
---------------------------------------------------------------------------
    In closing, let me quote the IOM report: ``The problem of underage 
drinking in the United States is endemic and, in the committee's 
judgment, is not likely to improve in the absence of a significant new 
intervention.'' \36\ Let me put the IOM's conclusion another way: 
Unless we act now, we will have failed to have learned the lessons from 
Scarsdale, New York and hundreds of other communities around this 
country where our children and families have suffered the tragic 
consequences of underage drinking.
---------------------------------------------------------------------------
    \36\ Ibid., 103.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
 Prepared Statement of David K. Rehr, Ph.D., President, National Beer 
                        Wholesalers Association

                            I. INTRODUCTION

    Chairman DeWine, Mr. Kennedy, and Members of the Substance Abuse 
and Mental Health Services Subcommittee, the members of the National 
Beer Wholesalers Association (NBWA) appreciate the opportunity to 
submit this testimony in connection with the subcommittee's hearing on 
underage drinking and the recently released report by the National 
Academy of Sciences (National Academies). We also thank the Chairman 
for convening this forum, and providing the opportunity to share the 
industry's thoughts on this important topic, draw attention to the many 
valuable responsibility programs being implemented by the beer industry 
and express our concern for the underlying National Academies process 
that preceded the study released on September 10, 2003.

               II. BACKGROUND ON NATIONAL ACADEMIES STUDY

    During the debate on the 2002 Labor, Health and Human Services, and 
Education Appropriations Bill, NBWA, in conjunction with industry 
allies, advocated for and supported the House and Senate appropriators' 
decision to study existing Federal, State, and non-governmental 
programs designed to reduce and prevent underage drinking. NBWA also 
supported the decision to appropriate $500,000 to the National 
Academies to review such programs. Conference Report attached as 
Appendix A.
    Both decisions were supported because NBWA and its members do not 
condone or support abuse of our products, and we are committed to 
reducing and combating underage alcohol-related issues. Additionally, 
the wholesaler industry has many successful, effective underage 
responsibility programs that it was anxious to share with the National 
Academies, and NBWA was enthusiastic about participating in a process 
that was initially perceived to be fair and even-handed.
    The study of programs designed to reduce underage drinking was 
determined as necessary, in part, due to a report that was released in 
May of 2001 by the Government Accounting Office (GAO) titled ``Underage 
Drinking--Information on Federal Funds Targeted at Prevention,'' 
wherein it was concluded that:
    <bullet> Twenty-three Federal agencies have program efforts that 
address underage alcohol prevention, and for fiscal year 2000 an 
estimated $71 million was specifically allocated to efforts designed to 
reduce underage drinking.
    <bullet> SAMHSA and approximately 16 other Federal agencies 
identified about $1 billion of fiscal year 2000 combined funding that 
addressed alcohol prevention and illegal drug use. A breakdown of how 
that funding is allocated could not be determined.
    <bullet> An additional estimated $769 million out of $2.2 billion 
of block, formula and incentive grant funds may have been used by 
States to address prevention of drug and alcohol use by youth.
    <bullet> The Federal Government spends substantial resources on 
underage prevention, with no real means of accounting for these 
resources or the effectiveness of these efforts, questioning the way in 
which Federal agencies are spending taxpayer dollars. Appendix B.
    As a first step, the National Academies posted the project scope on 
July 11, 2002, revealing for the first time publicly its decision to 
expand the scope of the study to include areas that were not mandated 
by Congress. Appendix C.
    The Labor-HHS report language requested a study of an array of 
programs designed to prevent and reduce underage drinking and 
established a very specific list of inquires to which Congress was 
seeking a reply. The National Academies went beyond the scope of this 
charge and chose to delve into areas of legislative authority, thereby 
overreaching and contradicting Congressional intent. To be specific, 
the conference report language does not seek input from the National 
Academies or its advisory committee with regard to tax-related issues. 
However, the project scope suggests, with some emphasis, the need for 
an excise tax increase, a decision that is outside the authority and 
jurisdiction of the National Academies, and should not have been 
singled out in the study's stated scope as an area of emphasis or 
extraordinary review by the selected committee.
    Simply stated, the scope decided upon by the National Academies and 
its specific instructions to the committee are material alterations of 
the Congressional report language. By taking this liberty, the National 
Academy guided the committee to a predetermined approach and blatantly 
disregarding Congressional intent.
    With regard to the committee selection process, it is important for 
the subcommittee to know that prior to the National Academies posting 
the names of the twelve panelists who were ultimately chosen to conduct 
the study, several members of Congress and the licensed beverage 
industry wrote the National Academies with recommendations of qualified 
experts to participate in the study. Congressional letters are on file 
with the National Academies. Industry letter attached as Appendix D.
    However, none of those who were recommended were chosen, in spite 
of the fact that their professional backgrounds and relative expertise 
more than adequately qualified them for inclusion on the study 
committee.
    The process underway at the National Academies was beginning to 
show repeated signs of exclusion of outside stakeholder recommendations 
and efforts for equal participation and inclusion. After the National 
Academies posted the twelve proposed panelist's names and brief 
biographies, concerns for a fair and meaningful approach grew stronger. 
Not only had the project's scope been expanded, revealing the National 
Academies' interest in overemphasizing tax increases, the proposed 
committee panel did not represent an overall balance of professional 
views and backgrounds. It remains uncertain whether the committee knew 
that eight of 12 of panelists chosen to serve had conflict of interest 
issues surrounding their acceptance of funding from one of the nation's 
largest Neo-Prohibitionist foundations.
    Therefore, on August 12, 2002, the licensed beverage industry made 
a written inquiry regarding general information on the nominees and 
seeking verification that Federal law was being followed with regard to 
the selection process. Appendix E.
    Additionally, during the brief time that was allowed for comment on 
the proposed study panelists, follow-up letters making recommendations 
of alternate experts were again sent by two Members of Congress. Again, 
those names were rejected by the National Academies.
    They provide the subcommittee with an idea of how the National 
Academies conducted the study, the following is intended to highlight 
just some of the areas of concern previously expressed to the National 
Academies.

Federal Advisory Committee Act

    Membership in Federal advisory committees, including committees 
created by the National Academies, is regulated by the Federal Advisory 
Committee Act (FACA). Pursuant to section 15(a)(2) of FACA, the 
National Academies is obligated to ensure that individuals appointed to 
an advisory committee have no conflicts of interest, that the overall 
membership of the committee is ``fairly balanced'' and that the final 
report will reflect the Academy's independent judgment. The FACA 
requirements, including especially the fair balance requirement, are 
intended to ensure that advisory committees do not become vehicles by 
which narrow special interest groups may capture a governmental process 
to advance their own agendas.

National Academies Secretive Process

    In response to NBWA's written request for pertinent information 
regarding the nominees, their professional backgrounds, potential 
conflicts of interests and the individual or organization who submitted 
or sponsored each of the 12, the National Academies, citing internal 
policies, refused to produce any information, stating that it 
considered such information to be ``privileged'' and ``not available 
for public release,'' revealing that their committee selection process 
is shrouded in secrecy, protected by its own established policies and 
insulated from public review, scrutiny and comment.
    Without access to relevant information and documentation on those 
chosen and the process surrounding their selection, which has been 
restricted from access by the National Academies, the public is unable 
to demonstrate that reasonable steps were taken to ensure that the 
committee is fairly balanced.
    In a letter to Congress, National Academies President Bruce Alberts 
provides a typically bureaucratic response to offer assurances that 
conflicts of interest were reviewed and those panelists who voluntarily 
took or received financial support would either request to be removed 
or be passed over. Neither of which was done, casting doubt on the 
legitimate scientific approach taken by the National Academies.

National Academies Failure to Balance

    The National Academies is obligated by a general duty, internal 
guidelines and Federal law to protect the overall process of the study 
at issue, with the goal of ensuring its objectivity, fairness and lack 
of bias. A process that is unfair will render a study that is as well. 
Without the former, the National Academies cannot ensure--to Congress 
or the public--the latter. With regard to the study at issue, the 
advisory committee is not fairly balanced. At least five individuals 
who strongly support tax increases or restrictive alcohol access laws 
as effective were chosen.
    <bullet> Mark Moore published an article entitled ``Actually, 
Prohibition was a Success, `` wherein he contends the restrictive 
alcohol access laws of the Prohibition era effectively lowered the 
prevalence of drinking.
    <bullet> Marilyn Aguirre-Molina has made claims that the alcohol 
industry is ``killing'' young people and ``stealing'' society's heroes, 
holidays, and values. She has asserted in writing that restrictive 
alcohol access laws most effectively prevent problem drinking.
    <bullet> Philip Cook's academic articles endorse increased alcohol 
taxation: ``Current [alcohol] excise taxes are too low, both nationally 
and in every State. The rates are far less than the average social cost 
of each drink consumed. Raising the excise tax would be in the public 
interest.''
    <bullet> Judy Cushing supports restrictive alcohol access laws and 
is currently involved in a lobbying effort aimed at increasing Oregon's 
beer excise tax.
    <bullet> Joel W. Grube's academic writings conclude that price and 
tax increases are among the most effective policies for limiting youth 
drinking.
    In light of the well-established positions of these panelists on 
restrictive access and tax increases, the other panelists do not fairly 
balance or provide for an overall balance of views on the committee as 
a whole. Additionally, Richard Bonnie, Robert Hornik, Bonnie Halpern-
Felsher and Janis Jacobs do not appear to have any significant 
expertise as regards underage drinking.
    Other worthy candidates were recommended for inclusion to render a 
more fairly balanced advisory committee. NBWA, joined by the Beer 
Institute and the Wine and Spirits Wholesalers of America, Inc., 
nominated three distinguished academics--Richard Jessor, Robert Pandina 
and David Anderson. Members of Congress also made independent 
recommendations.
    When considered as a whole, the panel was not and could not 
reasonably have been regarded by the National Academies as ``fairly 
balanced.'' The panel was calculated to ensure a final consensus report 
that would endorse the National Academies' apparently preconceived 
conclusion that underage drinking is most effectively combated by 
increased excise taxes and restrictive alcohol access laws.

National Academies Ignored Industry Responsibility Programs

    The National Academies and the advisory committee that was selected 
have both exhibited conduct that suggests a failure to follow 
Congress's mandate to ``review existing Federal, State, and non-
governmental programs, including media-based programs, designed to 
change the attitudes and health behaviors of youth.'' Many 
organizations, including the NBWA, submitted documents, articles, 
videotapes and other materials on a broad range of established 
responsibility programs designed to address underage issues; however, 
evidence strongly suggests that National Academies and the committee 
ignored outright the industry programs submitted.
    Through national, State and local efforts, beer wholesalers and the 
beer industry in general actively participate in a broad array of 
highly successful prevention programs that effectively address illegal 
underage concerns. As a result, the beer industry has gained a wealth 
of knowledge and information on underage issues, including information 
relevant to many of the areas addressed in the fiscal year 2002 Labor, 
Health and Human Services, Education and related agencies conference 
report that called for the study that will be addressed during today's 
subcommittee hearing.
    Additionally, the beer industry has been successful in reducing 
illegal underage purchase and consumption through a variety of efforts. 
These efforts are outlined in documentation previously provided to the 
National Academies committee, and include information on countless 
programs, such as point-of-sale ID programs, retailer education and 
server training efforts, public service announcements, supplier 
partnerships on paid advertising and efforts at the State level for 
stricter penalties on retailers and consumers engaged in illegal 
underage purchase and consumption. In fact, illegal drinking among high 
school seniors has dropped 30 percent over the last two decades, 
according to a study sponsored by the National Institute on Drug Abuse. 
Thanks to the industry's prevention programs, and the efforts of 
parents, teachers and others, 82 percent of the nation's youth are now 
making the right decision to not drink alcohol illegally according to 
research from the U.S. Department of Health and Human Services.
    Materials were submitted on approximately 125 beer industry 
programs being conducted nationwide. These programs were provided in 
November of 2002 to the National Academies for review. Regrettably, the 
committee never reviewed these materials and as late as July of 2003, 
they remained unopened in cellophane shrink-wrapped packaging.

National Academies Workshop Activities

    At a workshop conducted on October 10-11, 2002, limited time or 
attention was paid to the topic of programs or their review. During the 
2 days of workshop discussions, minimal time was given to the 
discussion of existing programs, in particular private-sector programs. 
However, significant time and discussion was allowed to address discuss 
vilification of the licensed beverage industry--a legal industry.
    The following are examples of comments made:
    <bullet> ``. . . if the government is willing to demonize a large 
industry, it can really impress teenagers.'' Robin Room, Stockholm 
University
    <bullet> ``So in conclusion, I think, again, governments can use a 
variety of policies to raise price. Taxation is clearly the easiest . . 
.'' Frank Chaloupka, University of Illinois at Chicago
    The workshop participants that were invited by the National 
Academies further reveals the intent to push the study efforts in a 
predetermined direction as opposed to an objective and balanced review 
by those representing an array of opinions and attitudes toward 
effectively addressing underage drinking. For example, James O'Hara, 
with the Center on Alcohol Marketing and Youth (CAMY), was invited to 
participate.
    The work of CAMY and Mr. O'Hara has been described by Robert 
Lichter, the head of the Statistical Assessment Service, as ``tainted 
by advocacy,'' ``done to influence government action'' with findings 
that ``were tilted to require FTC action.'' The CAMY study at issue 
looked at alcohol advertising in national magazines in 2001 and 
concluded that various brands advertised heavily in ``youth-oriented'' 
magazines. Magazines such as Sports Illustrated, People and 
Cosmopolitan were included in the study in spite of the fact that the 
overwhelming majority of the readership of these publications is 
beyond--considerably beyond--21-years-old.
    Because industry concerns were going unaddressed by the National 
Academies, on June 2, 2003, approximately 136 members of the United 
States House of Representatives joined in writing to National Academies 
President Bruce Alberts asking that he ensure that the study remain on 
track and within the perimeters of Congressional intent.
    On June 18, 2003, I also wrote to Mr. Alberts to reiterate prior 
concerns over the way the study was being conducted, the secretive 
nature of the National Academies staff and the fact that information 
was being unnecessarily guarded. Specifically, an inquiry was made as 
to why the National Academy file contained a copy of a previous letter 
from industry, wherein the National Academy had redacted from public 
viewing, non-controversial text regarding the National Academy's 
obligations under Federal law. Appendix F.
    I have enclosed Mr. Albert's response for the subcommittee's review 
as well as a copy of the original letter and the redacted version of 
the letter that was placed in the National Academies public file. 
Appendix G.
    I urge the subcommittee to review Mr. Albert's explanation in his 
letter dated August 13, 2003, and compare the two letters submitted--
both the complete version and the redacted version--and make your own 
determination as to whether or not the contents that were redacted fit 
within the category described in paragraph two of Mr. Albert's letter. 
Possibly you will be enlightened as to the ways of the National 
Academy.
    Additionally, in Mr. Albert's letter, he states that the 
``extensive programmatic and research information'' provided by 
organizations have been ``carefully considered'' by the committee. I 
would ask that the subcommittee inquire as to the degree of 
consideration the National Academies' committee was able to give to 
programs that were never removed from shrink-wrapped packaging.

                            III. CONCLUSION

    While the process underlying the National Academies study is 
replete with efforts to exclude the industry, silence its voice and 
disregard its successful efforts on the important issue of reducing and 
eliminating underage drinking, a more important fact remains--a 
significant opportunity to offer Congress with a meaningful review has 
been missed. What was needed, and what Congress requested, was a 
thorough review of which government and private-sector programs work 
and which do not. Some of the most effective programs are being 
conducted in our communities, not necessarily by government agencies. 
Private sector groups, foundations, non-profit organizations and faith-
based groups are avoiding bureaucratic red tape and taking their 
message directly to homes and schools. Congress needs to know what 
works.
    <bullet> The National Academies report failed Congress and 
America's kids. Rather than serving as a blueprint for all parties--
government, community groups, law enforcement and the beer industry--
the report lacks scientific back-up to combat illegal underage 
drinking.
    <bullet> The report is a result of biased academics, the majority 
of whom should have been dismissed from the panel for obvious conflicts 
of interest.
    <bullet> It is beyond irresponsible that the National Academies 
chose to disregard Congress's instructions and squandered half-a-
million dollars to produce an unreliable study that fails to adequately 
identify real solutions to successfully combat illegal underage 
drinking.
    <bullet> Unfortunately, Congress is no closer today to identifying 
successful programs to address illegal underage drinking, than it was a 
year and a half ago, and $500,000 taxpayer dollars ago.
    Notwithstanding these misguided efforts, the beer industry remains 
committed to the fight against illegal underage drinking. Let's focus 
on real solutions, such as the programs that are working in our 
communities, and not tax hikes and untested programs. Working together, 
we can keep alcohol out of the hands of our children, and available for 
adults of legal drinking age to enjoy safely and responsibly.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               APPENDIX D
                                    Beer Institute,
    Wine and Spirits Wholesalers of America, Inc., 
                                              WSWA,
       National Beer Wholesalers Association, NBWA,
                                      Alexandria, VA 22314,
                                                      May 20, 2002.
Mary Ellen O'Connell,
Study Director,
Board on Children, Youth and Family,
National Research Council/Institute of Medicine,
2001 Wisconsin Avenue, NW,
Harris-156 Washington, DC 20007.

    Dear Ms. O'Connell: In response to the National Academy of Sciences 
(NAS) notice for public comment, we are writing to recommend several 
experts for consideration as participants in the NAS study addressing 
underage purchase and consumption of licensed beverages.
    As representatives of various national associations that represent 
those in the licensed beverage industry, we believe that the below-
mentioned experts, who are widely respected in their fields, possess 
the scientific and clinical background necessary to contribute to the 
task of analyzing existing underage prevention programs and aiding in 
the development of a cost-effective strategy to reduce underage abuses.
    Pursuant to the Labor, Health and Human Services and Education 
Appropriations conference report for fiscal year 2002, Congress has 
requested that NAS and Institute of Medicine (IOM) ``develop a cost-
effective strategy for reducing and preventing underage drinking.'' As 
part of the study, Congress has called for a review of existing 
Federal, State and non-governmental programs.
    In response to this congressional mandate, we believe that these 
experts can provide valuable assistance in the NAS effort to evaluate 
those programs sponsored and implemented by Federal and State 
governments as well as the vast range of privately implemented programs 
that have so successfully addressed the underage issue through a 
variety of approaches, including youth behavioral changes and 
modifications.
    While we do not agree with all of their professional conclusions, 
given their established backgrounds, we believe each would make an 
excellent choice for the NAS/IOM study panel. These individuals have 
previously participated in a broad range of studies sponsored by 
Federal agencies, have significant experience with youth culture, and 
possess a vast array of knowledge and information that would be of 
great benefit and value to the goal that Congress has targeted. 
Curriculum vitae information has been included for your review on each 
of the following recommendations:

Richard Jessor, Ph.D., Director of Institute of Behavioral Sciences, 
                    Department of Psychology, University of Colorado:

    Dr. Jessor has devoted his professional career to the study and 
research of adolescent and youth development, including the social 
psychology of risk behavior and socializing problem behavior among 
youth. He has served for the past 10 years as the director of the 
MacArthur Foundation Research Network on Successful Adolescent 
Development Among Youth in High-Risk Settings. He has served on 
multiple advisory boards and prominent committees empanelled to 
research and review alcohol-related issues, including serving on 
numerous boards for the National Institute on Alcohol Abuse and 
Alcoholism (NIAAA) as well as for the NAS. Additionally, he has 
received grant support from NIAAA, the National Institute of Drug Abuse 
(NIDA), National Institute of Mental Health and Robert Wood Johnson 
Foundation.

Robert J. Pandina, Ph.D., Director and Professor of Psychology, Center 
                    for Alcohol Studies, Rutgers University:

    Dr. Pandina serves on the review and editorial board of the 
American Journal of Drug and Alcohol Abuse and the Journal of Studies 
on Alcohol. He serves as the Director of the Center's Health and Human 
Development Laboratory, which is conducting a longitudinal study of 
alcohol- and drug-using behavior, its etiology, and its consequences. 
He has received grants from NIAAA, NIDA, and the New Jersey State 
Department of Health. His research interests include psychopharmacology 
and neuropsychology; alcohol and drug dependence longitudinal studies; 
forensic psychology; and sports psychology. Dr. Pandina serves on 
several advisory and editorial boards and serves as a Scholar in 
Residence at the National Institute on Drug Abuse.

David Anderson, Ph.D., Associate Professor of Education, George Mason 
                    University:

    Dr. Anderson is an associate professor and Director of the Center 
for the Advancement of Public Health at George Mason University. He 
serves as a project director and researcher on numerous national, 
State, and local projects and also teaches graduate and undergraduate 
courses on drug and alcohol issues. He has been involved in developing 
and implementing drug and alcohol prevention programs, with a targeted 
emphasis on schools and local communities. Anderson also co-authored 
two national surveys on college drug and alcohol prevention efforts and 
is co-director of the Promising Practices: Campus Alcohol Strategies 
project, which identifies exemplary alcohol abuse prevention 
strategies. With a shared interest in the success of the pending NAS 
study, we believe each of these experts to be worthy of serious 
consideration for inclusion on the study panel. Additionally, we look 
forward to a conclusion that reveals meaningful ways to further build 
upon the success of all existing programs, including those implemented 
within the licensed beverage industry, designed to prevent and reduce 
underage purchase and consumption. Thank you for your consideration.
            Sincerely,
                                               Jeff Becker,
                                     President, The Beer Institute.
                                             David K. Rehr,
                   President, National Beer Wholesalers of America.
                                            Juanita Duggan,
                                      Executive Vice President/CEO,
                           Wine and Spirits Wholesalers of America.
                                 ______
                                 
                               APPENDIX E
                                    Beer Institute,
    Wine and Spirits Wholesalers of America, Inc., 
                                            (WSWA),
       National Beer Wholesalers Association, NBWA,
                                      Alexandria, VA 22314,
                                                   August 12, 2002.
Mary Ellen O'Connell, 
Study Director,
Board on Children, Youth, and Families,
National Research Council/Institute of Medicine,
500 5th Street, NW,
11th Floor, Washington, DC 20001.
Re: Project #BCYF-I-02-01-A, Developing a Strategy to Reduce and 
        Prevent Underage Drinking

    Dear Ms. O'Connell: In response to the National Academy of Sciences 
(NAS) July 23, 2002, posting of provisional committee nominees for the 
above-referenced study, we are writing to provide formal comments on 
the proposed committee as well as the process by which the nominees 
have been reviewed and selected by NAS.
    As representatives of various national associations that represent 
those in the licensed beverage industry, we advocated for and support 
the House and Senate appropriators' decision to study existing Federal, 
State, and non-governmental programs designed to reduce and prevent 
underage drinking. We also support the decision to involve NAS in the 
process to review such programs, having previously recommended several 
experts for inclusion on the NAS advisory committee.
    Through national, State and local efforts, our various. 
associations and their respective members actively participate in 
hundreds, if not thousands, of highly successful programs that 
effectively address underage concerns. As a result, the licensed 
beverage industry has gained a wealth of knowledge and information on 
underage issues, including many of the areas detailed in the relevant 
section of the fiscal year 2002 Labor, Health and Human Services, 
Education and related agencies conference report.
    To assist the committee in this important endeavor and to help 
establish an environment that will contribute to the return of a study 
that is viewed as fair and credible, NAS is obligated by a general 
duty, National Research Council (NRC) guidelines, and Federal law to 
protect the overall process and ensure its objectivity, fairness and 
lack of bias.
    A process that is contaminated or unfairly slanted will yield a 
study that is as well. Alternatively, a fair process that ensures a 
balanced committee, void of biases and conflicts of interest, and one 
that adheres to proper procedure will assist in producing meaningful 
results. Without the former, NAS cannot ensure--to Congress or the 
public--the later. Of equal importance is the fact that a great deal of 
congressional and public attention will undoubtedly be paid to the 
results of this study, in turn, making strict adherence to and 
compliance with a process that assures fairness and balance all the 
more critical.
    With a shared interest in the outcome of the study, we are writing 
to express several concerns that we believe could potentially interfere 
with the study's goals, as they were carefully contemplated and 
determined by Congress, and which could ultimately weaken and undermine 
the credibility and value of the study at issue.

    A. The overall composition of the proposed committee lacks fairness 
and balance as required by Section 15 of the Federal Advisory Committee 
Act.

    NAS has not met the requirements of the 1997 Amendments to the 
Federal Advisory Committee Act (FACA), which State that those with 
conflicts of interest are to be excluded and that committee panels must 
be fairly balanced in terms of the points of view represented and the 
functions to be performed.
    Section 15 of FACA states:
    The Academy shall make its best efforts to ensure that (A) no 
individual appointed to serve on the committee has a conflict of 
interest that is relevant to the functions to. be performed, unless 
such conflict is promptly and publicly disclosed and the Academy 
determines that the conflict is unavoidable, (B) the committee 
membership is fairly balanced as determined by the Academy to be 
appropriate for the functions to be performed, and (C) the final report 
of the Academy will be the result of the Academy's independent 
judgment. The Academy shall require that individuals that the Academy 
appoints or intends to appoint to serve on the committee inform the 
Academy of the individual's conflicts of interest that are relevant to 
the functions to be performed.
    When Congress clarified FACA's application to NAS, NAS readily 
agreed to a standard intended by all to protect the integrity of NAS 
research and study efforts, while at the same time ensuring fairness in 
the process, public access to information, review by a balanced and 
unbiased advisory committee, and avoidance of conflicts of interests.
    The need for balance and avoidance of biases has been further 
reiterated in the NRC's ``Conflicts of Interest Policy'' and its 
``Updated Checklist for Responsible Staff Officers for Compliance with 
Section 15 of the Federal Advisory Committee Act,'' wherein NRC 
internal policy calls for an unbiased committee or, alternatively, the 
identification of a ``balance of potentially biasing backgrounds or 
professional or organizational perspectives,'' when an unbiased panel 
is not selected. NRC procedures also state that ``bias'' can be 
determined by a candidate's expression of a particular point of 
view.\1\
    Taken as a whole, the proposed committee does not represent a 
balance and is comprised of individuals who are biased on the issues. 
It is unfairly weighted and reflects an unequal distribution of 
professional backgrounds, points of view and professional affiliations. 
More importantly, it is dominated by individuals who have taken 
positions publicly on most every aspect regarding underage drinking, 
and who share a single view toward the licensed beverage industry, 
making it difficult for NAS to renounce the claim that the majority of 
the committee has already taken sides and is predisposed in its joint 
opinion of the issues that it will be reviewing.
    With this in mind, we do not believe that the committee under 
consideration can or will maintain an objective view on the issues at 
hand. With the majority of the panelists of a predisposed opinion, the 
integrity and credibility of the pending study is already called into 
question.
    Having expressed concerns with the proposed committee and the 
ultimate reliability of the conclusions to be rendered, we would ask 
the NAS to release the names of the alternate candidates it has slated 
pursuant to NRC procedure and--practice. A public release of the 
alternative list would allow for a meaningful review of all names being 
considered and would provide the public with an opportunity to assist 
in assuring that a fair and balanced committee is selected.

    B. Panel recommendations include those with stated biases and 
predetermined positions on the issues to be addressed by the study.

    The 20-calendar day timeframe for interested parties to provide 
comment does not allow for a meaningful and fair review of the proposed 
committee. In the very short time we have had to review, research and 
comment on the panelists' backgrounds, we have already determined that 
at least five or more have made public statements or taken positions 
publicly on the issues they are to address. The positions of those 
proposed should be viewed as a strong indication of their prospective 
biases.
    Specifically, positions have been taken by Marilyn Aguirre-Molina, 
Dr. Philip Cook, Dr. Joel Grube, Dr. Mark Moore, Dr. Denise Herd and 
others indicating their lack of objectivity on many of the issues 
surrounding the study and their biases favoring a predisposed and 
single position.

    C. Conflicts of interest are to be avoided.

    The Section 15 FAA requirements state that the NAS shall require 
individuals to inform the Academies of any potential conflicts of 
interest. NRC policy on ``Disclosure of Personal Involvements and Other 
Matters Potentially Affecting Committee Service'' defines ``conflict of 
interest'' as ``. . . any financial or other interest or affiliation 
which conflicts with the service of an individual because it could 
impair the individual's objectivity or could create an unfair 
competitive advantage for any person or organization. . . .''
    With the brief amount of biographical information that has been 
posted, it is virtually impossible for an interested party to determine 
if there is a potential or actual conflict of interest on the proposed 
committee. In order to raise a conflicts concern, sufficient details 
must be given. The public is handicapped in its desire to ensure that 
the committee is free of a conflict.
    Additionally, while the actual NRC ``Potential Sources of Bias and 
Conflicts of Interest'' forms may be confidential, the fact that a 
proposed panelist has completed and returned the form should not be. To 
date, we have been unable to confirm or verify that the NAS has 
followed this process and that in fact, among those recommended to 
conduct the study, no conflicts of interest exist. Merely declaring 
that a policy exists is of little use without a means of determining 
and guaranteeing its implementation.

    D. Inadequate biographical information has been posted with regard 
to the provisional committee nominees.

    Section 15 of FACA requires the Academies to provide biographies of 
those slated to serve on the committee. The NRC has stated that the 
biographical postings shall include specific information about the 
backgrounds, qualifications; affiliations, and prior committee service 
of each proposed committee member. The NRC has also emphasized that 
responsible staff officers will review with the executive directors the 
potential sources of conflicts and biases that have been accumulated 
from various sources, including public feedback.
    Again we would argue that without a more complete and meaningful 
release of information, the public is restricted in its desire to 
participate in the process and its right to access of information. The 
information posted and provided by the NRC is overly brief and 
insufficient. As has been revealed by our independent efforts alone, 
there is substantially more background information on the suggested 
panelists that is relevant to the study and should be posted and 
disclosed.
    The clear intent of both Congress and the NRC with regard to the 
above-referenced requirement was to ensure that interested parties were 
provided with enough information to allow for a meaningful review of 
the nominees. Without adequate and detailed information, a review is 
essentially meaningless.
    Interestingly, NRC allows for each nominee to ``approve'' the text 
of his biographical information before being posted. While we 
understand the nominee has a right to protect certain pieces of 
information and that the NAS has a legal obligation to assist in 
protecting the nominees' privacy concerns, the fact that a nominee may 
``approve'' the information being released allows for mischief.
    We ask that you post additional information on these individuals' 
backgrounds and their research in order that the public may participate 
in identifying potential sources of bias and possible conflicts of 
interest. Congress and Federal agencies cannot conceal information of 
this nature; therefore, the conclusions of a committee on which 
Congress is to rely should not be derived from a process that lacks 
fair and adequate disclosure of information.
    Specifically, we are requesting that additional biographical 
information be posted that discloses all relevant conflicts or bias 
information, including the number of NAS committees each nominee has 
served on in the past, any previously stated positions or opinions on 
the issues and programs to be addressed by the study, any past or 
current relations the nominees have with NAS, the United States 
Department of Health and Human Services, or any interested party. We 
would also like clarification by NRC that either no conflicts of 
interest or biases exist or that the existence of such has been 
properly disclosed.
    To disclose this information after the close of the 20-day formal 
comment period is of little or no use.

    E. The scope of the project as stated by NAS does not comply with 
the intent of Congress and exceeds the authority NAS has been granted.

    The intended scope of the study as stated by NAS differs from the 
conference report language of the fiscal year 2002 Labor/Health and 
Human Services appropriations bill. The study's determinations are 
important to Congress and those engaged in the effort to prevent and 
reduce underage drinking; therefore, it is important to ensure that the 
committee refrains from deviating from the scope of Congress's intent.
    The conference report language requests a study of an array of 
programs designed to prevent and reduce underage drinking, and 
enumerates a very specific list of inquires to which Congress is 
seeking a reply. NRC policy states that the ``project scope description 
should be . . . consistent with the terms of reference in a contract, 
grant, or cooperative agreement.''
    For NAS to go beyond the scope of the request set out in the 
conference report and delve into areas of legislative authority defies 
its own procedures and is overreaching and contradictory to 
congressional intent. Nowhere in the report language does Congress seek 
input from NAS or its advisory committee with regard to tax-related 
issues. Yet, the scope as stated by NAS suggests, with some emphasis, 
that the study will be reviewing excise tax measures.
    NAS holds itself out as a ``private, non-profit, self-perpetuating 
society of distinguished scholars engaged in scientific and engineering 
research, dedicated to the furtherance of science and technology and to 
their use for the general welfare.'' According to the NAS original 
charter, Congress signed NAS into being to ``. . . report upon any 
subject of science or art.''
    This mandate does not extend to NAS legislative authority in any 
area, and certainly not in the area of recommending tax increases on 
the public, an area of sensitivity and one that is specifically 
reserved for Congress and its congressional committees. Any decision to 
implement or increase excise taxes, or any other tax, is totally 
outside the authority and jurisdiction of NAS, and we strongly object 
to the inclusion of any tax-related matters in this study.
    We are also concerned that the stated scope does not provide much 
detail or information regarding the types of programs that will be 
studied. The conference report references non-governmental programs for 
review. We believe private sector programs can contribute a great deal 
to the value of the project. There are many highly successful and well-
received programs that have been implemented by various local and 
community organizations, parent and civic associations, businesses, 
schools, non-profits, and the licensed beverage industry. We would urge 
that these programs also be reviewed and receive equal weight and 
consideration.
            Sincerely,
                                               Jeff Becker,
                                         President, Beer Institute.
                                            Juanita Duggan,
                                      Executive Vice President/CEO,
                            Wine and Spirits Wholesales of America.
                                             David K. Rehr,
                  President, National Beer Wholesalers Association.

ENDNOTES

    1. All references to the National Research Council's (NRC) Updated 
Checklist for Responsible Staff Officers for Compliance with Section 15 
of the Federal Advisory Committee Act (FACA) are derived or extracted 
from the August 10, 1998, update of the policy original drafted and 
released on December 17, 1997. References to its Conflicts of Interest 
Policy are from NRC's 1992 publication. A request to the National 
Academy of Sciences (NAS) for the most recent publications has been 
made but not yet received.
                                 ______
                                 
                     REDACTED VERSION OF APPENDIX E
                                    Beer Institute,
    Wine and Spirits Wholesalers of America, Inc., 
                                              WSWA,
       National Beer Wholesalers Association, NBWA,
                                      Alexandria, VA 22314,
                                                   August 12, 2002.
Mary Ellen O'Connell,
Study Director,
Board on Children, Youth and Families,
National Research Council/Institute of Medicine,
500 5th Street, NW, 11th Floor,
Washington, DC 20001.

Re: Project# BCYF-1-02-O1-A, Developing a Strategy to Reduce and 
        Prevent Underage Drinking

    Dear Ms. O' Connell:

    REDACTED

    REDACTED

    REDACTED

    REDACTED

    REDACTED

    REDACTED

    REDACTED

    E. The scope of the project as stated by NAS does not comply with 
the intent of Congress and exceeds the authority NAS has been granted.
    The intended scope of the study as stated by NAS differs from the 
conference report language of the fiscal year 2002 Labor/Health and 
Human Services appropriations bill. The study's determinations are 
important to Congress and those engaged in the effort to prevent and 
reduce underage drinking; therefore, it is important to ensure that the 
committee refrains from deviating from the scope of Congress's intent.
    The conference report language requests a study of an array of 
programs designed to prevent and reduce underage drinking, and 
enumerates a very specific list of inquires to which Congress is 
seeking a reply. NRC policy states that the ``project scope description 
should be . . . consistent with the terms of reference in a contract, 
grant, or cooperative agreement.''
    For NAS to go beyond the scope of the request set out in the 
conference report and delve into areas of legislative authority defies 
its own procedures and is overreaching and contradictory to 
congressional intent. Nowhere in the report language does Congress seek 
input from NAS or its advisory committee with regard to tax-related 
issues. Yet, the scope as stated by NAS suggests, with some emphasis, 
that the study will be reviewing excise tax measures.
    NAS holds itself out as a ``private, non-profit, self-perpetuating 
society of distinguished scholars engaged in scientific and engineering 
research, dedicated to the furtherance of science and technology and to 
their use for the general welfare.'' According to the NAS original 
charter, Congress signed NAS into being to ``. . . report upon any 
subject of science or art.''
    This mandate does not extend to NAS legislative authority in any 
area, and certainly not in the area of recommending tax increases on 
the public, an area of sensitivity and one that is specifically 
reserved for Congress and its congressional committees. Any decisionto 
implement or increase excise taxes, or any other tax, is totally 
outside the authority and jurisdiction of NAS, and we strongly object 
to the inclusion of any tax-related matters in this study.
    We are also concerned that the stated scope does not provide much 
detail or information regarding the types of programs that will be 
studied. The conference report references. non-governmental programs 
for review. We believe private sector programs can contribute a great 
deal to the value of the project. There are many highly successful and 
well-received programs that have been implemented by various local and 
community organizations, parent and civic associations, businesses, 
schools, non-profits, and the licensed beverage industry. We would urge 
that these programs also be reviewed and receive equal weight and 
consideration.
            Sincerely,
                                               Jeff Becker,
                                         President, Beer Institute.
                                            Juanita Duggan,
                                      Executive Vice President/CEO,
                           Wine and Spirits Wholesalers of America.
                                             David K. Rehr,
                  President, National Beer Wholesalers Association.

    REDACTED
                                 ______
                                 
                               APPENDIX F
       National Beer Wholesalers Association, NBWA,
                                 Alexandria, VA 22314-2044,
                                                     June 18, 2003.
Dr. Bruce Alberts,
President,
National Academy of Sciences,
500 Fifth Street, NW,
Washington, DC 20001.

    Dear Dr. Alberts: As you know, the National Beer Wholesalers 
Association (NBWA) strongly advocated that Congress include language in 
the 2002 Labor-HHS Appropriations Conference Report calling for a 
comprehensive study of existing underage drinking programs. As a result 
of that legislation, the National Academy of Sciences (NAS) received 
$500,000 to conduct a thorough review of existing Federal, State and 
non-governmental programs to combat underage drinking.
    As taxpayers and vigorous opponents of the illegal underage 
purchase and consumption of licensed beverages, NBWA members are 
concerned by the steps taken by the panel to date that focus on issues 
beyond Congress's original intent, and which reflect the anti-industry 
bias of panelists, agendas and witnesses. This is not the first time we 
have raised these concerns.
    In a letter addressed to Study Director Mary Ellen O'Connell dated 
August 12, 2002, NBWA expressed concerns that NAS did not meet the 
requirements of the 1997 Amendments to the Federal Advisory Committee 
Act (FACA). Those requirements state that individuals with conflicts of 
interest are to be excluded from committee panels, and that those 
panels be fairly balanced in terms of the points of view represented 
and the functions to be performed.
    Oddly enough, the contents of the copy of this letter that exists 
in the NAS public file have been redacted, barring the public and media 
from its review. We find this highly unusual and request an explanation 
as to why it was done.
    NBWA continues to be concerned about the lack of objectivity of the 
panel as the study moves forward. As a whole, the committee is not 
fairly balanced, being comprised of several individuals who must be 
presumed to be biased based on public positions that have revealed 
their preconceived opinions regarding many of the issues involved.
    Several members of Congress, NBWA and industry allied groups made 
independent recommendations of various, well-respected experts for 
inclusion on the panel. However, NAS ignored those suggestions and 
selected a panel of individuals who do not represent diverse views or 
opinions on the issues they are tasked with reviewing.
    As mentioned before, the scope of the study as stated by NAS 
differs from the intent of Congress as stated in the conference report 
language. Specifically, the conference report does not seek input from 
NAS or its advisory committee with regard to tax-related issues. Excise 
taxes are totally outside the authority and jurisdiction of NAS.
    Additionally, the committee appears to have paid little attention 
to developing real solutions, such as increasing involvement by 
parents, peers, teachers and community leaders, enforcing existing 
laws, influencing the personal choices of minors and weighing the value 
of successful licensed beverage industry responsibility programs.
    We are especially disappointed in the lack of consideration given 
to already established industry responsibility programs during the 
study process. The beer industry actively promotes responsible 
consumption of its products and has made a significant contribution to 
addressing underage issues. A sample of the vast array of programs 
include point-of-sale ID programs, public service announcements, 
retailer and server education and educational materials to help parents 
talk to their children about illegal underage drinking. Information on 
more than 125 beer industry programs was provided to the committee for 
review during the study process.
    The beer industry's responsibility efforts, along with those of 
parents, teachers, community leaders and other organizations, have led 
to real progress in the fight against underage drinking. Research 
sponsored by the University of Michigan conducted over the past two 
decades clearly demonstrates that drinking among our nation's youth has 
significantly declined. The work of the industry should be recognized 
by the committee and its multitude of programs should be thoroughly 
reviewed.
    The directive of Congress has thus far been ignored in the 
committee process. In fact, nearly 140 members of Congress recently 
wrote to NAS requesting that the study focus on the original intent--
existing Federal, State and non-governmental programs--and not on 
untested theories and policy changes intended to adversely affect the 
licensed beverage industry. NBWA supports comprehensive solutions to 
the problems associated with the illegal underage purchase and 
consumption of licensed beverages.
    What was meant to be a thorough review of programs to fight 
underage drinking has gone astray. The NAS study is apparently focused 
largely on increasing beer excise taxes, developing a taxpayer-funded 
anti-beer media campaign and imposing unnecessary advertising limits 
and restrictions.
    All in all, the committee is failing to provide an adequate effort 
to yield a credible, reliable study that Congress may rely on for 
unprejudiced results. Over the years, the beer industry has made an 
enormous contribution to reducing illegal underage purchase and 
consumption, and I again urge the committee to review private-sector 
programs and give them equal weight and consideration.
            Sincerely,
                                      David K. Rehr, Ph.D.,
                                                         President.
                                 ______
                                 
                               APPENDIX G
                      National Academy of Sciences,
                            The National Academies,
                                      Washington, DC 20418,
                                                   August 13, 2003.
David K. Rehr,
President, National Beer Wholesalers Association,
1101 King Street,
Suite 600,
Alexandria, VA 22314-2944.

    Dear Dr. Rehr: I write in response to your June 18, 2003 letter 
regarding the National Academies study on Developing a Strategy to 
Reduce and Prevent Underage Drinking. Thank you for your continued 
interest in this important project.
    In accordance with Section 15 of the Federal Advisory Committee 
Act, the National Academies, through our Public Access Records Office, 
makes available to the public written information presented to the 
study committee by individuals who are not officials, agents, or 
employees of the Academies. The extensive programmatic and research 
information that you and other organizations and individuals have 
provided to the committee is included in the project's public access 
file and has been carefully considered by the committee. The National 
Academies' leadership carefully considers information provided by the 
public related to the composition of the committee--including 
particularly suggestions of individuals as prospective nominees to the 
committee, or comments about the credentials of specific members who 
have been provisionally appointed to the committee--but this 
information is not included in the public access file. This type of 
information is relevant to our institutional management of the study, 
but is not germane to deliberations of the study committee. The 
contents of your August 12, 2002 to Mary Ellen O'Connell that were 
redacted fit into this latter--category as they were specific to 
National Academies' procedures and specific committee members.
    We of course will ensure that the report of the study addresses the 
questions posed by Congress, and that it reflects the relevant 
scientific literature. As is the case with all studies conducted at the 
National Academies, we have tapped the expertise in several of our 
boards such as the Board on Children, Youth and Families, and have 
received input from members of the Institute of Medicine, the National 
Academy of Sciences, and the National Research Council's Governing 
Board among others. These extensive consultations enable us to provide 
an objective and independent response to the Congressional request. The 
statement of task for the committee directs it to equally consider the 
full range of approaches to reducing underage drinking. During the 
course of the study, the committee has taken into account, in the 
context of its charge, the range of input received in the form of 
commissioned papers, written and verbal testimony, correspondence, and 
informational materials provided by multiple interested parties, such 
as your organization.
    As you know, the committee's draft report is subjected to a 
rigorous external review. As a final check on the quality and 
objectivity of the study, the Academies appoint additional independent 
experts with a range of views and perspectives to review and comment on 
the draft report prepared by the committee. The review process is 
structured to ensure that the report addresses the approved study 
charge and does not go beyond it; the findings are supported by the 
evidence and arguments presented; the exposition and organization are 
effective; and the report is impartial and objective. Once revisions in 
response to review are made by the committee to satisfy our rigorous 
review process, the report is transmitted to the sponsoring agency and 
released to the public. Names and affiliations of reviewers are made 
public when the report is released.
    The review of the committee's draft report is underway, so it would 
be inappropriate to respond to the views you share regarding the focus 
of the report, or what is or is not included in it. I look forward to 
providing you with the committee's report in the near future and to 
receiving your comments.
            Sincerely,
                                             Bruce Alberts,
                                                         President.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
       Response to Questions of Senator Reed From Richard Bonnie

    Question 1. Mr. Becker in his written testimony states that the NAS 
report ``ignored the clear direction of Congress to evaluate existing 
Federal, State and non-governmental programs'' focusing instead of 
costly, experimental programs.
    As Chair of the NAS Committee that crafted this report, how do you 
respond to this claim?
    Answer 1. The committee reviewed available evidence regarding the 
effectiveness of a wide variety of government and private programs for 
the purpose of developing a comprehensive national strategy to reduce 
underage drinking. We relied on the available scientific literature, 
commissioned papers, testimony and submissions from the public, and the 
committee's expertise in areas such as public policy, public health, 
youth development and substance abuse prevention. The committee's 
charge was to provide science-based recommendations about how best to 
reduce and prevent underage drinking, and we believe we fulfilled that 
charge.

    Question 2. I was particularly struck by the number of 
recommendations in the NAS report geared toward limiting access to 
alcohol at the State and local level.
    What can we do at the Federal level to encourage States and 
localities to adopt some of these thoughtful recommendations?
    Answer 2. To help monitor and increase compliance with access 
restrictions, the committee recommends that a provision similar to the 
Synar Amendment's requirement for youth tobacco sales be established 
for alcohol sales. As a condition of receiving block grant funds, 
States could be required to achieve designated rates of retailer 
compliance with youth access prohibitions. Relevant block grants 
include the OJJDP block grant mentioned above as well as the prevention 
set-aside of the substance abuse prevention and treatment block grant 
in SAMHSA. Although not specifically discussed in the report, an 
incentive for States to increase compliance could also be established 
by providing bonus funding to States that achieve a particularly high 
level of compliance.
    Both the Federal Government and States should improve coordination 
of the multiple agencies (e.g., substance abuse, education, 
transportation, justice) involved in addressing underage drinking. As 
part of establishing the recommended Federal interagency task force, 
the Federal Government might direct States to identify a lead State 
agency contact as a liaison to the Federal Government.
    The committee also recommends that funding be provided directly to 
communities to enable them to develop and implement initiatives 
specifically aimed at reducing underage drinking. The committee 
believes that such funding could be modeled after the Drug Free 
Communities Act which provides funding to communities to develop drug 
use prevention efforts generally. If such a funding stream is 
established, communities should be required to implement evidence-based 
approaches, including limiting access to alcohol.
    The Department of Justice, through the Office of Juvenile Justice 
and Delinquency Prevention (OJDDP), operates the largest Federal 
program, the Enforcing the Underage Drinking Laws program, specifically 
targeted at underage drinking. This program provides block grant 
resources to States and discretionary grants to States and communities. 
States and localities who receive these funds could be encouraged to 
adopt the committee's recommendations. The technical assistance center 
operated by this program is one potential source for such guidance.
    Although not discussed in the report, a federally-funded multi-
State demonstration effort might serve as a useful first step to 
mobilize State and local activity to reduce underage drinking.

    Question 3. The report also references an initiative between the 
National Institute on Alcohol Abuse and Alcoholism (NIAAA) and a 
consortium of college Presidents that presented its findings on 
strategies to reduce binge drinking on college campuses. The President 
of the University of Rhode Island was one of the members of this task 
force.
    What role does the NIAAA (``N-I-triple A'') initiative play in 
terms of the comprehensive strategy being advocated in the NAS report?
    Answer 3. NIAAA is the Federal agency with lead responsibility for 
research related to underage drinking. NIAAA should continue and expand 
its portfolio of research to enable continuous refinement of the 
national strategy proposed in the committee's report and to increase 
our knowledge about the effectiveness of particular approaches. For 
example, information about how the strategy might need to differ for 
various age groups, and how to reach groups that have not traditionally 
been reflected in research such as youth in the workplace, needs to be 
developed. NIAAA could also facilitate State and local action by 
funding research on State and local-level interventions focused on 
underage drinking.
    Many of the recommendations specific to college campuses made in A 
Call to Action are similar to those recommended by the committee. 
Undoubtedly this is because the NIAAA effort involved a similar 
synthesis of scientific evidence. NIAAA's continued involvement in this 
initiative, particularly if it is coupled with ongoing research to 
allow further tailoring of approaches to specific types of campuses, 
should advance the approach outlined in the committee's report.

         Response to Questions of Senator Reed From Jeff Becker

    Question 1. One of the recommendations of the NAS report is for the 
alcohol industry to partner with public entities in the formation of an 
independent non-profit foundation with the sole mission of designing, 
implementing and evaluating evidence based programs for preventing 
underage drinking. Are you and the individual companies willing to 
discuss such a partnership with other potential partners?
    Answer 1. The beer industry agrees with the NAS that partnerships 
with independent, non-profit and public entities that are leaders in 
the fight against underage drinking are an important component in the 
fight against underage drinking. That is why for decades, brewers have 
financially supported independent groups like BACCHUS/GAMMA, the TEAM 
Coalition, the National Conference of State Liquor Administrators, 
local chapters of Mothers Against Drunk Driving, several college and 
university social norms and anti-alcohol abuse programs, and many 
others who are experts in their respective fields. The Subcommittee has 
a comprehensive package of materials on our existing efforts, and we 
would be pleased to spend some time with members and/or staff to review 
these initiatives in greater detail.
    This packet of material was also supplied to the NAS to use in 
fulfilling the Congressional request for an examination of existing 
programs to fight underage drinking. One of the shortcomings in the 
National Academies report was its failure to evaluate these programs. 
We respectfully refer the Subcommittee to three recent Federal surveys 
and reports that do include inventories of existing programs sponsored 
by brewers, many of which have been independently evaluated. One of the 
most comprehensive surveys was performed for the Department of Justice 
Office of Juvenile Justice and Delinquency Prevention (OJJDP). A report 
that focused on college drinking was released in 2003 by the National 
Institute on Alcohol Abuse and Alcoholism and a third report and 
evaluation was released earlier this year by the Substance Abuse and 
Mental Health Services Administration. The same organization that 
performed the survey for the OJJDP actually delivered a commissioned 
paper to the National Academies panel and never mentioned the work that 
his organization performed with Federal funds.
    Brewers have long come to the realization that we are far more 
effective in the fight against underage drinking when we are able to 
team with people and organizations that are open to our involvement and 
treat us as sincere partners in the process. Toward that end, Beer 
Institute members are not prepared to commit to funding or 
participating in a non-profit organization dedicated to the design, 
evaluation, and implementation of underage drinking programs. At this 
point in time, we do not even understand the expectations for such an 
organization or its mission and structure. Members of the brewing 
industry have ongoing and significant commitments to existing non-
profit organizations whose missions include programs or research 
activities to address various aspects of underage drinking. Any 
significant new commitment would take resources away from those 
programs.
    Please keep in mind that I represent the Beer Institute and its 
members. I do not speak on behalf of the entire ``alcohol industry.'' 
In fact, the repeated characterizations of ``the alcohol industry'' as 
one unit demonstrates a lack of understanding that the ``alcohol 
industry'' is made up of independent businesses operating in a 
regulated, three-tier system that was designed by Congress and adopted 
by the States after the repeal of Prohibition to ensure accountability, 
integrity, and efficient tax administration. As mandated in Federal and 
State law, production, distribution, and retail sale of alcohol 
beverages are conducted by over 600,000 separate licensed entities 
operating throughout the United States. Within that universe, beer, 
wine, and hard liquor are regulated separately in view of the distinct 
differences among the products. We briefly referenced this point in our 
testimony, and we attempted to communicate information about the 
organization of the industry to the National Academies during the 
deliberations of the underage drinking panel.
    Congress has certainly recognized the need for multiple approaches 
by authorizing several Federal agencies to address aspects of underage 
drinking. Those agencies in turn fund hundreds of grantees including 
research institutions and agencies of State and local government, non-
profit community organizations and others. Federal agencies have funded 
or conducted basic behavioral and biomedical research, a variety of 
prevention initiatives, grants to State and local law enforcement, 
educational efforts designed for specific age groups, and drunk driving 
prevention programs. The work to be done is far beyond the reach of one 
non-profit group.

    Question 2. Setting aside the issue of excise taxes, the NAS report 
made many other recommendations embracing approaches that the industry 
supports--such as focusing on parents and also increasing compliance 
with the underage drinking laws. What parts of the strategy do you 
agree with?
    Answer 2. Without going through an exhaustive point by point review 
of the National Academies document, brewers and beer wholesalers are 
already heavily involved in nine of the ten strategy components in the 
National Academies report. If you consider the fact that brewers 
already pay billions of dollars in Federal and State excise taxes with 
virtually no compliance costs to government agencies, beer industry 
members are involved in all ten areas.
    In the September 2003 Federal Trade Commission Report on Alcohol 
Marketing and Advertising, the Commission found that a focus on two key 
issues is needed to make further progress in the battle against illegal 
underage drinking: Educating adults who directly or indirectly supply 
youth with alcohol, and enforcing the laws against sales to underage 
people.
    In many respects, the FTC's and the National Academies' findings 
were remarkably simple and poignant. Neither, however, surprised 
brewers who have devoted tremendous resources to developing programs 
for parents and educators to use in talking with kids about underage 
drinking, and developing programs in multiple languages for retailers 
on the front lines to help them spot fake identification and train them 
on tactics used by underage people to purchase alcohol. We 
wholeheartedly endorse and support efforts in these two areas.

       Response to Questions of Senator Reed From Wendy Hamilton

    Question 1. You point out in your written testimony that there have 
been dramatic declines in the number of drunk driving fatalities 
involving underage drinkers since the 1980's. However, over the past 
decade, we have made little progress in further reducing the number of 
these fatalities. Why has this stagnation occurred?
    Answer 1. Our nation accepts underage drinking as a mere ``rite of 
passage,'' so it is no surprise that underage drinking rates--and 
associated consequences such as youth alcohol-related traffic crashes--
have not improved for the past decade. Progress to reduce youth alcohol 
use was made in the 1980's in large part due to the increase of the 
minimum drinking age (MDA) to 21. As the National Academy of Sciences 
reports:
    Limiting youth access to alcohol has been shown to be effective in 
reducing underage drinking and drinking-related problems. Since 21 
became the nationwide legal drinking age, there have been significant 
decreases in drinking, fatal traffic crashes, alcohol-related crashes, 
and arrests for ``driving under the influence'' (DUI) among young 
people.
    Increasing the minimum drinking age to 21 has been one of the most 
effective public health policies in history, resulting in a significant 
decrease in fatal traffic crashes, DWI arrests, and self-reported 
drinking by young people. However, the law alone does not preclude 
youth from gaining access to alcohol. The National Academy of Sciences 
also reports:
    Given the widespread availability and easy access by underage 
drinkers, minimum drinking age laws must be enforced more effectively, 
along with social sanctions. The effectiveness of underage drinking 
laws could be enhanced through such approaches as compliance checks, 
server training, zero tolerance laws, and graduated driver licensing 
laws.
    While the effectiveness of the 21 MDA law is undeniable, there is 
much more that the nation must do to reduce and prevent underage 
drinking. General deterrence through sanctions, improved enforcement, 
and public awareness of enforcement is needed in order to effectively 
implement restrictions on youth alcohol use. It is critical that 
funding be made available to enforce existing laws and to implement 
scientifically-proven community prevention programs.
    Enforcement of State and local laws has proven to be a highly 
effective tool in underage drinking prevention. Tougher enforcement of 
laws aimed at reducing underage drinking is greatly needed, and 
Congress can provide the impetus for action by enacting a law based on 
NAS Recommendation 9-3:
    9-3: The Federal Government should require States to achieve 
designated rates of retailer compliance with youth access prohibitions 
as a condition of receiving block grant funding, similar to the Synar 
Amendment's requirements for youth tobacco sales.
    The nation also needs to execute a coordinated effort at the 
national, State and local level to combat this public health problem. 
MADD urges Congress to implement NAS Recommendations 12-1 through 12-6, 
which demonstrate a clear need for better ``Government Assistance and 
Coordination'' at the national level in order to reduce underage 
drinking:
    12-1: A Federal interagency coordinating committee on prevention of 
underage drinking should be established, chaired by the secretary of 
the U.S. Department of Health and Human Services.
    12-2: A National Training and Research Center on Underage Drinking 
should be established in the U.S. Department of Health and Human 
Services. This body would provide technical assistance, training, and 
evaluation support and would monitor progress in implementing national 
goals.
    12-3: The secretary of the U.S. Department of Health and Human 
Services should issue and annual report on underage drinking to 
Congress summarizing all Federal agency activities, progress in 
reducing underage drinking, and key surveillance data.
    12-4: Each State should designate a lead agency to coordinate and 
spearhead its activities and programs to reduce and prevent underage 
drinking.
    12-5: The annual report of the secretary of the U.S. Department of 
Health and Human Services on underage drinking should include key 
indicators of underage drinking.
    12-6: The Monitoring the Future Survey and the National Survey on 
Drug Use and Health should be revised to elicit more precise 
information on the quantity if alcohol consumed and to ascertain brand 
preferences of underage drinkers.
    The decade-long plateau in underage drinking rates demands 
attention. The NAS report provides a science-based roadmap to reduce 
underage drinking, and MADD hopes to work with this Committee to 
implement this strategy.

    Question 2. A central focus of the NAS report is the importance of 
an adult-oriented strategy to foster the development of a societal 
commitment to reduce underage drinking. Why do you think parents are 
accepting of underage drinking?
    Answer. Unlike marijuana, ecstasy or cocaine, alcohol is a legal 
product for people 21 and older. MADD does not take issue with the 
responsible, legal use of alcohol. However, because alcohol is a legal 
product for the adult population, and is widely accepted as a ``rite of 
passage,'' youth prevention is especially difficult. One never hears, 
``thank goodness my kid is just smoking weed'' or ``thank goodness my 
kid is only doing ecstasy;'' but parents often do say ``thank goodness 
my kid is only drinking alcohol.'' Adults and society at large 
incorrectly view youth alcohol use as a harmless part of growing up, 
even though alcohol kills 6.5 more youth than all other illicit drugs 
combined. Clearly there is a gaping hole in messages that go out to 
parents and communities (and in school curriculum) about the dangers of 
youth alcohol use.
    Adults often facilitate youth access to alcohol--from the store 
clerk who doesn't check IDs, to the police officer who pours out the 
beer and send teens home without punishment for breaking the law, to 
adults who don't mind buying beer for a kid who slips him an extra $10.
    In addition, the alcohol industry continues to be the sole 
continuous source of messages to the nation on alcohol use, and through 
its targeted advertising practices and slick marketing campaigns 
portrays alcohol use as fun, sexy and cool. Ads often air during 
programs that are overwhelmingly viewed by teens.
    The need for a comprehensive public education campaign aimed at 
underage drinking prevention is undeniable as most parents and youth 
are unaware of the dangers associated with youth alcohol use. Many 
parents do not recognize the prevalence of, or the risks associated 
with, drinking for their own children. Parents have not been educated 
about alcohol's effects on the development of the adolescent brain, and 
often contribute (whether knowingly or not) to their underage 
children's drinking by giving kids access to alcohol, by not responding 
to children's drinking, and by not adequately monitoring their 
children's behavior. Kids receive mixed messages on a daily basis from 
their parents, other adults, the media and society at large.
    MADD commends the NAS for calling for a national advertising 
campaign to prevent underage drinking and strongly supports NAS 
Recommendation 6-1:
    6-1: The Federal Government should fund and actively support the 
development of a national media effort, as a major component of an 
adult-oriented campaign to reduce underage drinking.
    The goals of the national media campaign, as presented by NAS, 
would be to instill a broad societal commitment to reduce underage 
drinking, to increase specific actions by adults that are meant to 
discourage underage drinking, and to decrease adult conduct that 
facilitates underage drinking.

    Question 3. In your experience, how do parental attitudes towards 
alcohol compare to their attitudes toward tobacco use?
    Answer 3. Underage drinking and smoking is illegal, and yet 
millions of kids continue to engage in these high-risk behaviors every 
day. While not involved in tobacco policy, we surmise that the ``kids 
will be kids'' attitude that parents take towards underage drinking is 
similar with underage tobacco use.
    Youth tobacco use prevention efforts, including media campaigns 
designed to reduce youth smoking, have been shown to be effective. As 
more and more parents and kids learn about the dangers associated with 
smoking, societal attitudes have started to change. MADD will continue 
to push for the implementation of scientifically-based youth alcohol 
use prevention efforts, and the implementation of a nationally 
coordinated strategy--based on the NAS report--to prevent use alcohol 
use.

    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]

                                    

</pre></body></html>
